<html>
<title> - WORKPLACE SAFETY AND ASBESTOS CONTAMINATION</title>
<body><pre>[Senate Hearing 107-269]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-269
 
              WORKPLACE SAFETY AND ASBESTOS CONTAMINATION
=======================================================================


                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

EXAMINING WORKPLACE SAFETY AND ASBESTOS CONTAMINATION, FOCUSING ON THE 
 COMBINED AUTHORITY AND EFFORTS OF THE OCCUPATIONAL SAFETY AND HEALTH 
 ADMINISTRATION, MINE SAFETY AND HEALTH ADMINISTRATION, AND THE  
 ENVIRONMENTAL PROTECTION AGENCY TO PRESCRIBE AND ENFORCE REGULATIONS TO 
 PREVENT HEALTH RISKS TO WORKERS FROM EXPOSURE TO AIRBONE ASBESTOS

                               __________

                             JULY 31, 2001
                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions







                        U.S. GOVERNMENT PRINTING OFFICE
74-484                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio

           J. Michael Myers, Staff Director and Chief Counsel
             Townsend Lange McNitt, Minority Staff Director

                                  (ii)








  
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                         Tuesday, July 31, 2001

                                                                   Page
Murray, Hon. Patty, a U.S. Senator from the State of Washington..     1
DeWine, Hon. Mike, a U.S. Senator from the State of Ohio.........     3
Burns, Hon. Conrad, a U.S. Senator from the State of Montana, and 
  Hon. Max Baucus, a U.S. Senator from the State of Montana......     4
Lauriski, David D., Assistant Secretary For Mine Safety and 
  Health, U.S. Department of Labor; R. Davis Layne, Acting 
  Assistant Secretary For Occupational Safety and Health, U.S. 
  Department of Labor; Kathleen M. Rest, Acting Director, 
  National Institute For Occupational Safety and Health, Centers 
  For Disease Control and Prevention, U.S. Department of Health 
  and Human Services; and Michael Shapiro, Acting Assistant 
  Administrator, Office of Solid Waste and Emergency Response, 
  U.S. Environmental Protection Agency...........................     9
Rehberg, Hon. Dennis, a Representative in Congress from the State 
  of Montana.....................................................    17
Lemen, Richard, M.D., professor and private consultant, Emory 
  University, Atlanta, GA; John Addison, Epidemiologist, John 
  Addison Consultancy, United Kingdom; George Biekkola, former 
  employee, Cleveland Cliff Iron, L'anse, MI; Michael R. Harbut, 
  M.D., Medical Director, Center For Occupational and 
  Environmental Medicine, Southfield, MI; Alan Whitehouse, board-
  certified chest physician, Spokane, WA; David Pinter, former 
  employee, Virginia Vermiculite, Inc., Louisa, VA; and Ned K. 
  Gumble, mine manger, Virginia Vermiculite, Inc., Louisa, VA....    21

                          ADDITIONAL MATERIAL

Articles, publications, letters, etc.:
    Senator Burns................................................    44
    Senator Baucus...............................................    44
    David D. Lauriski............................................    46
    R. Davis Layne...............................................    48
    Kathleen M. Rest.............................................    50
    Michael H. Shapiro...........................................    55
    Richard Lemen, M.D...........................................    56
    John Addison.................................................    59
    George Biekkola..............................................    60
    Michael R. Harbut, M.D.......................................    61
    Alan Whitehouse, M.D.........................................    63
    David Pinter.................................................    65
    Letter to Senator Murray from Joseph Heller..................    66
    Response to written questions of Senators Kennedy and Murray 
      from EPA...................................................    67
    Response to written questions of Senator Wellstone from EPA..    69
    Letter to Senator Murray from Mary Gazaille..................    69
    Response to written questions of Senators Kennedy and Murray 
      from David D. Lauriski.....................................    70
    Letter to Senators Kennedy and Murray from R. DeLon Hull.....    75
    Response to written questions of Senator Kennedy from John L. 
      Henshaw....................................................    76
    Letter to Christine Todd Whitman from Judy Martz, Governor of 
      Montana....................................................    78
    Letter to Senators Jeffords and Kennedy from Senator Murray..    79
    Letter to Senator Kennedy from Edward C. Sullivan............    80
    Michael McCann...............................................    81
    Barry Castleman..............................................    82
    Gary F. Collins..............................................    86
    James Fite...................................................    88
    Ned K. Gumble................................................    90
    Miscellaneous material.......................................   112












              WORKPLACE SAFETY AND ASBESTOS CONTAMINATION

                              ----------                              


                         TUESDAY, JULY 31, 2001

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:10 p.m., in 
room SD-430, Dirksen Senate Office Building, Senator Murray 
presiding.
    Present: Senators Murray, Wellstone, Reed, and DeWine.

                  Opening Statement of Senator Murray

    Senator Murray [presiding]. This committee hearing will 
come to order.
    Good afternoon. This afternoon, we are going to hear 
testimony about asbestos exposure. Like many Americans, I 
thought asbestos was banned many years ago. In fact, if you 
read the newspapers, you would think so, too.
    Here is an article from the Associated Press from just 3 
days ago. It is titled ``Asbestos Forces College of William and 
Mary Freshmen out of Dorm.'' The article explains that asbestos 
was discovered in a freshman dormitory.
    Today it is common for parts of older buildings from here 
in the Dirksen Senate Building to the Kennedy Center Opera 
House to be closed to remove asbestos. But this story that I 
have from 3 days ago says that asbestos was, and I quote 
``banned in 1977.''
    Tragically, that is just not true. Asbestos was not banned. 
Today it is in consumer products; it is handled by workers 
every day, and it is still a health danger. Many Americans 
think asbestos was banned because for years in the 1980's, the 
Environmental Protection Agency tried to ban it. Unfortunately, 
the asbestos industry brought a lawsuit and convinced an 
appeals court to overturn the ban in 1991.
    Although the EPA was able to prevent new uses of this 
dangerous substance, asbestos remains legal for use in consumer 
products. Let me give you a few examples of how workers may be 
exposed to asbestos today.
    In garages and repair shops, auto mechanics today are 
repairing brakes which may be tainted with asbestos. In many 
homes, attics, roofs, and crawl spaces are lined with Zonolite 
insulation which was made with vermiculite from Libby, MT. In 
garden centers, nursery workers are handling products made with 
vermiculite which may be contaminated with asbestos. On 
construction sites across the country, workers are handling 
roofing materials that contain asbestos. And finally, miners 
who mine for talc and taconite and vermiculite may be exposed 
to asbestos at work.
    So the sad truth is that asbestos was not banned and is 
still used today. Asbestos ends up in commercial products like 
brake pads and roofing materials intentionally, but it also 
ends up in consumer products by accident. For example, many 
lawn care products contain vermiculite. Unfortunately, when 
that vermiculite is ored, it may contain traces of asbestos. So 
the asbestos ends up in a big bag of fertilizer, not on 
purpose, but through contamination. This is known as 
``contaminant asbestos.''
    Now, the EPA says that those small amounts will not hurt us 
as consumers. But what about all the workers who created the 
product? What should the Government do to protect those workers 
and the public from a known carcinogen?
    I called for this hearing to raise awareness about the 
dangers of asbestos, to find out what protections are in place 
for workers today, and to learn what steps we can take to 
further protect American workers.
    I became aware of the ongoing dangers of asbestos through a 
series of articles in the Seattle Post Intelligencer. The 
series began with an investigation into a mine in Libby, MT. 
For years, workers mined vermiculite at the W.R. Grace facility 
in Libby. Almost 200 people have died from exposure to asbestos 
in the mine, and many more residents are sick--in fact, dozens 
of those who are ill did not even work in the mine but were 
exposed to contamination in the air they breathed.
    The problem in Libby is so bad that the Environmental 
Protection Agency is considering declaring the town a Superfund 
site. It is the Government's responsibility to protect public 
health. Unfortunately, the Government failed to protect the 
people of Libby.
    But the problem is not limited to Libby, MT, as the map 
behind me shows. The ore that was mined in Libby, MT was sent 
to at least 33 States. Factories and plants in all of those 
States processed the tainted ore from Libby. Today efforts are 
underway to further investigate exposure at 17 of these sites, 
including a site in my home State, in Spokane, WA.
    The human cost of asbestos exposure is staggering. Today 
workers are suffering from asbestosis and cancer. 
Unfortunately, it can take between 40 and 50 years for diseases 
from asbestos to materialize. That means that years from now, 
more people will become sick because of exposure that is 
occurring today.
    This afternoon you will hear more about how asbestos and 
asbestiform fibers affect human health from several of our 
witnesses. You will also hear about how these diseases impact 
people's lives.
    I look forward to hearing what Federal agencies are doing 
to protect workers. So today, with the help of our witnesses, I 
hope we will answer these questions and in the process help 
raise awareness about these dangers.
    I want to thank many people who have traveled here from 
across this country to be here today to help raise this issue 
in front of Congress.
    In conclusion, I am pleased that Senator Max Baucus and 
Senator Burns are here. They have both worked very hard on this 
issue, and they will both testify shortly. Congressman Rehberg 
from Montana will also be here shortly, and when he comes, we 
will interrupt where we are and allow him to testify as well.
    Thank you to all of you for being here.
    I will turn now to Senator DeWine and ask if he has an 
opening statement.

                  Opening Statement of Senator DeWine

    Senator DeWine. Madam Chairman, thank you very much for 
holding this hearing. It is very, very important, and I look 
forward to hearing the testimony.
    As you can see from the map that you have displayed, one of 
the sites that received the substance was in Marysville, OH, so 
we have not only a national interest, but for me a parochial 
interest as well.
    I think it is important for us to investigate Government 
action or inaction in asbestos-related tragedies of the sort 
that occurred in Libby, MT. Let me also say that the asbestos 
issue is much larger than what happened at the mines in Libby, 
and the Government's involvement is not limited to simply 
regulations or the lack of regulations and oversight.
    Our system for dealing with the tragedy associated with 
asbestos exposure is inadequate--it is inadequate to say the 
least. When a person is afflicted with asbestos-related 
diseases, his or her only recourse today is the court system. 
Certainly this system cannot give back to the afflicted the 
quality of life that they had prior to their exposure. It can, 
of course, offer victims some peace of mind through monetary 
awards and help with medical bills, while at the same time 
punishing those responsible for their conditions.
    The tragedy that we face today is that the Federal 
Government encouraged the use of asbestos even after everyone 
knew its dangers. Despite its wrongdoing, the Federal 
Government is still sidestepping, I believe, any 
responsibility. In doing so, we are contributing to the second 
victimization of these deserving asbestos victims.
    How is that so? Well, when asbestos began coming into 
courtrooms in droves, the Federal Government argued that it was 
not liable for any damages, claiming sovereign immunity. The 
courts accepted that argument. This left all the asbestos 
manufacturers responsible for payments to the victims. For a 
while, this arrangement was working out as far as victims won 
court cases and were paid by manufacturers.
    However, Madam Chairman, as the number of lawsuits 
continued to grow and victims continued winning their claims, 
asbestos manufacturers started going bankrupt. Over the past 18 
years, at least 34 major companies have gone bankrupt. When a 
company declares bankruptcy due to asbestos, it immediately 
stops paying claims, leaving at least some claimants 
uncompensated and forcing others to seek even greater amounts 
of compensation from the remaining solvent defendants.
    These bankruptcies can drag on for years without payment to 
claimants. Meanwhile, still solvent defendants are forced to 
pick up a larger share of the overall claims to be paid due to 
joint and several liability, often resulting in the layoff of 
workers. The Federal Government, which shares some of the blame 
for the problem, has not paid one dime.
    Because of these concerns, I introduced a bipartisan bill 
along with Senator Hatch, Senator Leahy, Senator Voinovich, and 
others that would provide targeted tax incentives for former 
asbestos manufacturers who were seeking to compensate victims.
    Our legislation would exempt from tax any income earned by 
a designated settlement fund, a qualified settlement fund 
established for the purpose of compensating asbestos victims.
    This bill would also allow companies to carry back net 
operating losses for the years giving rise to the asbestos 
liabilities.
    Under our bill, any tax savings would be devoted to 
compensating victims. This is an effective approach to helping 
compensate victims and one that I urge my colleagues to 
support.
    Again, Madam Chairman, as I said earlier, I am happy that 
you have called this hearing. It is my hope that Congress will 
look much further into this issue and in the end do the right 
thing to help provide deserving asbestos victims some peace of 
mind and quality of life.
    By passing the legislation that I have referenced that 
changes our Tax Code, the Federal Government can in effect 
accept some responsibility for the situation that we are in 
today.
    Again let me thank you, Madam Chairman, for holding the 
hearing. I look forward to hearing the testimony of the 
witnesses.
    Senator Murray. Thank you, Senator DeWine.
    We will move now to our first panel.
    Senator Baucus, please proceed.
    Senator Baucus. Thank you, Madam Chairman.
    My colleague Senator Burns has a very pressing appointment, 
and he asked if he could go first, and that is fine with me.
    Senator Murray. Please proceed.

 STATEMENTS OF HON. CONRAD BURNS, A U.S. SENATOR FROM MONTANA, 
        AND HON. MAX BAUCUS, A U.S. SENATOR FROM MONTANA

    Senator Burns. I thank my colleague from Montana, and Madam 
Chairman, I want to crash your party. I would ask unanimous 
consent to be allowed to enter my statement in the record.
    Senator Murray. Without objection.
    Senator Burns. I want to thank you very much for holding 
this hearing. I appreciate your efforts on this, because it 
really does cry out for a hearing.
    Also, there is a letter from the Governor of Montana to the 
Administrator of the EPA that I would like to put in the 
record.
    I appreciate your patience and your understanding. I have 
another hearing on Spectrum over in the Commerce Committee, so 
I appreciate it very much, and thank you again for holding this 
hearing.
    Senator Murray. Thank you.
    [The prepared statement of Senator Burns and attachments 
may be found in additional material.]
    Senator Murray. Senator Baucus, please proceed.
    Senator Baucus. Thank you, Madam Chairman.
    I have a statement which I would like to have included in 
the record, too, and I would just like to speak from my heart.
    Senator Murray. Without objection.
    Senator Baucus. This is one of the greatest personal 
tragedies I have ever witnessed.
    Picture a small town, Libby, MT, up in the northwestern 
corner of our State. It is a bit insulated, a bit isolated. It 
is not on the main track, main roads that are traveled across 
our country. It is a mining town, a logging community, and with 
fewer logs being harvested and the mines not returning as much, 
this is a town that has been battered with strikes, with 
layoffs, and people are just struggling. These are basic 
Americans, men and women, trying to put food on the table, 
working to try to get a decent day's wage.
    One of the economic underpinnings of Libby is the zonolite 
mine purchased by W.R. Grace. It is a huge operation very close 
to town. It is basically a big mine where you mine this stuff 
and put it in trucks that come down and go on to the railroad 
cars.
    I visited this mine a good number of years ago and was 
stunned by the dust and the conditions, the bad working 
conditions that these people faced. It particularly struck me 
when the mostly men would get off the bus after coming down 
from the mine to the town, and it was just like a dust bin; I 
have never seen such dust. And clearly, the dust was not good.
    I had no idea of knowing, but I think some of the employees 
there had a bit of an idea of knowing that it was not only 
dust, but that there was something here that was not quite 
right.
    Essentially, over a number of years, with more and more 
people becoming suspicious about this dust, gradually the 
company, W.R. Grace, began to divulge more information about 
what was contained in this dust.
    This has been a case where lots of different groups of 
people dropped the ball. It is my judgment that W.R. Grace knew 
what was going on, knew the dust contained asbestos. This is a 
very serious form of asbestos called ``tremolite.'' This is the 
worst kind of asbestos. It does much more damage when it gets 
into your lungs.
    Grace knew; they knew what was going on--the documents 
clearly indicate they knew what was going on--but did not warn 
their workers.
    The State of Montana could have done a lot better job. The 
State of Montana dropped the ball--few warnings, did not follow 
up--it just got pushed off and so forth.
    The same with the Federal Government. The EPA could have 
done a lot better job; the EPA dropped the ball in not 
investigating this a lot more closely.
    As a consequence, we now have people in this little town 
who have been struggling years anyway just to make ends meet, 
now beset with a huge tragedy that is just taking over the 
whole community, the whole town.
    The most heart-wrenching experience I ever had in my life 
was sitting in the living room of Les Scramsted. Les Scramsted 
is a resident of Libby. Les is my age. He is 59 years old. Les 
worked in the mine for just a little over a year.
    Les would come home after working in the mine pretty 
dusty--and he knew something was not quite right--he would come 
home to his family at the end of the day, embrace his wife, and 
his children would jump up into his lap.
    Les is dying. Les has asbestos-related disease, and I do 
not know how much longer Les has. He is deteriorating in front 
of your eyes. I have seen Les over the last couple of years 
when I first got involved in this issue, and it stuns me and 
saddens me to see just how much Les has aged. I do not know how 
much longer Les has to live, frankly.
    At the same time, Les unwittingly transmitted the dust, 
asbestos, vermiculite, tremolite, to his wife--she now has 
asbestos-related disease--and to his kids who jumped up in his 
lap and hugged him when he came home.
    Picture the guilt that Les has in infecting his whole 
family, causing his family to die because of this disease, 
having no idea what he was doing. Not only is he dying because 
he has asbestos-related disease; he is now causing his family 
to die. Grace is causing them all to die--and in fact, in some 
sense, so are we, the Federal Government, State government, 
because we did not do our duty.
    This is a huge tragedy of immense proportions. I would 
guess that between 1,000 and 2,000 people in Libby are 
eventually going to die. As you mentioned in your statement, 
this is a disease which is not detected right away. Sometimes 
x-rays do not test positive; over a period of time, a later x-
ray might test positive. It takes tremendous skill to evaluate 
these x-rays. It could take up to 40 years for someone who is 
infected with asbestosis or mesothelioma or one of these 
diseases to actually know.
    Add to that the cleanup problems. You mentioned Superfund 
designation in your statement. This is a huge issue for the 
people of Libby. They do not want their town to be known as a 
waste site. They are trying to deal with current conditions and 
put this behind them, get treated, and so forth. So it has that 
dynamic.
    Again, this is the company town. The company put food on 
the table, yet the company caused the deaths. So think of the 
cross-currents that exist with all of that in this small 
community.
    Meantime, lots of people have stepped up and done a 
terrific job. A couple of them are in the audience today that I 
know personally--Dr. Whitehead from Spokane. Lots of residents 
would go over and visit him; he would give them lung tests. We 
did not have the capability in Libby, really, they did not have 
the specialty to do it--although Dr. Black in Libby has done a 
super job and is struggling as hard as he can to get up to 
speed and get the equipment and so forth. Dr. Whitehead will 
tell you about all the patients that he has treated and the 
medical problems that all these people have.
    EPA has now stepped up. There is a person on the ground 
named Paul Peronard. Paul Peronard is one of the best public 
servants I have ever seen. He works extremely hard--if you look 
at him, you would not believe it--he has a bald head and an 
earring and tatoos and so forth--but I will tell you this guy 
just bleeds for the people of Libby, and they love him. It is 
one of the few times where the people are working with someone 
from the feds who is really working very hard, and I just want 
you to know what a great job he is doing.
    EPA is also working to negotiate with Grace which area to 
clean up and in what way. In my judgment, Grace is foot-
dragging. They are not allowing access to the site the way they 
should. That is part of the problem here. I think EPA is trying 
to do the best they can given the difficult situation.
    There is another Federal agency, the ATSDR, which is 
affiliated with the Centers for Disease Control in Atlanta. 
They are doing the screening. To be honest, it took them a 
little bit to get up to speed. I think they kind of looked down 
their noses a bit at Libby, MT way up there, but we finally got 
them up to Libby and they saw the sad plight that these people 
are faced with, and now they are doing a lot of the screening. 
So ATSDR is doing the screening, and they have EPA trying to 
help with the cleanup.
    Senator DeWine mentioned the bill. This may be a partial 
solution to help the people of Libby. Earlier legislation 
introduced last year let the company off the hook; but now, 
with all the lawsuits and with the company threatening 
bankruptcy, legislation like this is necessary.
    It is also clear to me that Grace has transferred 89 
percent of their assets beyond the reach of any bankruptcy 
court to minimize liability. There are public statements from 
Grace officials to that effect saying ``We are making this 
reorganization to insulate ourselves from bankruptcy.''
    This is just one of the worst cases I have ever seen, and I 
just hope the committee--and I know the committee will really 
think thoughtfully about this as we now try to figure out how 
to put together the pieces and how to get the regulations in 
place to deal with the current problem as it continues to 
exist. As you mentioned, regrettably, major national newspapers 
have erroneously claimed that the problem has stopped. It has 
not stopped. I do not know how they got that misinformation, 
but they have, it is out there, and people think it is not a 
problem. It is; it is still in the air; it is in the ground.
    This stuff was taken down to Libby and spread on the ball 
fields where the kids play baseball. That is how some of the 
kids got it. It is in the gardens. The stuff is all over town. 
It was put into attic insulation. The problem now is how to 
deal with the insulation in the attics. And I know the problems 
in the rest of the country.
    At one time, this mine provided 80 percent of the 
vermiculite in the world--80 percent at its peak. This stuff is 
all over, and it is a huge dereliction of responsibility--
responsibility by the company, responsibility by the local, 
State and Federal Government--and I just hope we have learned a 
lesson from this to minimize something like this ever happening 
again.
    Thank you.
    [The prepared statement of Senator Baucus may be found in 
additional material.]
    Senator Murray. Thank you, Senator Baucus, for a very 
compelling story about a small town in your State that has had 
an impact that no city in this country should have to go 
through.
    I certainly think that we need to do everything we can to 
help the citizens there and to make sure this never happens 
again. What is most astounding to me is that it is not like 
this is not happening. It is happening. There are products 
being used everywhere, and we need to do what we can to let the 
public know that this is a problem, and we have to decide as a 
Federal Government what our part is in making sure that 
consumers know that.
    Senator Baucus. Just remember Les Scramsted. That is all I 
ask is that you remember Les.
    Senator Murray. Well, thank you very much, Senator Baucus, 
and I will ask you to join us on the dias here in just a few 
minutes.
    Senator Wellstone, did you have any questions?
    Senator Wellstone. I am going to be very brief. I want to 
say three things in less than 2 minutes.
    The first is that, Max, I do not believe that I have ever 
heard you speak better. I have never seen you--that is not to 
say that you have not spoken with emotion and made a compelling 
case since I have been here in the Senate--but I have never 
quite seen you this way, and it is because it is all very 
personal; you know the people. And I would thank you.
    That is my first point. My second point is that we know in 
Minnesota how far the tentacles of this contamination can 
reach. We have thousands of citizens in Minneapolis who are 
potentially at risk from a facility that processed this 
asbestos-laden vermiculite from the W.R. Grace Co. in Libby, 
MT. Unfortunately, lots of people in Minnesota are vulnerable.
    My third point is that Bruce Vento, who was a very dear 
friend of mine from Minnesota, a Congressman from the 4th 
District, died of mesothelioma or asbestosis. It came from 
exposure to asbestos at work when he was younger. Bruce went 
very fast; it is a very cruel disease. We must do all we can to 
prevent future illnesses and deaths from asbestosis.
    My fourth point is that I remember assigning a book when I 
was teaching that I think was written in 1970 by Paul Brodier, 
as I remember, titled ``Expendable Americans.'' I only mention 
it because of the title, but again, this was about the same 
issue. It was about some workers in Tyler, TX, and the industry 
knew, and they died of mesothelioma and asbestosis, and the 
industry knew. They had known forever and ever and ever, and 
they did not let them know--thus, they were expendable, they 
were just made expendable. It is just simply outrageous.
    Finally, I have a statement that I would ask to be included 
in the record. As chair of the subcommittee that has 
jurisdiction over OSHA and workplace safety and mine safety and 
other issues, this is very important in terms of MSHA, and I 
know we have the director here, and I welcome him.
    So I thank you for this hearing, Madam Chairman. It is 
extremely important.
    Senator Murray. Thank you, Senator Wellstone.
    Senator Wellstone. Thank you for your testimony, Max.
    Senator Baucus. Thank you.
    Senator Murray. Senator DeWine?
    Senator DeWine. I have no questions, Madam Chairman.
    Senator Murray. Senator Baucus, if you want to join us on 
the dias for our other panels, that would really be 
appreciated.
    Senator Baucus. Thank you. I will for a short while.
    Senator Murray. I would ask our second panel to come 
forward now.
    David Lauriski is Assistant Secretary for Mine Safety and 
Health at the Department of Labor.
    Davis Layne is acting Assistant Secretary for Occupational 
safety and health at the Department of Labor.
    Kathleen M. Rest, Ph.D., is acting Director of the National 
Institute for Occupational Safety and Health, Centers for 
Disease Control and Prevention, Department of Health and Human 
Services.
    And Michael Shapiro is acting Assistant Administrator of 
the Office of Solid Waste and Emergency Response at the EPA.
    David Lauriski, we will begin with you.

 STATEMENTS OF DAVID D. LAURISKI, ASSISTANT SECRETARY FOR MINE 
 SAFETY AND HEALTH, U.S. DEPARTMENT OF LABOR; R. DAVIS LAYNE, 
ACTING ASSISTANT SECRETARY FOR OCCUPATIONAL SAFETY AND HEALTH, 
 U.S. DEPARTMENT OF LABOR; KATHLEEN M. REST, ACTING DIRECTOR, 
NATIONAL INSTITUTE FOR OCCUPATIONAL SAFETY AND HEALTH, CENTERS 
 FOR DISEASE CONTROL AND PREVENTION, U.S. DEPARTMENT OF HEALTH 
   AND HUMAN SERVICES; AND MICHAEL SHAPIRO, ACTING ASSISTANT 
 ADMINISTRATOR, OFFICE OF SOLID WASTE AND EMERGENCY RESPONSE, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Lauriski. Madam Chair and members of the committee, I 
am pleased to appear before you today to discuss the ongoing 
efforts of the Mine Safety and Health Administration to promote 
miner safety and health.
    With your permission, I will provide you with an 
abbreviated version of my statement and would ask that my full 
statement be entered for the record.
    Senator Murray. Without objection.
    Mr. Lauriski. Having spent virtually all of my life and 
career associated with the mining industry, it is a privilege 
for me to serve the American people, Secretary Chao, and 
President Bush in this important capacity. We will do 
everything we can to improve upon the tremendous advances in 
safety and health in the mining industry that have occurred 
over the past 30 years.
    I have shared with the MSHA staff my priorities and 
expectations and would like to share them with you.
    Mining in the 21st century presents us with new 
opportunities. If we are to continue the success of the past, 
we must find new and creative approaches to protecting health 
and safety.
    I am firmly committed to carrying out the responsibilities 
under the Federal Mine Health and Safety Act of 1977, but as 
both the Secretary and I have said, investments in up-front 
prevention through compliance assistance, education, training, 
and other outreach activities are critical if we are to move 
off the plateau that we have seemed to reach in the past few 
years. In this regard, I have asked MSHA staff, mines, mine 
operators, as well as representatives of the mining community 
and labor associations, to think creatively. I am firmly 
committed to hearing the thoughts, suggestions, and ideas of 
all of our stakeholders.
    This hearing focuses on workplace safety and asbestos 
contamination. MSHA's asbestos regulations date to 1967. At 
that time, the Bureau of Mines used a 5 million particles per 
cubic foot of air standard. Through the years, up until 1978, 
that standard was changed an additional three times to the 
current standard of 2 fibers per milliliter. Since enactment of 
the Mine Act, MSHA has conducted regular inspections at both 
surface and underground operations at metal and nonmetal mines. 
During its inspections, MSHA routinely takes samples which are 
analyzed for compliance with the asbestos standard.
    In briefings with the MSHA staff, I was advised on the 
issues surrounding vermiculite mining in Libby, MT and 
elsewhere. I was pleased to learn that the Agency had taken 
steps to determine current mines' exposure levels to asbestos, 
including taking samples at all existing vermiculite, taconite, 
talc, and other mines to determine whether asbestos was present 
and at what levels.
    Since spring of 2000, MSHA has taken almost 900 samples at 
more than 40 operations employing more than 4,000 miners. 
During our sampling events, the MSHA staff also discussed with 
the miners and mine operators the potential hazards of asbestos 
and the types of preventive measure that could be implemented 
to reduce exposures. These efforts continue today.
    I have read the Office of Inspector General's evaluation of 
MSHA's handling of inspections at the W.R. Grace & Company mine 
in Libby, MT which was issued in March of this year. The report 
contains five recommendations, and I can assure you that we are 
diligently working to address the issues raised in those 
recommendations.
    The Inspector General recommended that MSHA lower its 
existing permissible exposure limit for asbestos to a more 
protective level and address take-home contamination from 
asbestos. It also recommended that MSHA use transmission 
electron microscopy to analyze fiber samples that may contain 
asbestos.
    We are currently considering these recommendations, which 
would involve rulemaking. I appreciate the review and analysis 
conducted by the Inspector General and am giving considerable 
thought to their recommendations as we work toward our 
decisions. Please be assured that I share your conviction that 
miners' health must be protected, and certainly miners should 
not be exposed to contamination at hazardous levels.
    The Inspector General also recommended that the Agency 
remind its staff of the Mine Act's prohibition of giving 
advance notice of inspections. Section 103(a) of the Mine Act 
states in part that ``in carrying out the requirements of this 
subsection, no advance notice of an inspection shall be 
provided to any person.'' I am pleased to report that MSHA 
recently reissued a memorandum to the Agency's inspectors for 
metal and nonmetal, reminding them of this provision.
    Finally, a fifth recommendation of the report dealt with 
training of MSHA inspectors and other health professionals on 
asbestos-related matters. We have held training sessions to 
date with our industrial hygienists, and we are working 
diligently with our mine inspectorate so that they can 
recognize asbestos in their daily work activities.
    We believe that education and training are critical to 
promoting miner safety and health. They provide mine operators 
and miners with the knowledge needed to take actions to prevent 
injuries and illnesses. Sharing our knowledge and information 
with the mining public and other interested parties is part of 
our education and training efforts.
    The Mine Act in my view gives MSHA all the tools necessary 
to protect miners' safety and health. The history of miners' 
safety and health over the past 25 to 30 years demonstrates the 
statute's effectiveness. The Libby experience is of course 
troubling. More effective and efficient use of the Mine Act's 
enforcement, education, training, and technical support 
authorities will help us achieve even greater improvements in 
our industry. These provisions as well as those outlining our 
rulemaking authorities and responsibilities provide us with the 
necessary framework to ensure miners are appropriately 
protected from harmful contaminants including asbestos.
    Madam Chair, members of the committee that concludes my 
remarks. I would be happy to answer any questions you might 
have.
    Senator Murray. Thank you.
    [The prepared statement of Mr. Lauriski may be found in 
additional material.]
    Senator Murray. Mr. Layne?
    Mr. Layne. Thank you, Madam Chair.
    With your permission, I would like to have OSHA's complete 
formal testimony entered into the record and briefly summarize 
my statement for the committee.
    Senator Murray. Without objection.
    Mr. Layne. Thank you.
    I too appreciate the opportunity to testify today on how 
the Occupational Safety and Health Administration protects 
workers from the dangers of asbestos exposure.
    Asbestos can cause a variety of serious health effects 
including asbestosis, mesothelioma, lung cancer, and many other 
types.
    The Occupational Safety and Health Act gives the Secretary 
of Labor authority over all working conditions of employees 
engaged in business affecting commerce, except those conditions 
with respect to which other Federal agencies exercise statutory 
authority to prescribe or enforce regulations affecting 
occupational safety or health.
    Since OSHA's inception in 1971, the agency has used its 
authority for standard-setting, enforcement, and compliance 
assistance to protect workers from the threat of asbestos. In 
fact, there has been more rulemaking activity involving 
asbestos than any other hazard regulated by OSHA. Between 1971 
and 1994, OSHA issued two emergency temporary standards, three 
major notices of proposed rulemaking, three final rules, and 31 
Federal Register notices related to asbestos.
    Indeed, the final asbestos rule issued in June 1972 was the 
agency's first comprehensive standard. This regulation reduced 
the permissible exposure limit or PEL to an 8-hour, time-
weighted average of two fibers per cubic centimeter of air, 
with a maximum ceiling of 10 fibers at any one time.
    In June of 1986, due to new scientific evidence regarding 
the carcinogenicity of asbestos, the PEL was lowered to an 8-
hour, time-weighted average of 0.2 fibers per cubic centimeter 
of air. This rule provided for engineering controls, work 
practices, personal protective clothing and equipment, 
decontamination, communication of hazards to workers, regulated 
areas, housekeeping procedures, recordkeeping, and employee 
training.
    Further, in August of 1994, to provide even better worker 
protection, OSHA published two final asbestos standards--one 
for general industry and one for construction. It also added 
shipyards as a covered industry. The permissible exposure limit 
was reduced to 0.1 fiber per cubic centimeter. Work practices 
and engineering controls required under the 1994 standard 
further reduced the risk to workers.
    The standard also addresses exposures during automobile 
brake and clutch work and roofing work as well. It requires 
that engineering controls and good work practices be 
implemented at all times during brake servicing. In addition, 
employers must provide training to all brake and clutch repair 
workers.
    OSHA enforces the current asbestos standard through its 
inspection program. Since October 1995, OSHA has cited 
employers for violations of its asbestos standards over 15,000 
times. There were almost 3,000 inspections conducted by Federal 
or State OSHA programs in which the standard violations were 
cited, including violations found in residential and commercial 
construction, auto repair facilities such as brake shops, as 
well as hotels.
    In addition to enforcement, OSHA provides compliance 
assistance to employers and employees to help them understand 
the dangers associated with asbestos and what can be done to 
minimize that threat. OSHA's web page connects computer users 
to concise and easy-to-read publications on asbestos which are 
available to the public free of charge. OSHA has also developed 
software that can be downloaded from is web site to provide 
expert interactive advisers for building owners, managers and 
lessees, as well as for contractors of building renovation, 
maintenance, and housekeeping services.
    Once installed on a computer, the software asks questions 
about a particular building site. It then asks follow-up 
questions based upon answers and produces a report on 
responsibilities under the asbestos rules.
    OSHA's onsite consultation program, which is free and 
available to employers in all 50 States, provides expert 
assistance on asbestos. Consultants identify asbestos in the 
workplace and explain methods for reducing exposure. Over the 
last 5 years, the State consultants have taken over 800 
asbestos samples from 162 small businesses for laboratory 
analysis.
    OSHA actively coordinates with other Federal agencies on 
asbestos and asbestos-related issues. The OMNE Committee, 
composed of representatives from OSHA, MSHA, the National 
Institute for Occupational Safety and Health, and the 
Environmental Protection Agency, meets monthly to exchange 
information about mutual areas of concern.
    OSHA has also requested technical assistance from NIOSH to 
determine potential asbestos exposure from working with 
materials that contain vermiculite. In response to our request, 
NIOSH has conducted investigations of horticultural facilities 
to determine potential exposures to employees from asbestos-
contaminated vermiculite used in potting soil and lawn and 
garden products. In addition, NIOSH is in the process of 
investigating exposures at vermiculite exfoliation plants, and 
a report from NIOSH is expected by the end of this year.
    OSHA has continuous, multifaceted programs to address 
health and safety hazards associated with asbestos, both in 
production and as a contaminant. These programs apply to all 
workplace settings covered by the OSH Act and are intended to 
protect all workers, including those who process and work with 
materials potentially contaminated with asbestos.
    OSHA believes its current statutory authorities are 
sufficient to carry out its responsibilities. Given its broad 
mission to protect workers from all types of occupational 
hazards, over the years, the agency has devoted a significant 
portion of its resources to the health effects caused by 
asbestos exposure and will continue to do so.
    This concludes OSHA's formal remarks. I will be pleased to 
answer any questions the committee may have.
    Senator Murray. Thank you, Mr. Layne.
    [The prepared statement of Mr. Layne may be found in 
additional material.]
    Senator Murray. Ms. Rest?
    Ms. Rest. Madam Chairman, members of the committee, I am 
pleased to be here today on behalf of NIOSH, the National 
Institute for Occupational Safety and Health, which as you know 
is a public health research institute within the Centers for 
Disease Control and Prevention, a part of the Department of 
Health and Human Services.
    With me today is Dr. Gregory Wagner, Director of the NIOSH 
Division of Respiratory Disease Studies in Morgantown, WV.
    My comments will summarize briefly the more detailed 
written statement that we have prepared and submitted for the 
record. My testimony will briefly describe asbestos and 
asbestos-related diseases, current scientific knowledge about 
the hazards to workers from exposure to asbestos, NIOSH's 
ongoing research related to this problem, and opportunities for 
better prevention of asbestos exposure and asbestos-related 
disease.
    Asbestos is a term that refers to a group of naturally-
occurring fibrous minerals. The connection between inhalation 
of asbestos fibers and a number of very serious and often fatal 
diseases is well-established. Nevertheless, as you said, 
asbestos and asbestos-containing materials are still found in 
many residential and commercial settings where they continue to 
pose a risk of exposure and disease to workers and to others.
    Asbestos is a known human carcinogen. It can cause both 
malignant and nonmalignant diseases, including asbestosis, 
which is an emphysema-like disease, pleural disease, lung 
cancer, malignant mesothelioma, cancer of the larynx and of the 
gastrointestinal tract. These diseases are described more fully 
in our written statement. Suffice it to say that most of these 
diseases take years to develop, they are often fatal, and they 
are preceded by many years of debilitating illness that brings 
emotional and financial devastation to workers and to their 
families.
    It is not known exactly how asbestos fibers cause disease, 
but what is known is that fibers too small to be seen by the 
human eye can become airborne during various industrial 
processes or from handling these asbestos-containing products. 
These microscopic fibers can be inhaled or swallowed. When 
inhaled, these fibers can remain lodged in the lungs where, 
because of their size and their durability, the body may be 
unable to remove them.
    In general, as the amount of the fiber that stays in the 
lung increases, so too does the likelihood of the disease.
    Vast numbers of workers, as many as 8 million, have been 
exposed to asbestos since World War II. As of the early 1990's, 
NIOSH estimated that nearly 700,000 workers in general industry 
remain potentially exposed--and that estimate did not include 
workers in mining, railroad, agriculture and several other 
industry sectors.
    Asbestos continues to be found in many occupational and 
industrial settings, including the manufacture and repair of 
automotive brakes and clutch linings; it is found in certain 
manufactured products, including gaskets and building 
materials. Construction workers involved in building demolition 
and renovation, or in asbestos removal, are at particular risk 
of asbestos exposure, as are maintenance personnel.
    In addition, take-home exposures to families of workers in 
which workers bring home asbestos in their hair, on their 
clothes, or on their shoes, is also a well-recognized hazard.
    Because there is no recognized safe level of exposure for 
the carcinogenic effects of asbestos, exposure prevention is 
key. One approach to preventing worker exposure includes 
substitution of less hazardous materials; improved labeling of 
all asbestos-containing materials would also help alert 
employers and workers to the need to implement effective 
exposure controls.
    As mentioned, deaths from asbestos-related disease reflect 
exposures from years earlier. To provide a better understanding 
of more recent occupational exposure, NIOSH analyzed asbestos 
sampling data collected by both OSHA and MSHA inspectors during 
the period 1987 to 1996. While concentrations of asbestos 
decreased over that period of time, asbestos continued to be 
detected in workplace settings ranging from textile operations 
to schools.
    Furthermore, the airborne asbestos fiber concentrations 
were detected above the regulatory exposure limit.
    At OSHA's request and as indicated, NIOSH is providing 
technical assistance to asses exposure to asbestos and other 
mineral fibers at specific worksites, including selected 
vermiculite expansion plants and horticultural operations that 
use vermiculite. We expect to complete the field data 
collection by early in calendar year 2002.
    In 1990 testimony to OSHA, NIOSH broadened its science-
based definition of asbestos beyond the six specific asbestos 
minerals currently regulated. NIOSH based its definition on 
scientific evidence from animal and cellular studies suggesting 
that fiber dimension--specifically, length and diameter--and 
durability are more critical than the specific chemical or 
elemental composition in the causation of asbestos-related 
disease.
    The NIOSH definition encompasses certain variants of the 
six----
    Senator Murray. Dr. Rest, if you could summarize, please, 
because we have a large second panel that we want to hear as 
well.
    Ms. Rest. Certainly. In conclusion, we know a lot about the 
adverse health effects caused by the inhalation of asbestos 
fibers, and we have known it for a long time. Many exposures or 
potential exposures in the workplace have been identified, and 
appropriate precautions are being taken.
    However, many research questions remain to be answered to 
more fully understand the health effects of asbestos-like 
minerals and to prevent asbestos-related disease. Increased 
understanding of the health effects of these fibrous minerals 
that fall outside existing definitions would help us find 
better ways to provide appropriate protection for these 
workers, as would continued identification and tracking of 
workers in workplaces with potential exposure to these fiber-
contaminated vermiculite and other contaminated materials.
    Thank you, Senator Murray and members of the committee. I 
would be happy to answer any questions.
    Senator Murray. Thank you.
    [The prepared statement of Ms. Rest may be found in 
additional material.]
    Senator Murray. Mr. Shapiro.
    Mr. Shapiro. Good afternoon, Madam Chairman and members of 
the committee. I too have submitted our full testimony for the 
record and will be presenting a summary.
    I am pleased to be here today to discuss EPA's efforts to 
clean up asbestos contamination in Libby, MT and the Agency's 
efforts to identify related sites nationwide.
    I want to make it clear that EPA views the Libby asbestos 
site as one of the most significant sites we are dealing with 
nationally, and we are committed to working with our partners 
to take all steps necessary to protect human health and the 
environment in Libby and related locations.
    As Senator Baucus noted, Libby is a small town of about 
2,600 residents in northwest Montana. For more than 60 years, a 
mine operated in Libby which produced 80 percent of the world's 
vermiculite. The vermiculite was shipped around the country for 
use as a soil conditioner and in the manufacture of insulation 
and packaging material. The mine and processing facilities in 
Libby employed roughly 2,000 workers from 1924 to 1991.
    One of the substances in the Libby vermiculite ore was 
asbestos. Asbestos contamination resulting from mining and 
processing operations has led to serious public health concerns 
among members of the Libby community.
    EPA is working closely with other Federal and State 
agencies to address the asbestos contamination and public 
health concerns in Libby and other communities across the 
country. The response to potential asbestos contamination is a 
multiagency effort. EPA, the Agency for Toxic Substances and 
Disease Registry, ATSDR, and the U.S. Public Health Service 
established an emergency response team on November 22, 1999 to 
begin environmental and medical investigations in Libby.
    EPA is focusing on site investigation and cleanup 
activities in Libby using its Superfund authority. The Agency 
is also using Superfund to assess the need for cleanup at other 
locations across the country where vermiculite ore was mined or 
shipped.
    Thus far, EPA has committed more than $30 million for the 
investigation and cleanup in Libby.
    In June of 2000, EPA initiated or provided oversight of 
cleanup at two heavily contaminated former processing areas in 
Libby. The Agency has also started the cleanup of a mining 
road, town park facilities, a high school track, and several 
residences.
    In addition to Libby, EPA identified 243 locations around 
the country that may have mined or received vermiculite from a 
variety of sources. As of early July, EPA completed initial 
evaluations of possible asbestos contamination at 216 of these 
facilities. Thus far, we have determined that 17 locations 
require response by EPA and other Federal or State agencies.
    One example is the Western Minerals site in Minneapolis, 
MN, which processed over 118,000 tons of vermiculite ore from 
Libby between 1937 and 1989. Since September of 2000, EPA and 
the State of Minnesota have been sampling and removing asbestos 
contamination at the former plant site and nearby residential 
yards. An ATSDR-funded health survey is being conducted by the 
Minnesota Department of Health to determine the magnitude of 
the health impacts to former workers and nearby residents.
    In March of 2001, EPA's Office of Inspector General issued 
a report which focused on EPA's activities in Libby as well as 
EPA's broader role in regulating asbestos. The report concluded 
that EPA should continue its cleanup efforts in Libby and also 
emphasized the importance of cross-agency coordination to 
address potential contamination associated with mining and 
other operations unrelated to Libby.
    EPA will continue to work closely with our Federal 
partners, including MSHA, OSHA, ATSDR, NIOSH, and the Public 
Health Services to protect the public health in Libby, MT and 
any other community that may be threatened by asbestos 
contamination from vermiculite ore or other sources.
    EPA is also coordinating closely with our Federal and State 
partners to evaluate health data that may suggest additional 
sources of contamination.
    Thank you for the opportunity to appear today. I welcome 
any additional follow-on questions.
    [The prepared statement of Mr. Shapiro may be found in 
additional material.]
    Senator Murray. Thank you very much to all of our 
panelists.
    If there is no objection, Senator Wellstone has asked for 
10 seconds to make a statement, and then we will turn to 
Congressman Rehberg for an opening statement and then we will 
go back to questions of the panel.
    Senator Wellstone?
    Senator Wellstone. Thank you, Madam Chair. I do not know if 
I can quite do it in 10 seconds., and it is actually not to 
make a statement. I just wanted to say to Mr. Shapiro that if 
it is okay, I want to put some questions to you in writing for 
your response.
    And to Mr. Lauriski, thank you for being here, and thank 
you for coming by last week when we had a chance to talk. I 
want to also get a few questions to you in writing if I could. 
It sounds like you are going to be going in a different 
direction. You mentioned looking at a new rule, because I know 
your standard is far less rigorous than EPA or OSHA, and even 
with the workers in Libby, although several hundred have died, 
by your standard, many of them were, at least theoretically, 
not in harm's way, but they were, and I am wondering if you 
will be considering promulgating a rule to get a much stronger 
standard--but could I put that to you in writing and get your 
response?
    Mr. Lauriski. Certainly.
    Senator Wellstone. Thank you.
    Thank you, Madam Chair.
    Senator Murray. Thank you, Senator Wellstone.
    [Written questions of Senator Wellstone may be found in 
additional material.]
    Senator Murray. Congressman Rehberg, please proceed.

STATEMENT OF HON. DENNIS REHBERG, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MONTANA

    Mr. Rehberg. Thank you, Senator Murray.
    I am a little nervous to be here. This is my first 
opportunity to be on the Senate side--and I can tell you I do 
not believe everything my House Members have told me about 
you--although I understand you are very cheap over here; my 
chair has broken already. [Laughter.]
    I am late. We were voting on the rule on cloning. I suspect 
that if it had passed 45 years ago, I could have done them both 
at the same time. But I am here now, and I thank you for giving 
me the opportunity to join my colleague Senator Baucus--and 
thank you, Max, for taking the lead on this very important 
issue.
    I am here today as the Member of the House of 
Representatives representing the entire State of Montana and in 
this case the community of Libby in Lincoln County.
    As you may know, vermiculite ore has been mined near Libby 
since the 1920's. Most recently, it was mined by W.R. Grace & 
Company. A great deal of evidence indicates that many Libby 
area residents died or became ill due to exposure to asbestos-
contaminated vermiculite ore.
    I visited the community four times in the last year, 
including two times since taking office in January. During my 
most recent visit on July 6, 2001, I held a community meeting. 
After listening to 3 hours of testimony and discussion at that 
meeting, one thing became perfectly clear: The community has a 
right to know more about the current and past efforts by the 
Environmental Protection Agency to protect local residents from 
the health threats caused by asbestos-contaminated vermiculite 
ore.
    I also determined that in the future, the actions and 
inactions of the past must be avoided at all costs to prevent 
another situation from occurring like the one that did in 
Libby.
    On July 12, 2001, Inspector General for the EPA Nikki 
Tinsley went to Montana to discuss the contents of the report, 
``EPA's Actions Concerning Asbestos-Contaminated Vermiculite in 
Libby, Montana'' released on March 31st of this year.
    At this meeting, Inspector General Tinsley was able to 
provide some useful information. However, the Inspector 
General's report failed to address several important issues 
that are pertinent to the Libby situation.
    As a result, I have requested the General Accounting Office 
to conduct an official investigation into the EPA's actions 
surrounding its efforts to address the very serious health 
threats the Libby community has faced and continues to face.
    We now know that W.R. Grace was aware of the potential 
health threat their mined product posed. We know that EPA had 
numerous documentations of asbestos-related health issues 
because of the mining practices in Libby, along with 
conflicting information on the dangers of vermiculite. What we 
do not know is why the EPA did not take a closer look at the 
health-related issues in Libby in light of the history of 
reports, letters and studies documenting health problems there.
    I understanding that funding limitations and other 
priorities can be distractions to an agency, but in Libby and 
all across the country, people were and are dying.
    The EPA has spent upward of 20 years studying the reports 
of asbestos-related disease in Montana and elsewhere due to 
exposure to W.R. Grace mine products. In the meantime, people 
have been dying, exposure has continued, and the community has 
been torn apart.
    It is important that Congress continue to explore possible 
changes to Federal laws and regulations that can help the Libby 
community in its efforts to address its ongoing health-related 
problems and to see that any past mistakes can be avoided in 
the future. Libby provides a tragic example of how uncertainty 
about levels of contamination can prove to be fatal.
    I thank the committee for having this hearing and urge you 
to keep people in mind as you continue to explore this issue, 
because we cannot put a price on human life. It is incumbent 
upon us to err on the side of caution when dealing with toxic 
substances.
    I understand the tragedy in Libby cannot be undone, but it 
is only through introspection that we can avoid in the future 
the mistakes of the past.
    Thank you, Senator Murray.
    Senator Murray. Thank you very much, Congressman. Thank you 
for joining us today.
    The Senate has called a vote. I am going to ask three very 
quick questions and then let Senator Baucus ask a question, and 
then we will take a short recess and come back for further 
questioning and our third panel.
    Dr. Rest, let me begin with you. A yes or no answer--do you 
believe that asbestos should be banned altogether in the United 
States to protect public health?
    Ms. Rest. I believe the best way to protect people from a 
hazard as serious as asbestos is to prevent exposure to that 
material and do everything we can to----
    Senator Murray. Do you believe it should be banned?
    Ms. Rest. I believe that we have to do everything we can to 
prevent the exposure.
    Senator Murray. Mr. Shapiro, do you believe that we should 
ban asbestos?
    Mr. Shapiro. Speaking on behalf of EPA, as you know, at one 
point, we did propose and actually promulgated a rule to ban 
asbestos in most products. That rule was overturned by court 
decision. At this point, we have not reached any conclusion 
about whether to re-look at the issue of banning products.
    Senator Murray. It is my understanding that the 
administration at that time back in 1991 did not pursue that 
case to further courts; is that correct?
    Mr. Shapiro. I believe you are correct, yes.
    Senator Murray. OK.
    Mr. Layne, quickly, you mentioned a lot that OSHA is doing 
to prevent this kind of disaster. How do we explain that today 
people are still being exposed to asbestos in everything from 
mechanics' shops to nurseries to mines if we are doing so much?
    Mr. Layne. It is really a continuing issue that we face on 
job safety and health generally across the board, and that is 
to look for innovative ways that we can reach employers and 
employees and educate them about workplace hazards.
    Senator Murray. And since that takes so much time and 
obviously has not been effective, do you think we should ban 
asbestos?
    Mr. Layne. I think the regulations that we have in place, 
if followed, can protect the worker.
    Senator Murray. Senator Baucus?
    Senator Baucus. Thank you, Madam Chairman.
    You know, one of the big problems here is that agencies 
tend to point the finger at other agencies as being 
responsible, and they do not live up to their own 
responsibilities. There is just too great a dispersion of 
authority, and it is so easy for agencies to not step up and do 
what the public expects them to do. We do not have time to get 
into that at this point, but I hope that during the rest of 
this hearing and at some very imminent appropriate date, that 
can be settled and that a lot of you can figure out, not only 
with respect to asbestos but other problems that arise, how you 
can avoid passing the buck to the other agencies. I think a lot 
of that has happened here.
    Another question that I have a hard time answering is why 
do we need more studies. It is pretty clear what has happened 
in Libby. I do not think anybody needs more evidence. I 
understand EPA has a blue ribbon panel to study asbestos--at 
least, that is what one of your administrators or someone at 
EPA testified to a short while ago. One of your agencies has a 
standard that is 20 times more lenient than another. I do not 
know what gives here.
    There are other mines operating today. Libby, fortunately, 
is closed; the mine has been shut down. But there are other 
mines--I understand we will hear from someone later from 
Virginia. I do not know how much he is exposed; my guess is to 
some degree similar to the exposure of Les Scramsted in Libby.
    I do not know how much more you folks need. I do not know 
how much value you place on people's lives. I think you hide 
behind rules. I think you hide behind regulations. You hide by 
passing the buck. These are people who are dying.
    I want all four of you to come to Libby, MT, and I want you 
to look in their faces. I want you to see Les Scramsted--and 
you had better hurry; you had better hurry if you are going to 
see Les. [Applause.]
    Senator Murray. The audience will please remain silent.
    Senator Baucus. Can I get a commitment out of each of the 
four of you that you will come to Libby, MT this summer?
    Mr. Shapiro?
    Mr. Shapiro. I would be happy to.
    Senator Baucus. Dr. Rest?
    Ms. Rest. Absolutely.
    Senator Baucus. Mr. Lauriski?
    Mr. Lauriski. I would be happy to.
    Senator Baucus. Mr. Layne?
    Mr. Layne. Yes, sir. We are expecting a new assistant 
Secretary soon, and I will pass that on to him.
    Senator Baucus. And I would like you to go, too.
    Mr. Layne. Yes, sir.
    Senator Baucus. All right.
    I have no further questions. Thank you.
    Senator Murray. Thank you, Senator Baucus.
    We are going to take a short 5-minute recess to allow 
Senators to vote, and we will resume this panel for final 
questions when we come back and then go to our final panel.
    [Recess.]
    Senator Murray. We will resume the hearing, and in the 
interest of time, since this hearing is supposed to conclude at 
4 o'clock, unfortunately, and we got started a little late and 
had a vote in between and are going to have another vote 
shortly, because of that, I and any other Senators on this 
committee will submit our questions to this panel, and if we 
could get you to respond in writing, I would really appreciate 
it, since we have a number of people who have traveled here 
from around the country who are unable to come back again.
    What I will do, then, is dismiss this panel and ask our 
second panel to come forward at this time.
    [Written questions from Senators may be found in additional 
material.]
    Senator Murray. We will now begin with the second panel. I 
will remind everyone that they have 5 minutes, and I will 
gently remind you when your time has expired.
    Today we will begin with Dr. Richard Lemen, a professor and 
private consultant from Emory University in Atlanta, GA; John 
Addison, an epidemiologist with John Addison Consultancy, 
United Kingdom; George Biekkola, a former employee of Cleveland 
Cliff Iron, L'Anse, MI; Dr. Michael R. Harbut, medical director 
of the Center for Occupational and Environmental Medicine in 
Southfield, MI; Dr. Alan Whitehouse, a board-certified chest 
physician in private practice in Spokane, WA; David Pinter, a 
former employee of Virginia Vermiculite, Incorporated, from 
Louisa, VA; and Ned Gumble, mine manager of Virginia 
Vermiculite, from Louisa, VA.
    Again, thank you to all of you. I know some of you traveled 
a long way to be here today, some with health problems, and I 
really appreciate you coming and giving your testimony to the 
committee today.
    Let us begin with Dr. Richard Lemen.

    STATEMENTS OF DR. RICHARD LEMEN, PROFESSOR AND PRIVATE 
   CONSULTANT, EMORY UNIVERSITY, ATLANTA, GA; JOHN ADDISON, 
   EPIDEMIOLOGIST, JOHN ADDISON CONSULTANCY, UNITED KINGDOM; 
GEORGE BIEKKOLA, FORMER EMPLOYEE, CLEVELAND CLIFF IRON, L'ANSE, 
    MI; DR. MICHAEL R. HARBUT, MEDICAL DIRECTOR, CENTER FOR 
 OCCUPATIONAL AND ENVIRONMENTAL MEDICINE, SOUTHFIELD, MI; DR. 
ALAN WHITEHOUSE, BOARD-CERTIFIED CHEST PHYSICIAN, SPOKANE, WA; 
  DAVID PINTER, FORMER EMPLOYEE, VIRGINIA VERMICULITE, INC., 
     LOUISA, VA; AND NED K. GUMBLE, MINE MANAGER, VIRGINIA 
                 VERMICULITE, INC., LOUISA, VA

    Dr. Lemen. Thank you for inviting me, Senator Murray, to 
this very important hearing on the topic of asbestos and 
disease.
    I am Dr. Richard Lemen. I retired from the United States 
Public Health Service, where I was Assistant Surgeon General of 
the United States and deputy director and acting director of 
the National Institute for Occupational Safety and Health. I 
have spent virtually my entire professional career since 1970 
studying the health effects related to asbestos exposure.
    In the United States, it is estimated that between 189,000 
and 231,000 deaths have occurred since 1980 due to workplace 
exposure to asbestos. Another 270,000 to 330,000 deaths are 
expected to occur over the next 30 years, and for those workers 
exposed over a working lifetime to the current Occupational 
Safety and Health Administration 0.1 fibers per cc, three out 
of every 1,000 will die as a result of asbestos-related 
diseases.
    Given that the National Institute for Occupational Safety 
and Health estimates, as of 1990, that nearly 700,000 men and 
women are potentially exposed at work, the future mortality 
from asbestos-related disease will continue to occur well into 
this new century.
    If deaths of workers exposed to asbestos in the United 
States at the current occupational standard are anywhere near 
the magnitude just expressed, what, then, would be the 
magnitude of disease and death to the countless number of 
unsuspecting consumers using asbestos-containing products?
    These products include such things found in the home as 
lamp sockets, floors, cat box fill, braking mechanisms in 
washing machines, furnaces, dishwashers, lawn products, and 
many, many others.
    Because these products are not only manufactured by workers 
but are also used, maintained and repaired by workers, the 
workers suffer additional exposure from consumer products.
    Why, then, is any form of asbestos still allowed in 
commercial products within the United States or the rest of the 
world, for that matter? The Environmental Protection Agency 
produced a list on the internet that I observed of at least 44 
suspected asbestos-containing materials. Within their list were 
cement pipes still being used for transportation of potable 
drinking water and friction products such as brakes, to name 
just two of the widely-used commercial products.
    Imports of asbestos-containing products still arrive in the 
United States each year and include such things as asbestos-
containing corrugated sheet, sheet panels, tubes and pipes, 
brake linings, gaskets, and for brakes alone over the last 4 
years, the imports have increased from $59 million in 1996 to 
$89 million in the year 2000; asbestos textile products in the 
form of yarn, thread, cord, string, knitted material, 
clothing--and they all appear to be increasing each year 
according to the United States Geological Survey.
    The most recent Criteria Document from the World Health 
Organization's International Program for Chemical Safety states 
in 1988 that no threshold has been identified for carcinogenic 
risks. This is consistent with the World Health Organization's 
earlier conclusion in 1989 that ``The human evidence has not 
demonstrated that there is a threshold level for lung cancer or 
mesothelioma below which exposure to asbestos dust would be 
free of hazard to health.'' The World Health Organization 
recognizes what NIOSH concluded 25 years ago in 1976, that 
``only a ban can assure protection against carcinogenic effects 
of asbestos.''
    Asbestos has been responsible for a massive epidemic of 
disease and death since its commercial exploitation, primarily 
beginning at the turn of the last century. As we enter the new 
millennium, we do not want to promote the myth, as is currently 
promoted by parties interested in the continued commercial 
exploitation of chrysotile, one of the forms of asbestos, that 
it was the other forms, the amphiboles, which were responsible 
for the massive epidemic. Chrysotile, by the way, makes up 
about 98 percent of the commercial use of asbestos.
    The fact that Austria, Belgium, England, the Czech 
Republic, Chile, Denmark, El Salvador, Finland, France, 
Germany, Iceland, Italy, Latvia, the Netherlands, New Zealand, 
Norway, Poland, Saudi Arabia, Sweden, and Switzerland have all 
banned asbestos leads us to recognize that these countries feel 
the safe use of all forms of asbestos is not attainable and 
that alternative materials posing less risk to public health 
are desirable.
    The World Trade Organization, not known for its 
friendliness to environment and labor standards, has 
nonetheless recently upheld a panel decision recognizing 
France's right to ban chrysotile asbestos, finding sufficient 
scientific evidence for the ban. And it was just announced 
yesterday that Argentina is intending to ban asbestos in their 
country as well.
    I would like to go on and say that while it is true that 
asbestos consumption has declined in the United States and 
Europe, sales to other countries, particularly Southeast Asia, 
South America, Eastern Europe, has increased based on its use 
in the construction industry.
    Senator Murray. Dr. Lemen, please summarize, and you can 
submit your full testimony.
    Dr. Lemen. I would like to summarize and complete my 
testimony to ask, with all the scientific data and knowledge 
about asbestos, why is it still allowed in commercial products 
for general consumer usage such as brakes, lawn products, 
cement pipes, and others? We have seen the toll on workers 
mining asbestos, manufacturing asbestos, and using asbestos-
containing products. What will the toll on the American 
consumer be if asbestos continues to be allowed in commercially 
available products in American workplaces?
    Now is the time for the United States join the growing list 
of nations that have banned the further importation and use of 
asbestos.
    I would like to close by quoting the very eminent British 
public health statistician, Sir Bradford Hill, who said in 
1965: ``All scientific work is incomplete, whether it be 
observational or experimental. All scientific work is liable to 
be upset or modified by advancing knowledge. That does not 
confer upon us a freedom to ignore the knowledge we already 
have, or to postpone the action that it appears to demand at a 
given time.''
    The time is now, and the action we must take is clear.
    I would like to say that I also have some material for the 
committee to look at that was purchased yesterday in Houston, 
TX. These are asbestos-containing gaskets imported from Brazil.
    Senator Murray. Thank you, Dr. Lemen.
    [The prepared statement of Dr. Lemen may be found in 
additional material.]
    Senator Murray. Mr. Addison, please proceed.
    Mr. Addison. Madam Chairman, thank you very much for 
allowing me the opportunity to speak to you this afternoon.
    My name is John Addison, and I am an independent scientific 
consultant working in the field of mineralogy and health. I am 
actually a geologist by training. I was head of the Mineralogy 
Group at the Institute of Occupational Medicine in Edinburgh 
for about 15 years. The IOM is one of the foremost charitable 
research organizations in occupational health in the world.
    My responsibilities there ranged from analytical 
measurement of dust in the occupational environment, including 
all of the asbestos minerals, to characterize asbestos and 
other minerals used in carcinogenicity testing and the 
determination of asbestos in human and animal tissue samples.
    Over the last 20 years, I have been a member of the UK 
Health and Safety Executive Working Group, developing and 
drafting formal methods used for identification of asbestos in 
bulk samples and in airborne dusts. I am an internationally-
recognized expert and have testified previously in U.S. Federal 
hearings with respect to the definition of asbestos, and in 
particular to the issues related to the nonasbestos forms of 
the amphibole minerals.
    There are many complex issues involved in the measurement 
of asbestos in dust and bulk samples, but one of the most 
important distinctions that must be made is that between the 
asbestos minerals in the amphibole mineral group and their 
normal nonasbestos analogues. These are minerals that are 
effectively the same chemical composition but with subtly 
different crystal structures that lead to very different 
physical-chemical properties and different toxicological 
behavior.
    These differences have led to the clear distinction being 
made between asbestiform amphiboles and their nonasbestos 
analogues in the regulatory framework for asbestos in the 
United States, in the UK, and in much of the rest of Europe.
    One very important aspect of this issue is that all of the 
amphibole minerals have the property of forming crystal 
fragments that may meet the size definition of a regulatory 
fiber, but that does not mean that these fragments are 
asbestos, nor does it mean that they have the same 
toxicological properties as asbestos.
    Within this context, it was entirely appropriate that the 
fiber counts performed by OSHA for regulatory purposes 
discriminated between the cleavage fragment fibers of 
amphiboles and true asbestos fibers. Such a distinction is not 
only appropriate, but it is essential for the proper regulation 
of large numbers of industrial rock and mineral processes 
within the United States and elsewhere since many of these 
contain amphibole minerals, and these will generate cleavage 
fragment fibers that meet regulatory size criteria even though 
they are not asbestos.
    Having previously advised The Vermiculite Association, 
which is the international association of vermiculite miners 
and users, on issues related to amphibole and asbestos 
minerals, I was invited by Mr. Gumble of Virginia Vermiculite 
to assist him when it became apparent that there were possible 
asbestos outcrops within the ore body of the mine.
    Over the last 2 years, I have spent 15 days working at the 
mine, inspecting the ore body, personally explaining to every 
member of staff the health effects of asbestos, methods of 
identification, airborne dust monitoring, and many other 
aspects of asbestos science.
    I confirmed for Virginia Vermiculite that a tremolite 
asbestos did occur indeed as thin veins within the ore body, 
but these were not persistent and were only sparsely developed 
in terms of the whole mass of the ore. Since the thin tremolite 
veins could be recognized by an experienced operator, they 
could be removed when encountered and would not contribute to 
worker dust exposure during processing, nor would it finish up 
in the product.
    Even if the tremolite asbestos veins had simply been mixed 
in with the ore while it was being processed, it is unlikely 
that the tremolite asbestos would have been detected by 
conventional U.S. asbestos methods.
    Other small occurrences of actinolite asbestos also 
appeared to be found at the margins of intrusive masses of 
granitic rock that are found cutting the main rock mass of the 
deposit. Once again, these asbestos occurrences were not 
persistent and were only sparsely developed. Since the granitic 
rocks have no value as a vermiculite ore, they would not 
normally be disturbed nor would there be any value to their 
processing.
    Toward the end of my visits, I recommended that Virginia 
Vermiculite should request a visit from Dr. Malcolm Ross, 
probably the leading authority in the world on asbestos 
minerals, and formerly of the U.S. Geological Survey. He 
confirmed what I had found and furthermore suggested that such 
asbestos occurrences are widespread throughout the whole of the 
Appalachian Mountains and the Piedmont areas--not to say the 
Rocky Mountains and many other parts of the continent.
    In these circumstances, it is almost impossible to 
absolutely exclude the possibility of asbestos occurring in any 
mineral or rock development, but that does not mean that all 
such developments should cease----
    Senator Murray. Mr. Addison, if you could summarize 
quickly, I would appreciate it.
    Mr. Addison. Yes. One more sentence. That does not mean 
that all such developments should cease, only that sufficient 
care and attention must be paid to properly manage the asbestos 
problems.
    It is clear to me that in their considerable efforts to 
identify their problems, to manage the asbestos in their mine, 
and to minimize the possible health effects on workers, 
Virginia Vermiculite has set an excellent example and should be 
commended.
    Thank you for your time.
    Senator Murray. Thank you, Mr. Addison.
    [The prepared statement of Mr. Addison may be found in 
additional material.]
    Senator Murray. Mr. Biekkola.
    Mr. Biekkola. Senator Murray and members of the committee, 
my name is George Biekkola from L'Anse, MI. I am 67 years old, 
and I have asbestosis.
    I began working for Cleveland Cliffs Iron Company in 
Michigan in 1964. After almost 30 years on the job, I had to 
retire early because of my disability.
    I like being able to do things for myself, but now I cannot 
mow the lawn because my lungs are damaged. I have only two-
thirds of my lung capacity, and that is because my lungs are 
filled with asbestos fibers and have scarred from years of 
exposure. This puts a big burden on my heart, so I have to be 
careful not to exert myself too much.
    I also have to be very careful that I do not catch 
pneumonia or any lung condition, because my lungs are not able 
to fight off infections.
    I thought I would be spending my retirement traveling out 
West with my wife, hunting deer up in the mountains, but today 
I cannot. This is not how I thought I would be spending my 
retirement, but when I think about the other guys I worked 
with, I guess I came out lucky. Like my friend Dale Roberts, an 
electrician. He was so excited to retire and could hardly wait 
to help his son run a portable sawmill. Six months later, he 
was dead of mesothelioma. Or my friend Joe Brogan--2 weeks 
after Joe retired, he was dead of asbestosis/mesothelioma.
    Senators, I could give you more names--in fact, when I 
finally took the mining company to court a few years ago, I 
brought with me a stack of over 200 death certificates.
    I am here today to tell you my story so that maybe somebody 
else working in a mine or a brake shop or a factor will not 
lose----
    Senator Murray. That is fine, Mr. Biekkola. Just take your 
time.
    Mr. Biekkola [continuing]. Will not lose the things I have 
lost.
    Because it takes 20 to 30 years for the scarring in the 
lungs to show up on an x-ray, many people are not aware of the 
problem. Most Americans think asbestos is no longer a danger, 
but they are wrong. Today, asbestos fibers are still used in 
manufacturing and are still ruining the health of workers like 
myself.
    Companies will tell you that asbestos is not a problem, 
just like they told me. Senators, they lied. We need to worry 
about asbestos. We need our Government to protect us.
    In my job, I operated a hard rock drill. Often, I would 
drill through veins of asbestos and would breathe in the dust 
along with the rock dust. The safety equipment was limited. I 
also worked overtime in the kilns and crushers, where I was 
exposed to more asbestos.
    Eventually, I learned how to repair electronic equipment 
around the mine. Often, that equipment was wrapped in asbestos. 
I have brought some examples of some gaskets and packing 
material and thermal-couple wire that I handled throughout my 
job.
    In 1987, x-rays showed asbestos in my lungs, but the 
company doctor and the lung specialist told me not to worry 
about it.
    In 1990, I went to see Dr. Michael Harbut. He told me a 
different story about asbestosis, and he told me to get out of 
the mine. I went back to the company with the doctor's report, 
but they told me, ``Your job is here. Be at work tomorrow,'' 
and that was that.
    Later, I went to the Mayo Clinic in Minnesota for several 
days of tests. I showed these results to the company's 
personnel man, and he laughed at me and told me I could throw 
my medical report in the garbage.
    Because of my disability, I retired at age 60. Today I 
cannot do the things that I want to do for myself and my 
family.
    In the coming months, many workers will be diagnosed with 
asbestosis. I just wish the company would be more responsive to 
those workers and their families and not wait until those 
workers have died.
    Senators, please make sure that what happened to me will 
not happen to anybody else. Please raise the safety standards 
and keep a better eye on these companies. Workers like me are 
counting on you to protect us. Please do not let us down.
    Thank you.
    Senator Murray. Thank you very much, Mr. Biekkola.
    [The prepared statement of Mr. Biekkola may be found in 
additional material.]
    Senator Murray. Dr. Harbut?
    Dr. Harbut. My name is Michael Harbut. I am a doctor of 
medicine and a teacher at the Wayne State University School of 
Medicine in Detroit, MI. I am also a past chair of the 
Occupational and Environmental Health Section of the American 
College of Chest Physicians and am a board member, as was 
Congressman Bruce Vento, of the Mesothelioma Applied Research 
Foundation.
    Each year, I have approximately 3,200 contacts with 
patients who are ill as a result of their occupational or 
environmental exposures. Hundreds of these patients have 
asbestos-related diseases or cancers. Most of them die before 
they were meant to. My remarks today, therefore, are not only 
from the perspective of a physician who knows that much of the 
sickness and death which he daily confronts was preventable; in 
honesty, I am also angry at the industry and its friends in 
high places who have allowed this carnage to occur.
    I want to speak briefly about what asbestos fibers are and 
what they do when inhaled. It is quite commonly known that 
asbestos fibers cause scarring of the lungs and lung cancer; 
what is less commonly known is that persons with significant 
asbestos exposure have an increased overall death rate from all 
cancers.
    Asbestos fibers are microscopic airborne needles which 
penetrate the delicate tissue of the lung and have been 
identified in every organ of the body. Anywhere from a handful 
of years to decades later, persons with asbestos-related 
disease develop a thickening on the covering of their lungs, 
their smaller airways become narrowed, and the membrane over 
which oxygen passes to the bloodstream becomes thickened, 
increasing the work of breathing. They become short of breath 
on climbing a few stairs; they cannot walk from the shopping 
center lot to the store without stopping; and before too long, 
any exertion can cause a profound shortness of breath. Many 
patients ascribe the symptoms to ``just growing old.'' If they 
do seek medical attention, the diagnosis of asbestosis is 
rarely rendered. There are several reasons for this.
    First, even for trained physicians, it can be a tough 
diagnosis to make. Notwithstanding the mass tort litigation 
where an asbestosis diagnosis may be less than reliable, a real 
asbestosis diagnosis made by a real doctor just does not happen 
that often. One reason is that sometimes there are problems in 
identifying the asbestos fibers, one of the reasons why we are 
here today.
    Even if a patient has all the clinical signs and symptoms 
of asbestosis, there is sometimes inadequate data to confirm 
the presence of what the Government has decided constitutes an 
asbestos fiber. These are sometimes called asbestiform fibers, 
and in some cases, the inhaled dust may contain a percentage of 
asbestos below what was previously believed to be harmful or 
may be regulated as a ``particulate not otherwise classified.''
    To illustrate this, please see the x-rays I have brought. 
The first demonstrates a normal lung; the second, a patient 
with early but definite asbestosis. It is those white lines 
that look like dust that represent the asbestos scars.
    You will see that the third is quite similar to the second, 
demonstrating what appears to be early, definite asbestosis, 
but when we ashed this patient's left lung after it was 
transplanted, we found no asbestos fibers, but we did find a 
number of ``cousins'' of asbestos. This x-ray also shows what 
the inhaled dusts have done to the surviving lung over a period 
of 10 years.
    If you take a look at the film on the right, it shows the 
natural course of asbestos in the patient's right lung. It is a 
massive scarring. Fortunately, the left lung is transplanted.
    The fifth film shows what appears to be an early but 
definite asbestosis in a mine from Michigan's Upper Peninsula. 
He was not given this diagnosis by the courts, however, because 
his exposures fell below MSHA's notice.
    The next film shows an advanced asbestosis in a 
steelworker, and the last demonstrates asbestosis in an 
autoworker who made brake shoes.
    Diagnoses are also not made for insurance reasons. Once a 
patient receives a diagnosis of asbestosis, it is a fair bet 
the doctor and the hospital will have a very hard time getting 
paid for care. The patient can be thrust into a compensation 
system which rarely rules in his or her favor, and the 
patient's ability to acquire health or life insurance is 
severely impaired.
    So not only have these patients been assaulted by the 
fibers, they are assaulted by the law. They are also assaulted 
by funding policies for research. As an example, for every six 
breast cancer deaths, the National Cancer Institute is funding 
a study. There is one study funded for every 80 mesothelioma 
deaths. Mesothelioma is the relentless cancer of the covering 
of the lungs and intestines caused by asbestos which is usually 
found at autopsy, but when discovered before death, confers an 
average life expectancy of 6 months--a death from a fiber 
inhaled 40 years earlier.
    In my remaining moments, I would like to make a few 
suggestions which I think would help alleviate illness, 
suffering, and preventable death in our generations and those 
of our children.
    First, the Government should convene a panel of scientists 
and clinicians who know a lot about asbestos, its cousins, and 
the disease they cause. One requirement of membership of 
physicians would be that they have treated at least 100 persons 
with asbestos-related disease over the previous 5 years. The 
panel would study all diseases which present clinically, as 
does the 2001 brand of asbestosis. The panel would also look at 
the health, compensation, and insurance issues growing out of 
asbestos and asbestiform exposures.
    Finally, the Government should immediately encourage the 
refocus of at least some of its resources on the prevention, 
early diagnosis, and someday cure of asbestosis and 
mesothelioma. Prevention actually is an easy one--just ban the 
use of asbestos in the United States, as have nations all over 
the world.
    For decades, the society, the courts, and much of the 
Government have regarded asbestosis as a legal inconvenience. 
My patients and I ask you to understand that to them and their 
families, asbestosis means disease and death.
    Thanks very much for inviting me, and thank you for having 
these hearings.
    Senator Murray. Thank you.
    [The prepared statement of Dr. Harbut may be found in 
additional material.]
    Senator Murray. Dr. Whitehouse.
    Dr. Whitehouse. Thank you, Senator Murray.
    My name is Dr. Alan Whitehouse. I am a chest physician and 
pulmonologist from Spokane, WA. Spokane is 160 miles from Libby 
and is the primary referral source for patients with lung 
disease from the Libby area. I have been privileged and 
saddened to have taken care of many people from Libby who have 
asbestosis.
    Libby, as you know, was the site of the W.R. Grace 
Corporation vermiculite mine. Vermiculite is an insulating 
compound very commonly used for insulation, soil conditioning, 
and in fertilizers. The ore body of the W.R. Grace mine 
contained up to 27 percent tremolite asbestos.
    Tremolite is a highly toxic asbestos that is a contaminant 
with no commercial value. The insulating material is produced 
by heating the ore, or ``popping'' it after attempts are made 
to separate the tremolite asbestos from the ore body itself.
    Unfortunately, all the tremolite cannot be separated from 
the vermiculite. Both the partially refined ore and the 
finished product, known as zonolite, were sent throughout the 
country. The ore was sent to approximately 60 expansion plants 
to be made into insulating material, as you have noted up there 
on the slide.
    The finished product contained significant quantities of 
tremolite asbestos and was shipped throughout the country for 
various forms of insulation from both Libby and the 60 or so 
expansion plants.
    Asbestosis, as you have heard, creates an intense 
inflammation in the lining of the lung and produces fibrosis 
and scarring within the lung itself. There is a latency period 
from the time of exposure of anywhere from 15 to 40 years from 
the time of last exposure.
    All this scarring prevents the lungs from expanding and 
prevents gas exchange of oxygen and carbon dioxide. People who 
have progressive asbestosis die of a variety of illnesses. 
About 3 percent in the Libby series will die of mesothelioma, 
which is a cancer that you have heard about; many will die of 
respiratory failure, which is basically a form of suffocation 
due to an inability to oxygenate your body. The incidence of 
lung cancer is up to seven times expected from the general 
population.
    Unfortunately, vermiculite with this contaminant, 
tremolite, was scattered throughout the entire Libby area. It 
was present around the expansion plant, which was right near 
downtown Libby; it was present along the rail lines; it was 
used throughout the community as a soil conditioner, placed on 
the playgrounds of the schools to help condition the track; it 
was placed on the ball field and was worked regularly to keep 
the ground suitable for playing baseball. It was available free 
to the community to use in attic insulation, and many of the 
homes in Libby are insulated with vermiculite. Children played 
in the piles of vermiculite for many years.
    These were all fairly heavy exposures to asbestos, but 
unfortunately, there is also a significant number of people who 
have asbestos-related disease in whom the only source of 
asbestos that you can find is that they lived in Libby, MT and 
neither played in it as children nor were employed by Grace, 
nor lived with families of miners.
    Through the years, especially since 1980, I have seen a 
number of miners who worked in the plant who had asbestosis. It 
was thought until the last 5 to 7 years that this disease had 
been confined to the miners and their families. In the last 5 
years, I have seen an alarming number of patients who had no 
direct exposure to the mine or to the miners, who have 
asbestosis but obtained the disease from just living in Libby, 
MT. These include the children who played in vermiculite, rail 
workers, loggers who had logged around the mine property, men 
who worked in the lumber mill where they had used vermiculite 
on the plywood dryers, people who lived next to the expansion 
plant and storage bins, and people who just lived near downtown 
Libby who could not be identified as having any significant 
other exposure.
    I have been collecting a database for a number of years and 
currently have 396 cases in the database. They range all the 
way from patients with a few pleural placques to people who 
have died of this disease. One hundred three of this, or 
approximately 25 percent, are people who have never worked for 
Grace and whose exposure was environmental only in Libby. 
Twenty-four of my patients have died in the last 3 years, and 
five of these were people who only had environmental exposure.
    It is clear from the data that I have that people can 
obtain severe asbestosis with what would appear to be 
relatively minimal exposure.
    The current EPA/CDC screening program of 6,000 residents of 
Libby has turned up between 20 and 30 percent abnormal x-rays. 
There will likely be another 1,500 people with abnormal x-rays 
added to my 400, and they are going to screen another 2,000 to 
3,000 people this year.
    Asbestosis is a progressive disease. It is not known 
whether everybody with pleural placques will develop severe 
disease or not. It is clear that over 100 of my patients have 
severe disease, and about 75 percent of my patients with even 
mild disease are having progressive loss of pulmonary function, 
taking into consideration the changes in their function that 
goes with age. This 75 percent are losing approximately 3 to 5 
percent of their lung function per year over and beyond what 
would be expected from aging. These are people with mild 
disease who were exposed in the sixties and seventies and now 
have reached the point in the latency period to start 
progressing rather rapidly.
    It is clear that you can get asbestosis from what was 
thought to be a minimal exposure. Tremolite is considerably 
more toxic than chrysotile and may not take nearly as much 
exposure to get severe disease.
    Tremolite is present in many places throughout this Nation 
in the attic insulation where Zonolite was used. It is unclear 
how severe a problem this is, although I have one patient with 
asbestosis whose only exposure was home insulation.
    It does not appear from the data we have from Libby that 
there is anything such as a safe level of airborne asbestos. It 
may well be that we are still contaminating large numbers of 
people nationwide, particularly with tremolite, without 
actually knowing it.
    I will conclude by saying the following. The W.R. Grace 
Corporation was very well aware of the extent of this asbestos 
contamination throughout their ownership of the mine. There are 
probably many similar places in this country where a 
significant amount of exposure is contaminating, especially the 
60 expansion plants, and I have cases from Great Falls, from 
California, from Spokane, and I know of cases from Minneapolis, 
all related to that.
    Because of this long latency period of asbestosis, it is 
likely that we will continue to see new cases until at least 
the year 2030 if we banned asbestos at this point in time.
    Thank you.
    Senator Murray. Thank you, Dr. Whitehouse.
    [The prepared statement of Dr. Whitehouse may be found in 
additional material.]
    Senator Murray. Mr. Pinter.
    Mr. Pinter. Members of the Senate, ladies and gentlemen, my 
name is David Pinter of Louisa, VA.
    Before I quit 2 months ago out of fear for my health, I 
worked for Virginia Vermiculite for more than 22 years. I was a 
heavy equipment operator and mechanic and worked every day 
excavating and loading vermiculite for processing at the plant. 
I also loaded and distributed the waste rock that was left over 
at the end of the processing, and several times a week, I 
hauled the processed ore through the town of Louisa to dump it 
at an uncovered stockpile near the middle of town, or I loaded 
it onto a boxcar to be shipped all over the country.
    Every day I worked in clouds of dust doing each part of my 
job. Some days the dust was so thick I could barely see. Never 
in 20 years was I given any protective clothing or respiration 
equipment.
    When I would excavate the vermiculite to begin the 
processing, I would see veins running everywhere through the 
ground of whitish-gray fibrous material that was much lighter 
than the surrounding rock and sometimes almost fluffy in 
consistency. A lot of this fibrous material ended up in the 
waste rock, and a lot of it ended up going into the process 
that put it into the downstream product.
    I have samples of this stuff in the jars here in front of 
me, as you can see.
    For as long as I can remember, there have always been 
rumors in our community that the vermiculite that we were 
handling was contaminated with tremolite asbestos.
    The company owners assured the workers and the people of 
the community that this was not true and that we were safe. No 
one thought the company would lie to us, especially since one 
of the owners was former Deputy Administrator of the EPA for 
Air and Water Safety in the Nixon administration.
    As a result of all this, we put our fears aside and 
continued to work unprotected.
    I know now that the tests conducted by W.R. Grace Company 
going back to the 1950's showed heavy concentrations of 
tremolite asbestos in the Louisa deposit. W.R. Grace controlled 
the deposit before Virginia Vermiculite took it over.
    Only 20 percent of the material we dig up becomes usable 
vermiculite ore. That leaves 80 percent of every ton of 
excavated earth as waste rock that is accumulated at the plant 
site. Each year, we produce up to 50,000 tons of vermiculite. 
This leaves 200,000 tons of waste rock that must be disposed of 
annually. The management of Virginia Vermiculite decided that a 
good solution to this problem would be to give it away to the 
public as free gravel.
    For 22 years, I watched people come in with their own 
trucks to be loaded with this waste rock, or management would 
send dump trucks full of waste rock out each day to be dumped 
on people's driveways, parking lots, public areas such as the 
local library and the fairgrounds. Usually about 100 to 300 
tons of this material was given away every day. As I told you 
before, all this waste rock contained large quantities of 
white-grayish fibrous material.
    In the fall of 1999, I began to see all the news about how 
the vermiculite workers and their families were dying in Libby, 
MT from exposure to tremolite asbestos. This scared all the 
workers at the plant, but management continued to tell us that 
we had nothing to worry about and that there was no tremolite 
in the Virginia deposit.
    Some months later, an inspection team from MSHA showed up 
to check for asbestos exposure. They seemed shocked at what 
they found. I heard someone say, ``This looks more like an 
asbestos mine than a vermiculite mine.''
    It turned out that the white-gray fibrous material that we 
had been working in for all these years was indeed tremolite 
asbestos--the same as the Libby, MT plant--and citations were 
issued against the company because of the worker exposure.
    MSHA's tests later showed the tremolite to be in a 
concentration of up to 99 percent. The inspectors said the 
workers needed to be in protective clothing, use respirators, 
have dust-free cabs on all equipment, and have onsite showers 
and other decontamination equipment provided. They also made 
management put red flags and orange cones out to mark the 
dozens of veins of asbestos that criss-crossed the property. 
These veins range in size from less than an inch to one which 
is 6 feet high and 2 feet wide. Usually, the best-quality 
vermiculite is under and around these deposits of asbestos.
    Management was visibly annoyed at having these rich parts 
of the deposit off-limits.
    As I understand it, management told MSHA they agreed to all 
of MSHA's safety requirements. However, management actually 
ignored the safety requirements, and most of them have never 
been carried out. The red flags and orange cones were set out 
to mark the asbestos veins, but no protective clothing or 
respirators were ever issued to the men, and there is almost no 
protective equipment in place.
    Since January, however, MSHA and the EPA seem to have lost 
interest in the tremolite asbestos problems at Virginia 
Vermiculite, and management seems to appreciate this. For 
example, on Inauguration Day 2001, the bosses at the plant were 
joyful and ordered all the red flags and orange cones removed 
from the barricaded areas where the asbestos veins were, and 
the workers were told to excavate through the asbestos veins as 
they always had before. I have a couple of photographs here, if 
you are interested.
    When the plant manager ordered this, I heard him say: ``We 
do not have to worry about MSHA anymore. From now on, they will 
be behind us every step of the way. They will not cause us any 
more problems.'' Once again, all the tremolite went into the 
product for downstream consumers of garden and lawn products, 
medicated powders, fire board, brake shoes, aggregates, and 
numerous other common products.
    Everyone talks about what a tragedy Libby, MT was and how 
it can never happen again. Well, it is happening right now. It 
is happening under your noses just 2 hours from where you are 
sitting. We are not dead yet, because the mining in Libby began 
25 years before they started in Virginia--but it is coming.
    The end of the incubation period for asbestos disease is 
almost at hand. All the plant workers since 1978 have been 
exposed, and hundreds of people in the town and county are 
being exposed daily. It is probably already too late for most 
of us, but you need to shut this mine down and require the 
company to thoroughly decontaminate the mine and mill site. You 
also need to require the company to disclose every location 
where they spread their waste rock and to clean up those sites, 
too. This is the only way to protect all those who have been 
exposed and do not know it.
    Thank you for your time. I have appreciated coming here.
    Senator Murray. Thank you very much, Mr. Pinter. 
[Applause.] We will not have any outbursts from the audience, 
please.
    [The prepared statement of Mr. Pinter may be found in 
additional material.]
    Senator Murray. Mr. Gumble.
    Mr. Gumble. Senator Murray, my name is Ned Gumble, and I am 
the manager of Virginia Vermiculite. I have been there since it 
was first started in the late seventies, and I am familiar with 
all aspects of its operation.
    We got into business and our deposit was brought on line as 
a result of the Libby situation and customers opting to or 
stating that they would not buy Libby material ever again.
    We currently meet the OSHA airborne standard of 0.1 fibers 
per cc for all workplace exposure, and even though we are 
regulated under MSHA with a two-fiber standard, we apply the 
OSHA standards in our own continuous testing program.
    As an attachment to my testimony, I have included a history 
of all of our OSHA airborne monitoring.
    With regard to the allegation on the rocks spread 
throughout the community, as a result of this MSHA inspection 
which we received late last fall, other agencies were called in 
to take a look at exposure possibilities within the community, 
and EPA sent a team in--they have been there several times--not 
only to monitor or take a look at potential asbestos 
contamination in this waste rock, but they also did a parallel 
study to that work which was done in Libby in terms of sampling 
dust in surrounding homes.
    EPA results on numerous rock samples throughout the 
community--no asbestos detected. The parallel study on dust 
samples--no asbestos detected.
    As a point of reference, when EPA did their test work in 
Libby, MT looking at dust exposure in the town of Libby, they 
found exposures and quantities of tremolite in 11 out of 32 
homes. Mind you, these homes are miles away from the mine. When 
EPA came to Virginia to test in our area, the closest home is 
within 100 yards of active mining activity, and there was no 
asbestos detected.
    In addition, we have undergone a set of health screening 
for all of our employees recently. Last year, our employees 
received lung examinations by the University of Virginia Health 
System, their Division of Pulmonary and Critical Care Medicine. 
The results of these examinations are also included as an 
attachment and were negative for all employees tested. Mr. 
Pinter refused to participate.
    We do have occasional thin veinlets of fibrous material in 
our deposit. We brought in Mr. Addison to address this issue, 
as he suggested, and based on that consultation, he spent time 
going through our entire deposit and advised us on procedures 
for dealing with these minor occurrences and also thoroughly 
trained all of our employees on asbestos issues.
    To step back in time, in August of 2000, we received the 
third investigation into our operation by the Mine Safety and 
Health Administration in the year 2000. This investigation was 
allegedly triggered by an employee complaint. As a result of 
that, MSHA found no violation of MSHA's or OSHA's employee 
exposure standards. However, MSHA did release prematurely 
inaccurate results to the Seattle Post Intelligencer regarding 
this investigation. At that point, MSHA gave us two 
``housekeeping'' citations regarding asbestos. At this time, 
MSHA took samples of our product and found no asbestos in our 
vermiculite products. In their prior two visits that year, they 
also sampled our product and found no asbestos detectable in 
our vermiculite products.
    Once MSHA reviewed the appropriate test results that it did 
have in its possession in September of 2000 but withhold when 
they released the results to Seattle Post Intelligencer, and 
when they retested our operation later in 2000, they withdrew 
those citations. I have included also as an attachment a 
chronology of all these events as well as communications with 
MSHA in this regard.
    I guess in closing, I would like to say several things. 
First of all, I would like to supplement my testimony with a 
letter from our employees who have had the opportunity to 
review Mr. Pinter's allegations against us. That will be a 
supplement.
    Second, I would like to make a very brief point about our 
product. You today, as well as other Senators and panel 
members, have spoken about asbestos banning and what we might 
do in this country in that regard. For the last 5 years, we 
have been shipping material to Denmark, one of the countries 
named which has banned asbestos products. Every time we ship to 
that country, we send a composite sample of the shipment which 
is precertified by their Institute of Occupational Medicine. We 
have never failed in getting a shipment certified in Denmark.
    Second, I guess I would like to speak from the heart for a 
minute and put a little perspective on Libby, MT, which I think 
has been lacking here.
    EPA did a study on asbestos concentration in Libby, MT in 
the late eighties. It is also an attachment to my testimony. 
You will find in there that they cited asbestos concentrations 
in the ore fed to their plant up as high as 20 percent, which I 
think is high. On average, I understand the number is 2 to 3 
percent, but that is the quantity of asbestos interspersed 
throughout that entire deposit.
    In Virginia, we have some discrete veinlets of material, 
the sum total of which would not fit on my briefcase from a 
surface area standpoint.
    Senator Murray. Mr. Gumble, I have allowed you to go two 
and a half minutes over time. If you could summarize now, I 
would appreciate it.
    Mr. Gumble. OK. Test work of the quantity of fibers in our 
raw material is less than 10 parts per million, some 2,000 to 
3,000 times less than in Libby, MT. As an attachment, I have 
also listed information showing historical fiber exposures to 
employees in Montana, and those exposures were based on a NIOSH 
study done in the late eighties. Exposure levels in the fifties 
and sixties were in the hundreds of fibers per cc.
    Senator Murray. Please sum up.
    Mr. Gumble. We have adopted a standard of 0.1 fiber per cc.
    Senator Murray. Thank you. You can submit your entire 
testimony, Mr. Gumble. Thank you very much.
    Mr. Gumble. Thank you.
    [The prepared statement of Mr. Gumble, with attachments, 
may be found in additional material.]
    Senator Murray. I have several questions, and then I will 
turn it over to Senator Reed for his questions.
    Mr. Gumble, let me just ask you, isn't it true that since 
MSHA conducted its inspection last August, your company, 
Virginia Vermiculite, has acknowledged the presence of 
tremolite asbestos at your mine?
    Mr. Gumble. Yes, that is true. I mean, we acknowledged it 
prior to MSHA.
    Senator Murray. In your testimony, you said that MSHA 
withdrew its citations. Wouldn't it be more accurate to say 
that MSHA entered into a negotiated settlement with your 
company which included your company taking additional measures 
to protect workers?
    Mr. Gumble. Yes. They vacated the citations as a result of 
that; correct.
    Senator Murray. As a result of the negotiations; thank you.
    Mr. Addison, you are a spokesperson for Virginia 
Vermiculite; correct?
    Mr. Addison. I am an independent consultant with interests 
related to the vermiculite industry in general as well as many 
other industries.
    Senator Murray. I was curious--you are from the United 
Kingdom, and they have banned asbestos. Do you find that 
peculiar?
    Mr. Addison. We have a prohibition on asbestos, and I am 
not here to argue for or against the prohibition on asbestos. 
But I would say that to some extent, a prohibition on asbestos 
might be just as effective as, for example, a prohibition on 
carbon dioxide. Asbestos is a natural material that occurs in 
the environment, almost everywhere on the surface of this 
planet, so to ban it in the strict sense is pointless. You may 
prohibit its use in certain materials, and I would support 
that.
    Senator Murray. Dr. Lemen, let me ask you a question. How 
do you explain the fact that the United States still has not 
banned asbestos or contact with asbestos, unlike so many other 
countries in the world?
    Dr. Lemen. I firmly believe that the United States should 
ban asbestos, and they have had the opportunity. Unfortunately, 
when EPA took that step, and it got into litigation, it was 
overturned by a Federal court. I think that the U.S. Government 
should follow the rest of these countries and immediately go 
into action to ban the use of asbestos in consumer products and 
the importation of asbestos, and I think the United States is 
very far behind the line in doing this action.
    Senator Murray. Thank you.
    Dr. Harbut, right now, the Federal Government only 
regulates six forms of asbestos. Would you recommend that the 
Government expand its definition, and if so, could you tell us 
how?
    Dr. Harbut. Sure. I think, my suggestion is that a 
committee of very informed people about asbestos-caused 
diseases and those diseases which look like asbestos or 
asbestosis, which are excluded from the definition because of 
governmental fiat adopted in the last 30 years, should be 
looked at. And the diseases should be judged from their 
clinical presentation, pathological presentation, and back up 
from there, and then determine what minerals cause the illness.
    I also agree that the fibers should be banned. If I may, I 
thought Mr. Addison was making an argument for the legalization 
of marijuana there for a moment--it is a natural substance, it 
grows on trees, it occurs in the environment. I think that that 
argument does not hold water. There are many, many naturally-
occurring substances ranging from arsenic to asbestos which are 
known to poison people, so I think a ban is certainly not 
unreasonable, number one, and number two, I think that the 
definition should be broadened.
    Senator Murray. Thank you.
    Dr. Whitehouse, you have talked about your treatment of a 
number of people who were exposed in Libby, MT, and we heard 
Senator Baucus talk earlier about the tremendous personal grief 
that has occurred in that community. In your opinion, what 
should Congress and this administration do to ensure that what 
happened in Libby, MT never happens again?
    Dr. Whitehouse. I think that first, they should ban the use 
of asbestos in consumer products and in most products--there 
may be some special uses, but for the most part, it should be 
banned.
    I think there should be a regulatory effort concerning all 
these contaminants that may be present in other compounds. What 
Dr. Harbut said about diseases that look like asbestosis 
probably are various forms of asbestos-related diseases, but 
may be similar compounds, and in fact some of the cleavage 
fragments that were discussed may be problematic as well. So I 
think the Government should regulate this stuff very tightly; 
this is obviously present throughout the country.
    Senator Murray. Thank you.
    Mr. Pinter, just to give you a chance to respond--did 
things change at the mine after MSHA issued the notice of 
violations last August?
    Mr. Pinter. Not that I know of, ma'am. The only thing that 
I saw that they did was verify the veins of asbestos. And they 
were supposed to comply with full-quality air control cabs, and 
when I left, there were only two pieces of equipment out of 
about 20 that had any environmental cabs on them; and we never 
did get any respirators. The only thing we were issued was 3M 
dust collector respirators, which State on them that they are 
not for asbestos use. No showers--well, they have one shower 
there, but it is not a decontamination shower--no protective 
clothing. It just went on like they usually mined, so they 
never really did do anything that MSHA suggested.
    Senator Murray. Thank you.
    Mr. Biekkola, when did you first suspect that you were 
being exposed to asbestos at Cleveland Cliff Iron?
    Mr. Biekkola. Probably in the mid-sixties.
    Senator Murray. So 30-some years ago.
    Mr. Biekkola. Yes.
    Senator Murray. Mr. Pinter, you have worked 22 years at the 
mine?
    Mr. Pinter. Twenty-2 years and 3 months.
    Senator Murray. Did you ever wear protective equipment?
    Mr. Biekkola. When the room or the building got so white, 
dusty, and cloudy that you could not see the lights very well, 
they would come out with the cloth respirators, which we know 
today are not adequate for filtering asbestos fibers. And then, 
if you could find the box, it was loaded with dust, and you did 
not want to use it anyway.
    Senator Murray. Did you ever worry that you might be 
bringing that home to your family?
    Mr. Biekkola. We had showers right at work, but yes, there 
was a thought of the clothing that we would bring home daily or 
every other day to get cleaned up. And they did not furnish any 
protective clothing other than a pair of gloves; that was all.
    Senator Murray. Senator Baucus discussed a number of 
families--Dr. Whitehouse, I assume you know the same--workers 
who brought asbestos home from work and infected their 
families, or children who played in the vermiculite in 
schoolyards, etc. You mentioned a number of your friends who 
have passed away. Did any of their families have that kind of 
exposure?
    Mr. Biekkola. In that area, the doctors would not even 
mention that the miners were asbestos victims. They did not 
want to----
    Senator Murray. The doctors that you went to?
    Mr. Biekkola. They did not want to. It was a closed--they 
never talked about it.
    Senator Murray. Dr. Whitehouse, can you explain that?
    Mr. Biekkola. There are very few asbestos cases listed out 
of--there are three mines up there, and it is heavily mined, 
and there are heavy, heavy deaths.
    Dr. Whitehouse. Actually, in Libby, the first time that 
Grace was told about the asbestos was actually--or, actually, 
the original Zonolite Corporation was told in the fifties about 
people with abnormal x-rays. The radiologists in Libby were 
aware of the problem and tried to bring it to their attention 
for a long time. A physician by the name of Dr. Rick Irons 
tried to bring it to Grace's attention in the late seventies 
and basically left town because of all the clamor that occurred 
over that.
    I think the doctors were aware of it, but I don't think 
they recognized the significance of it at the time.
    Senator Murray. I see.
    Senator Reed?
    Senator Reed. Thank you very much, Madam Chairman.
    Mr. Addison, you have examined closely the Virginia mine. 
Have you ever had the occasion to examine the mines in Libby or 
in that area?
    Mr. Addison. No. I have seen the material, and I have seen 
analytical reports, and I recognize the description of 28 
percent asbestos in material prior to processing and 2 to 3 
percent after processing in Libby. That is so different from 
the situation in Louisa that it just does not bear comparison.
    Senator Reed. It is different in the concentration of the 
asbestos--that is the key difference?
    Mr. Addison. Not just the concentration but the 
distribution of the asbestos.
    Senator Reed. In terms of the veins that run through.
    Mr. Addison. My understanding is that Libby had a pervasive 
asbestos content throughout the whole ore body. That is not the 
situation in Louisa, where it is constrained to discrete veins.
    Senator Reed. Right, but you are making some inferences 
since you have not examined Libby specifically.
    Mr. Addison. I am relying upon descriptions of the Libby 
ore that I have seen in the literature.
    Senator Reed. Dr. Whitehouse, you seem to suggest in your 
testimony that, from your research and your data, there is no 
safe level of exposure--at least, that is the inference I 
received. Is that a fair inference from your testimony?
    Mr. Addison. Basically, in a sense, I guess it is, because 
I have a fair number of patients from Libby for whom I cannot 
find the exposure. I know they have asbestos. Their exposure--
they did not play in the ball fields, they did not play on the 
railroad tracks, they did not have it in their homes, they did 
not have it in their garden--they only lived in Libby. There 
must have been a period of time when there was significant 
airborne exposure in Libby which does not exist now.
    I would tell you that what Mr. Addison said about levels of 
asbestos in the mine and in the finished product are accurate 
from what I know also, that it was 2 to 3 percent in the 
shipped material.
    Basically, then, if you do not know what the number is that 
it takes to get this, and you have a disease that takes 30 
years to show up, the only safe course is to say ``I do not 
want anything to do with it.''
    Senator Reed. But let me ask the question: Given what you 
have seen from Libby and given the fact that there is a 
difference certainly in the concentration and maybe the 
distribution, you would be at least suspicious of the potential 
development of significant asbestosis around the Virginia mine; 
is that fair?
    Dr. Whitehouse. I do not have enough information that I 
would even want to comment on that.
    Senator Reed. Fine.
    Dr. Lemen, from your perspective, or Dr. Harbut?
    Dr. Lemen. I would say that given the situation around 
Virginia, they can expect, in my opinion, maybe not the 
magnitude of Libby but a similar situation to occur after 
sufficient latency for disease to develop. And I think that to 
cease that mining situation would be the only alternative way 
to prevent that.
    Senator Reed. Dr. Harbut?
    Dr. Harbut. The only thought I have is the following. You 
have to remember that OSHA permissible exposure limits are 
negotiated limits between a number of interested parties, and 
they are adopted knowing that some people will get sick at 
those levels.
    Senator Reed. I will just raise another question, which is 
that a lot of this is the definition of how much exposure is 
valid, etc. Can you comment, Dr. Harbut, Dr. lemen, and Dr. 
Whitehouse--should we be moving to a more rigorous standard by 
OSHA--or, MSHA in this case--and you might also comment on the 
contrast between MSHA and OSHA--different standards, same 
Government.
    Dr. Harbut. That is an extremely good point. I think part 
of the issue is that much of the asbestos discussion over the 
last 3 years has been sort of politically and economically 
motivated, at least in its details, rather than health and 
disease motivated.
    My suggestion would be to look at the disease processes, 
look at the other issues surrounding the pathophysiology of 
exposure to the asbestos fiber, or asbestiform fibers, or 
fibers which behave like asbestos, and work from there, rather 
than identifying the fibers and working backward to its human 
health effects. It is a lot easier to identify people who have 
had exposure who are sick and their disease processes and trace 
back than it is the other way around.
    That having been said, I think that the MSHA levels are 
definitely way too high, based on--I examined a couple hundred 
miners in the Upper Peninsula of Michigan 10 years ago, and we 
found a penetration in these high-seniority miners of about 60 
percent with asbestosis. MSHA identified no asbestos that broke 
any rules in any of those mines. So we basically had a case of 
people with asbestosis, but because MSHA said the asbestos was 
not high enough to worry about, I guess they did not.
    Senator Reed. Dr. Lemen?
    Dr. Lemen. When I was at NIOSH, we tried to get MSHA to 
lower their standard to come into compliance with what the OSHA 
standard was. NIOSH in 1976 recommended the 0.1 based on the 
fact that we knew that it still would cause disease, but we 
said that a ban was the only way to eliminate disease. NIOSH 
said that 25 years ago. For MSHA to continue with their 
standard is outrageous, and a lot of mines are going to develop 
disease as a result of that.
    Senator Reed. Dr. Whitehouse, do you have a comment about 
the definitions and the standards?
    Dr. Whitehouse. No, not really. I am not much of a 
mineralogist. I am more of a practicing physician, so I do not 
deal very much with levels. I basically agree with Dr. Harbut 
and Dr. Lemen, though.
    Senator Reed. I am tempted to talk about kidney stones, but 
I will not.
    Thank you all very much. I want to thank Mr. Biekkola and 
Mr. Pinter for their testimony, and Mr. Gumble as well. It is 
extremely difficult to come up here and talk about an issue 
which is highly personal--your company, your lives, your 
positions--and we all appreciate it, because you add something 
very important, an element of immediacy. Expert witnesses are 
helpful, but they do not have that sense of immediacy, so I 
thank you.
    Senator Murray. Thank you very much, Senator Reed.
    We will include a statement from Senator Kennedy for the 
record.
    We also have statements from Senators Wellstone and 
Clinton.
    [The prepared statements of Senators Kennedy, Wellstone, 
and Clinton follow:]

                 Prepared Statement of Senator Kennedy

    I commend Senator Murray for calling this hearing on the 
dangers of asbestos for workers and consumers and this 
important issue of workplace safety. As we all know, exposure 
to this substance causes asbestosis, an often fatal breathing 
problem. It also causes lung and other cancers.
    The vast majority of Americans believe that asbestos was 
banned many years ago. In fact, it is estimated that 3,000 
different types of commercial products--from paper products and 
brake linings to floor tiles and insulation--still contain 
asbestos. Day in and day out, countless men, women, and 
children are still being exposed to this deadly substance, with 
serious consequences for their health and their very lives.
    Clearly, we need to do more to guarantee the protection 
that is long overdue from this serious public health danger. 
Our colleague, Senator Baucus, will testify today about a 
particularly troubling case. Hundreds of miners, their family 
members, and other citizens of Libby, Montana have become sick 
or have died from exposure to the asbestos that contaminated 
the ore in a local mine.
    The contamination that started in Libby didn't end there. 
The ore was shipped to processing facilities throughout the 
United States, including a plant that produced attic insulation 
in Easthampton, Massachusetts from 1964 to 1984. Last month, 
nine of a dozen soil samples collected at the site showed 
detectable levels of asbestos. Five of the samples had levels 
significantly higher than one percent, the maximum level that 
EPA says is acceptable.
    Asbestos is obviously a continuing national problem that 
affects all our states. I welcome this hearing, and I look 
forward to the testimony of our witnesses.

                Prepared Statement of Senator Wellstone

    Madam Chair, I want to thank you for organizing these 
hearings today. We are focusing today on a deadly serious 
problem--exposure of workers and other members of the public to 
serious health risks from exposure to asbestos.
    As Chair of the Subcommittee with jurisdictional 
responsibility for protecting worker health and safety, I am 
extremely concerned about the problems of asbestos 
contamination in the workplace. I also know first-hand, from 
the experience of residents in my home State of Minnesota, how 
far the tentacles of asbestos contamination can reach. 
Thousands of residents in Minneapolis are potentially at risk 
from a facility that processed asbestos-laden vermiculite from 
the W.R. Grace Mine in Libby, Montana. And, unfortunately, this 
is only one of many sites around the country experiencing this 
dreadful contamination.
    We must do everything we can to end this devastating 
problem. asbestos contamination is not a thing of the past--far 
from it. Asbestos contamination is real. It is killing and 
injuring countless numbers of people.
    I welcome the opportunity to hear today from the Federal 
Agencies responsible for addressing the problem of asbestos 
contamination. I will listen with interest to their suggestions 
for how we can rationalize our regulatory framework for dealing 
with asbestos contamination. It is difficult to understand, for 
example, why the Mine Safety and Health Administration should 
have a standard that is 200 times weaker than that used by the 
Occupational Safety and Health Administration. And I want to 
hear from this Federal Panel about the training on asbestos-
related issues that they believe it is important for their 
inspectors to have. It's also important for us to hear whether 
our laws are currently tough enough to deal with this deadly 
problem--or do we need legislation to help us put an end to 
asbestos contamination in our workplaces, our homes, and our 
neighborhoods.
    I also look forward to hearing from our panel of workers 
and scientific experts. It is terribly important that we--and 
the American public--understand the full impact that asbestos 
contamination can have. This is not an abstract problem. 
Asbestos contamination causes tremendous harm--we need to tell 
that story.
    And we need to know how it could have happened that in many 
work sites the problem of asbestos contamination escaped 
discovery for so very long--and with such deadly affects. How 
could so much time have passed without workers and residents 
being notified of the risks associated with asbestos. how can 
we avoid such a public health disaster in the future?
    Madam Chair, again I commend you for organizing these 
important hearings. and I look forward to working with you on 
much needed solutions.
    Thank you.

                 Prepared Statement of Senator Clinton

    I would like to thank Senator Murray for requesting and 
chairing this hearing today on the important issue of asbestos 
contamination and workplace safety. Senator Murray's leadership 
on this issue is to be applauded.
    Sitting on both the HELP committee and the Committee on 
Environment and Public Works, I have come to appreciate the 
impacts our environment can have on our health and the health 
of our families--whether it is the air we breathe, the water we 
drink, the food we eat, the products we use. And whether we are 
talking about the general environment around us, our home 
environment, our work environment, or our children's school 
environment--these can all, without a doubt, have an impact on 
our health.
    I don't think I have to tell anyone here how much 
skepticism there is out there when it comes to environmental 
health issues--and rightfully so, in many cases. The problem 
often is that we don't have enough information. We don't have 
the facts we need to make concrete connections between our 
health and the things in our environment that may be making us 
sick.
    I am pleased to say that we are making progress in this 
area. With the mapping of the human genome, and other new 
genetic and scientific tools we've recently developed or 
discovered, we are now on the verge of making some major 
environmental health discoveries. And it is only then, when we 
are able to replace the fear with the facts, that we will truly 
be able to tackle our most pressing environmental health 
challenges.
    Now, the topic of today's hearing--asbestos--is somewhat 
different from a lot of other environmental health concerns. 
Because in the case of asbestos, there are clear, indisputable 
links that have already been identified between asbestos 
exposure and human health. We know for a fact that exposure to 
asbestos causes asbestosis, mesothelioma and other lung 
cancers, and pleural plaques.
    In fact, elevated death rates for lung cancer in coastal 
areas of Georgia, Virginia and northeastern Florida and 
Louisiana were linked to shipyard workers' exposure to asbestos 
during World War 11.
    We were able to make this connection between asbestos 
exposure and elevated cancer rates in these shipyard workers 
because we had good cancer data. And we had that data because 
we were tracking cancer incidence rates.
    I think we need more tracking efforts like this in order to 
be able to better identify and address environmental health 
risks. That is why I have put forward an eight-point plan to 
address our environmental health challenges, including:
    <bullet> Establishing a national tracking system for 
chronic diseases that may be linked to the environment;
    <bullet> Placing environmental health officers in every 
state's public health department; and
    <bullet> Creating a chronic disease rapid-response force 
that would bring environmental, scientific and health experts 
into potential disease clusters, including those revealed by 
the national tracking system.
    I plan to introduce legislation to create a national health 
tracking network with my colleague Harry Reid and others after 
the recess. And I am hopeful that we will have a hearing on 
these broader environmental health issues in this Committee. We 
have already had two such hearings in the Environment 
Committee--one in Fallon, Nevada, and one on Long Island.
    The key is, however, that once we have the information, 
once we know that there is something in our environment that is 
making people sick, we need to properly address that threat to 
human health.
    Most people believe that we've taken care of the asbestos 
problem--that it is a problem of the past. And why wouldn't 
they? As I mentioned before, we know asbestos causes cancer and 
other health problems, so of course we must be taking care of 
it. Right?
    Well, I look forward to hearing from today's witnesses 
about whether or not we are doing all that can and should be 
done to address the environmental health threats posed by 
asbestos exposure.
    While I know that we are taking a number of steps at the 
federal level, I am concerned that we may not be doing enough. 
And I am not just concerned about the workplace, I am also 
concerned about schools and whether they are safe for kids--
including threats posed by asbestos in older, ``sick'' schools 
around the country.
    I believe we need more information about all of the 
possible health and educational impacts that school 
environments have on our children. I was pleased to pass an 
amendment to the education bill to study this issue and learn 
more about what effect mold in ventilation systems or asbestos 
in buildings have on students' health and cognitive abilities.
    And it appears that we may need more information about all 
of the possible health impacts of asbestos and asbestos-like 
compounds in the workplace. For example, in New York, there 
have been hundreds of claims filed by talc mine workers found 
to have workrelated respiratory disabilities. Documents show 
that miners, millers, and mine supervisors in New York have 
died or are dying from disease caused by fibers--mostly 
asbestos--in their lungs.''
    And there is at least one facility in New York that we know 
received materials from the vermiculite mine in Libby that we 
will hear more about today. This site has been referred to OSHA 
for further action.
    So again, I think these environmental and workplace issues 
are vitally important. I want to thank Senator Murray for 
calling today's hearing. I am sorry that I am not able to stay 
longer, but I will be reviewing all of the testimony presented 
today.
    Thank you.
    Senator Murray. Again, thank you to all of our panelists 
who have travelled some distance to be here today and for your 
expertise. We appreciate your helping us get a better picture 
of asbestos and the concerns that we have in this country.
    I will go back to what I said at the beginning of the 
hearing. I, like most Americans, thought asbestos was banned at 
least a decade ago. I think we have a lot to learn, and I think 
we have a lot to look at in the near future.
    Thank you very much.
    [Additional material follows:]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Senator Burns

    Mr. Chairman, Let me begin by thanking you and the committee for 
holding this hearing on asbestos in the workplace and its' implications 
for workers and their families. This is a vitally important issue 
generally and, as you know, it is an immediate and on-going issue for 
my constituents in Libby, Montana.
    It is because of the on-going nature of the problem that I thank 
you for this opportunity to speak before your committee. For the past 
two years, the EPA has been in Libby assessing the levels of raw 
asbestos contamination from a former vermiculite mine and has begun the 
job of cleaning up the area. I am concerned about the length of time 
being taken as well as the costs associated with that cleanup effort. 
At the conclusion of this fiscal year, it is estimated that the EPA 
will have spent some $30 million. I would like to hear from EPA just 
how far along in the process we are and would like as well a realistic 
estimate of how much time and expense is envisioned to complete the job 
of cleaning up the mine site and, more importantly, the community.
    Additionally, both the Governor of Montana and I have asked EPA for 
a report on the economic implications of designating Libby a 
``Superfund'' site. Currently, the work is being done under emergency 
status and the EPA has made it clear that, to assure long-term funding 
to continue the cleanup process, it would be best to put Libby on the 
National Priorities List (NPL) or ``Superfund'' list. It seems to me 
that the EPA has had abundant opportunity over the years to assess the 
economic consequences of such a designation but we still haven't gotten 
much information from the agency. I have the Governors' most recent 
request for answers and would appreciate her letter being entered into 
the record. Comments from the EPA coordinator in Libby indicate a 
preference to establish Libby as a Superfund site but the final 
decision should be made by all concerned with a complete understanding 
of the impacts that the designation brings to this community and its' 
citizens.
    I am not interested in assigning blame to the tragedy in Libby. I 
must add that, considering the role EPA has had in the current tragedy 
facing Libby and it's citizens, it is not too much to expect that the 
Agency go the extra mile in doing everything it can to make Libby whole 
again with the least possible negative impact. When I first was made 
aware of the asbestos situation in Libby, we asked the EPA for 
background and discovered the Agency was in Libby in the 1970's and, 
although it was noted by EPA that there was a significant health risk 
from exposure to the raw asbestos fibers at the mine, little or nothing 
was done to protect the workers. A recent report from the Inspector 
Generals Office of the EPA confirms that EPA was not responsive to the 
workers or the community and that is very much part of the problem 
facing these folks today.
    Asbestosis and the other diseases that result from exposure 
sometimes don't reveal themselves for twenty or thirty years. The 
inaction of the state and federal agencies charged with protecting 
workers have contributed to the problem and those very agencies now 
need to fix the problem with the absolute least harm to those they 
failed originally.
    Mr. Chairman, I note with interest that the Agency for Toxic 
Substances and Disease Registry (ATSDR) is not testifying before this 
committee today. To obtain a better understanding of the health impact 
on workers and communities exposed to vermiculite-related asbestos, I 
respectfully suggest this committee visit with the ATSDR. That agency 
will soon release the results of a comprehensive screening of some 
6,000 people from the Libby area to determine the effects of exposure 
in the work place and in the community at large. While the briefing may 
be specific to raw asbestos exposure, there are more than enough 
exposure sites throughout the country to make the information pertinent 
to your oversight of workers health.
    I will continue to monitor the situation in Libby with my emphasis 
being on the health and economic welfare of its' citizens. That means 
with an eye on those whose charge was and remains cleaning up the town 
and, to the extent possible, improving the quality of life for all its 
citizens.
    Thank you again, Mr. Chairman, for providing this forum.

                Prepared Statement of Senator Max Baucus

    I would like to thank you Senator Murray and Chairman Kennedy for 
holding this hearing on such an important issue and for allowing me to 
testify before the Committee today.
    I sincerely hope that the attention directed to the tragedy at 
Libby, Montana by the distinguished members of this Committee will help 
ensure that no other community in this nation will ever suffer the same 
fate as the people of Libby.
    Although the intense national attention focused on the town of 
Libby has not always been welcomed by residents in the community, I 
know that Senator Murray and the Committee called this hearing so that 
we can better understand what the federal government can do to make 
sure its citizens, particularly workers and their families, are 
protected from exposure to asbestos.
    As many of you may know, hundreds of people in the small town of 
Libby in Northwestern Montana have sickened or died because of their 
exposure to asbestos contaminated vermiculite. Hundreds more will 
sicken or die. The vermiculite came from a mine owned and operated by 
WR Grace & Co. At its peak, the mine produced nearly 80% of the world's 
supply of vermiculite.
    Mining and related activities at the mine released asbestos fibers 
into the air around Libby. Mine waste contaminated with asbestos was 
used all over the town, in the high school track, in local yards and an 
elementary school skating rink. The workers brought the dust home on 
their clothes and exposed their families. Many of those workers have 
died from asbestos related diseases. Many of their children and other 
family members are sick from asbestos. This is a terrible, terrible 
tragedy that has devastated this community.
    And the worst, the very worst part about this tragedy is that, not 
only could WR Grace have done more to protect its workers and warn them 
of the dangers of asbestos, we in the federal government could have 
done more. As the Committee will explore with some of our witnesses 
today, the EPA could have done more, the Mine Safety and Health 
Administration could have done more. But not until a tragedy on the 
scale of Libby, Montana slaps us in the face do we react.
    I have fought hard to focus the attention of EPA and other agencies 
on Libby because these people deserve our very best efforts to make 
their town whole and healthy again. The EPA in Montana has put a lot of 
time and resources towards cleaning up the town. The agency has put 
some terrific people on the ground to do what they can to protect 
residents from further exposure to asbestos.
    But, as the field hearing I held back in February of 2000 
highlighted, getting Libby, Montana a clean bill of health involves 
some big hurdles--time, expense, the sheer size of the problem. Not 
only has the legacy of the Grace mine taken its toll in human lives and 
suffering, but it is costing millions.
    And, it will cost millions more and cost more lives--asbestos 
related illnesses take up to 40 years to show up. Despite the hard and 
dedicated work of local, state and other health officials, the victims 
in Libby face tremendous hurdles getting access to health care and 
treatment. The cost is simply crippling to some families.
    Secretary Thompson did release an additional $100,000 this year to 
help the residents of Libby get adequate treatment, at my insistence. 
Also, the Agency for Toxic Substances and Disease Registry (ATSDR), 
which has already screened thousands of residents for asbestos related 
illnesses, will screen an additional 2,000 residents.
    But, despite this continuing federal support for the citizens of 
Libby, the size and scale of the Libby tragedy shows us that we could 
have done far more. The government policies and regulations we 
currently have in place didn't protect the workers, their families or 
the other residents in Libby, Montana from the deadly hazards of 
asbestos. That's a hard reality, and it should raise a lot of red flags 
about where, when and how the government regulates asbestos in this 
country today.
    It's high time we seriously re-considered the scientific and public 
health evidence that has been available for decades about the dangers 
of asbestos. It's out there, and it's time we put it to use protecting 
our citizens. Because as Senator Murray noted in her opening statement, 
asbestos is still widely used in this country, in a variety of forms 
and a variety of places. Frankly, I don't know why some of the agencies 
here today haven't already acted--what more proof of the continuing 
dangers posed by asbestos do they need than Libby, Montana?
    I remain strongly committed to working to ensure residents of Libby 
and Lincoln County receive the help they need to make their homes and 
community safe for them, their children and grandchildren. Part of that 
commitment is making sure Libby never, never happens again.
    I look forward to hearing the testimony of witnesses gathered here 
today. Hopefully, they can shed light on why Libby happened and what we 
learned from it. Thank you again Senator Murray, Mr. Chairman, and to 
all of the distinguished members of this Committee for allowing me to 
testify today.
    One final note, I have invited the EPA Administrator, Christine 
Todd Whitman to attend an Environment and Public Works field hearing or 
town meeting in Montana this fall, to make sure that Libby continues to 
receive the attention and resources it requires to make the community 
whole.
    I would like to extend an open invitation to Senators Murray and 
Chairman Kennedy, and any other interested members of this Committee to 
attend that hearing. Thank you again.

                Prepared Statement of David D. Lauriski

    Mr. Chairman and Members of the Committee, I am pleased to appear 
before you today to discuss the ongoing efforts of the Mine Safety and 
Health Administration (MSHA) to promote miners' safety and health. At 
the outset, I want to tell you that I am honored and humbled to have 
been nominated by President Bush and confirmed by the Senate to the 
position of Assistant Secretary of Labor for Mine Safety and Health. 
Having spent virtually all of my life and career associated with the 
mining industry, it is a privilege for me to serve the American people, 
Secretary Chao, and President Bush in this important capacity. We will 
do everything we can to improve upon the tremendous advances in safety 
and health in the mining industry that have occurred in the past 30 
years. The programs, policies, and initiatives of this Administration 
will be devoted to protecting the more than 350,000 miners working at 
the Nation's approximately 15,000 mining operations.
    In my first 2\1/2\ months as Assistant Secretary, I have been 
continually impressed with the knowledge and dedication of the more 
than 2,000 MSHA employees. I have met, both at headquarters and in the 
field, the MSHA employees who work in our enforcement, education, 
training, or technical support activities, as well as those who work in 
meeting our programming, equipment and budgetary, and personnel needs. 
I challenge anyone to find another group of employees with a greater 
sense of mission.
    This hearing focuses on workplace safety and asbestos 
contamination. These are extremely important issues that present us 
with many opportunities. First, however, I would to give you some 
insights into my general approach and objectives for MSHA.
    In addition to meeting with the MSHA staff throughout the country, 
I've met with miners and operators, representatives of industry and 
labor organizations, State Grant representatives, and a myriad of other 
members of the mining community. The meetings have had two objectives: 
to hear first hand from everyone about their safety and health issues 
and concerns; and to set goals. If we are to continue to make progress 
in improving miners' safety and health, I believe it is vitally 
important to establish goals. The Secretary and I have challenged our 
own staff and our stakeholders to work with us to reduce mining 
industry fatalities by 15 percent each year over the next four years 
and to reduce the non-fatal days lost (NFDL) injury rate by 50 percent 
by 2005. In addition, we are currently working to establish specific 
health goals as well. I believe that these goals are achievable, as 
long as we have the commitment and help of everyone associated with our 
industry.
    I have shared with the MSHA staff my priorities and expectations, 
and would like to share them with you. Mining in the 21st century 
presents us with new opportunities. If we are to continue the success 
of the past, we must find new and creative approaches to protecting 
safety and health. I am firmly committed to carrying out our 
responsibilities under the Federal Mine Safety and Health Act of 1977 
(the Mine Act). But, as both the Secretary and I have said, investments 
in up-front prevention, through compliance assistance, education, 
training, and other outreach activities are critical if we are to move 
off the plateau that we have seemed to reach in the past few years. In 
this regard, I have asked MSHA staff, miners, mine operators, as well 
as representatives of the mining and labor associations, to think 
creatively. I am firmly committed to hearing the thoughts, suggestions, 
and ideas of our stakeholders. I can assure you that all will be 
consulted, and that we will make the most reasoned, informed decisions 
possible, all with miners' safety and health enhancements as our focus.
    Since my appointment, two final rules to protect miners' health 
have become effective. These rules address both underground coal and 
metal and nonmetal miners' exposure to diesel particulate matter (dpm). 
The rule protecting underground coal miners from exposure to dpm, which 
was not challenged, became effective in May 2001. The metal and 
nonmetal rule, which was challenged, became effective earlier this 
month, on July 5, 2001. 1 would like to thank those industry, labor and 
government representatives who worked to reach the partial settlement 
agreement in the metal and nonmetal diesel particulate litigation. This 
settlement agreement, I believe, shows how we can work with our 
stakeholders in the best interest of miners' safety and health.
    Beginning last week, and continuing through August, MSHA is holding 
a series of outreach seminars across the country to help miners and 
mine operators comply with the metal and nonmetal diesel particulate 
rule. These seminars are part of our concerted effort to use all of the 
tools available under the Mine Act to enhance miners' health and 
safety. Providing the metal and nonmetal mining community with 
knowledge of the rule at the beginning of the process is critical to 
their ability to understand and comply with the rule.
    This approach, addressing demonstrated safety and/or health issues 
using the most effective and efficient tools, and providing the mining 
community with the benefit of our reasoning and expertise, will be our 
standard operating procedure.
    I would like to devote the remainder of my testimony to MSHA's work 
to protect miners from exposure to asbestos.
    MSHA's asbestos regulations date to 1967. At that time, the Bureau 
of Mines (MSHA's predecessor) used a 5 mppcf (million particles per 
cubic foot of air) standard. In 1969, the Bureau proposed a 2 mppcf and 
12 fibers/ml standard, which was promulgated in 1969. In 1970, the 
Bureau proposed to lower the standard to 5 fibers/ml, which was 
promulgated in 1974. MSHA issued its current standard of 2 fibers/ml at 
the end of 1978. Since enactment of the Mine Act, MSHA has conducted 
regular inspections at both surface and underground operations at metal 
and nonmetal mines. During its inspections, MSHA routinely takes 
samples, which are analyzed for compliance with its standard.
    In briefings with the MSHA staff, I was advised of the issues 
surrounding vermiculite mining in Libby, Montana and elsewhere. I was 
pleased to learn that the Agency had taken steps to determine current 
miners' exposure levels to asbestos, including taking samples at all 
existing vermiculite, taconite, talc, and other mines to determine 
whether asbestos was present and at what levels. Since the Spring of 
2000, MSHA has taken almost 900 samples at more than 40 operations 
employing more than 4,000 miners. During our sampling events, the MSHA 
staff also discussed with the miners and mine operators the potential 
hazards of asbestos and the types of preventive measures that could be 
implemented to reduce exposures. These efforts continue today.
    MSHA also keeps in frequent contact with its sister Agency, OSHA, 
and others, including the Environmental Protection Agency, the National 
Institute for Occupational Safety and Health, which has mine health and 
safety research responsibilities, and the United States Geological 
Survey, to ensure that our staff is aware of and involved in 
discussions concerning asbestos related issues. I expect the MSHA staff 
to keep up with the science and ongoing research activities, as well as 
other Agencies' experiences concerning asbestos. I can assure you that 
we will continue to act responsibly, and take action when the facts 
demonstrate that it is necessary to protect miners' safety and health.
    I have read the Office of the Inspector General's (OIG) 
``Evaluation of MSHA's Handling of Inspections at the W.R. Grace & 
Company Mine in Libby, Montana,'' which was issued in March. The report 
does contain five major recommendations, and I can assure you that we 
are diligently working to address the issues raised in those 
recommendations.
    The OIG recommended that MSHA lower its existing permissible 
exposure limit for asbestos to a more protective level, and address 
take-home contamination from asbestos. It also recommended that MSHA 
use Transmission Electron Microscopy to analyze fiber samples that may 
contain asbestos. We are currently considering these recommendations, 
which would involve rulemaking. I appreciate the review and analyses 
conducted by the OIG, and am giving considerable thought to their 
recommendations as we work toward our decisions. Please be assured that 
I share your conviction that miners' health must be protected, and 
certainly miners should not be exposed to contaminants at hazardous 
levels. Our objective is to ensure that our actions will address the 
underlying health issues that led to the OIG's recommendations, and 
that whatever course of action we take, miners and their families are 
not over-exposed to harmful substances as a consequence of their 
decision to work in the mining industry.
    The OIG also recommended that the Agency remind its staff of the 
Mine Act's prohibition on giving advance notice of inspections. Section 
103(a) of the Mine Act states, in part that: ``. . . In carrying out 
the requirements of this subsection, no advance notice of an inspection 
shall be provided to any person. . . . I am pleased to report that MSHA 
recently reissued a memorandum to the Agency's metal and nonmetal 
enforcement personnel reminding them of this provision. We will be 
happy to provide the Committee with a copy of this reminder.
    MSHA's inspectors undergo thorough training at the National Mine 
Health and Safety Academy in Beckley, West Virginia. We train our 
inspection staff not only in the requirements of the Mine Act and the 
implementing regulations, but also in the Agency's inspection 
procedures and policies. In addition to continuing to train and retrain 
our inspectors in the prohibition on giving advance notice, we will 
remind our employees of their responsibilities and inspection 
procedures annually.
    A fifth recommendation in the OIG's report dealt with training the 
MSHA inspectors and other health professionals on asbestos-related 
matters. On April 17-19, 2001, MSHA held a training session for its 
metal and nonmetal health staff at our National Mine Health and Safety 
Academy. The training, which was attended by industrial hygienists and 
other health specialists, covered the major health issues currently 
facing MSHA and the mining industry, including miners' exposure to 
asbestos. Included in this training were discussions of asbestos case 
studies, a review of the Libby experience, as well as sampling and 
analytic methodologies. The individuals who received this training are 
providing similar training to other inspection personnel in their 
respective district and field offices. In addition, as we reported to 
the OIG, MSHA has established a committee to develop specific training 
on asbestos-related matters for its inspectors.
    Education and training are critical to promoting miners' safety and 
health. They provide mine operators and miners with the knowledge to 
take needed actions to prevent injuries and illnesses. Sharing our 
knowledge and information with the mining public and other interested 
parties is part of our education and training efforts. In this regard, 
MSHA has several items on its home page concerning asbestos, including 
our health regulations, a discussion of sampling procedures for 
airborne contaminants, and a program information bulletin reminding the 
mining industry of the potential health hazards from exposure to 
asbestos fibers. In addition, we are working to consolidate these 
materials and other information regarding asbestos on a single site on 
our home page.
    The Mine Act, in my view, gives MSHA all the tools necessary to 
protect miners' safety and health. The history of miners' safety and 
health over the past 25-30 years demonstrates the statute's 
effectiveness. The Libby experience is, of course, troubling. More 
effective and efficient use of the Mine Act's enforcement, education, 
training and technical support authorities will help us to achieve even 
greater improvements in our industry. These provisions, as well as 
those outlining our rulemaking authorities and responsibilities, 
provide us with the necessary framework to ensure miners are 
appropriately protected from harmful contaminants, including asbestos.
    In conclusion, Mr. Chairman, I have devoted my life to miners' 
safety and health, and I am passionate about this important work. My 
thirty years associated with this industry have taught me many valuable 
lessons, the most important of which is that safety and health 
improvements demand creative ideas from everyone involved. We at MSHA 
have a number of challenges and opportunities facing us, and among the 
most important is our obligation to protect miners from over-exposure 
to asbestos. However, I am sure that with the involvement of miners, 
mine operators, as well as their representatives, we will protect and 
improve miners' safety and health.
    Mr. Chairman, other members of the Committee, that concludes my 
prepared remarks. I would be happy to answer your questions.

                  Prepared Statement of R. Davis Layne

    Mr. Chairman, Members of the Committee, I appreciate this 
opportunity to testify today on how the Occupational Safety and Health 
Administration (OSHA) protects workers from the dangers of asbestos 
exposure. Asbestos can cause a variety of serious health effects 
including asbestosis, mesothelioma and lung cancer. Asbestos-related 
diseases have a variable latency period, often extending from 10 to 40 
years from initial exposure to onset of illness.
    The Occupational Safety and Health Act of 1970 (the OSH Act) gives 
the Secretary of Labor authority over all working conditions of 
employees engaged in business affecting commerce, except those 
conditions with respect to which other Federal agencies exercise 
statutory authority to prescribe or enforce regulations affecting 
occupational safety or health. The OSH Act also provides that States 
may operate their own occupational safety and health programs under a 
plan approved by the Secretary. A 1979 Memorandum of Understanding 
between the Mine Safety and Health Administration (MSHA) and OSHA 
delineates the division of jurisdiction between the two agencies.
    Since OSHA's inception in 1971, the Agency has used its authority 
for standard-setting, enforcement, and compliance assistance to protect 
workers from the threat of asbestos. In fact, there has been more 
rulemaking activity involving asbestos than any other hazard regulated 
by OSHA. Between 1971 and 1994, OSHA issued two emergency temporary 
standards, three major notices of proposed rulemaking, three final 
rules, and 31 Federal Register notices related to asbestos.
    Indeed, the final asbestos rule issued in June 1972 was the 
Agency's first comprehensive standard. This regulation reduced the 
permissible exposure limit (PEL) to an eight-hour, timeweighted average 
of two fibers per cubic centimeter of air, with a maximum ceiling of 10 
fibers at any one time. The standard became fully effective in July 
1976. The asbestos standard served as a model for subsequent OSHA 
health regulations because it not only set a PEL but included 
requirements for protective measures such as engineering controls, 
personal protective equipment, air or exposure monitoring, medical 
surveillance, work practices, labels, waste disposal, and 
recordkeeping.
    In June of 1986, due to new scientific evidence regarding the 
carcinogenicity of asbestos, the PEL was lowered to an eight-hour, 
time-weighted average of 0.2 fibers per cubic centimeter of air. 
Separate standards were issued for general industry and construction, 
with the same level of protection. The rules provided for engineering 
controls, work practices, personal protective equipment, 
decontamination, communication of hazards to workers, regulated areas, 
housekeeping procedures, recordkeeping and employee training.
    In August 1994, to provide even better worker protection, OSHA 
published two final asbestos standards: one for general industry and 
one for construction. It also added shipyards as a covered industry. 
The PEL was reduced to 0.1 fibers per cubic centimeter. Work practices 
and engineering controls required under the 1994 standard should, 
however, further reduce the risk to workers. All employers are required 
to communicate information about asbestos hazards to all potentially 
affected employees at a worksite. In addition, employers must provide 
training and education on asbestos exposure.
    To prevent spreading asbestos outside the workplace, OSHA's 
standards require the employer to provide the employees protective 
clothing and ensure that the employees remove the contaminated clothing 
before leaving the workplace. To enhance the protection, employers must 
provide showers and separate clean change rooms for dressing into clean 
clothing.
    The standard also addresses exposures during automobile brake and 
clutch work and roofing work. A mandatory appendix specifies the 
engineering controls and work practices to be followed during this work 
activity. It requires that engineering controls and good work practices 
be implemented at all times during brake servicing. In addition, 
employers must provide training on asbestos hazards to all brake and 
clutch repair workers.
    In 1992, OSHA reviewed available relevant evidence concerning the 
health effects of nonasbestiform tremolite, anthophyllite and 
actinolite, and examined the feasibility of various regulatory options. 
These three minerals are regulated in 29 CFR 1910.1000 by a Permissible 
Exposure Limit of five milligrams per cubic meter of respirable dust. 
OSHA determined that there was insufficient evidence to support a 
finding that exposed workers would be at a significant risk from those 
substances if they were not regulated in the asbestos standard.
    OSHA enforces the current asbestos standard through its inspection 
program. Asbestos is examined during routine, random or targeted 
inspections, though they are primarily conducted in response to 
complaints from employees, or as a result of referrals from Federal or 
State agencies. Regardless of the reason for the complaint or referral, 
OSHA compliance officers search for evidence of real or potential 
asbestos exposure. Since October 1995, OSHA has cited employers for 
violations of its asbestos standards 15,691 times. There were almost 
3,000 inspections conducted by Federal or State OSHA programs in which 
violations of the standard were cited, including violations found in 
residential and commercial construction, auto repair facilities such as 
brake shops, and hotels. As recently as June 21, OSHA inspected a major 
lawn products company for the presence of asbestos. Samples of 
vermiculite and vermiculite ore were found to be free of asbestos in 
this instance; OSHA compliance officers, nevertheless, remain alert to 
the threat of asbestos exposure.
    In addition to enforcement, OSHA provides compliance assistance to 
employers and employees to help them understand the dangers of 
asbestos, and what can be done to minimize the threat. OSHA's Web page 
connects computer users to concise and easy-to-read publications on 
asbestos, which are available to the public free of charge. Pamphlets 
explain the requirements of the standard for both general industry and 
construction. Included in each is a list of sources of assistance. 
OSHA's Web page also includes reports, links to other Web sites, 
slides, and information about taking samples and controlling exposure 
to asbestos.
    OSHA offers an intensive course covering the recognition and 
control of asbestos at its Training Institute in Illinois. OSHA 
recently held a training session for the Department of Labor's Region V 
employees, to maintain the strength of the Agency's capabilities to 
address asbestos hazards, and plans to expand this training to other 
regions.
    OSHA has also developed software that can be downloaded from its 
Web site to provide interactive expert advice for building owners, 
managers and lessees, as well as for contractors of building 
renovation, maintenance, and housekeeping services. Once installed on a 
computer, the software asks questions about a building site. It then 
asks follow-up questions based on answers, and produces a report on 
responsibilities under the asbestos rules.
    OSHA's on-site consultation program, which is free and available to 
employers in all 50 states, provides expert assistance on asbestos. 
Consultants identify asbestos in the workplace and explain methods for 
reducing exposure. Over the last five years, state consultants took 859 
asbestos samples from 162 small businesses for laboratory analysis. 
These employers, who formerly did not realize that there was asbestos 
in their workplaces, were able to protect their workforce after these 
consultation visits.
    OSHA works closely with other agencies to ensure that jurisdictions 
are clearly defined. OSHA also actively coordinates with other Federal 
agencies on asbestos and asbestos-related issues. The OMNE Committee, 
composed of representatives from OSHA, MSHA, the National Institute for 
Occupational Safety and Health (NIOSH), and the Environmental 
Protection Agency (EPA), meets monthly to exchange information about 
mutual areas of concern. In addition, the various Federal agencies with 
jurisdiction over the regulation or research of asbestos, including 
OSHA, MSHA, the Consumer Products Safety Commission, EPA, NIOSH and 
others, frequently communicate to share information about proposed and 
on-going research activities and other matters related to asbestos.
    OSHA also has requested technical assistance from NIOSH to 
determine potential asbestos exposure from working with materials that 
contain vermiculite. In response to this request, NIOSH has conducted 
investigations in horticultural facilities to determine potential 
exposure to employees from asbestos-contaminated vermiculite used with 
potting soil in lawn and garden products. In addition, NIOSH is in the 
process of investigating exposures at vermiculite exfoliation plants. A 
report from NIOSH is expected by the end of this year. OSHA is also in 
the process of reviewing a study that was performed by EPA to determine 
the extent of homeowner exposure to asbestos from vermiculite used as 
insulation in housing, such as Zonolite. OSHA also participated with 
EPA in the Asbestos Health Effects Conference, held in San Francisco in 
May of this year. This was an international meeting to improve the 
scientific foundation for assessing the health risks related to 
asbestos. OSHA will continue to participate in this and other 
scientific fora to aid in determining the adequacy of the current OSHA 
rule.
    As the above activities indicate, OSHA has continuous and 
multifaceted programs in place to address the health hazards to workers 
created by asbestos, both in production and as a contaminant. These 
programs apply to all workplace settings covered by the OSH Act, and 
are intended to protect all workers, including those who process and 
work with materials potentially contaminated with asbestos, such as 
Zonolite insulation and lawn or garden products. OSHA coordinates many 
of these activities with other agencies.
    OSHA believes its current statutory authorities are sufficient to 
carry out its responsibilities. Given its broad mission to protect 
workers from all types of occupational hazards, over the years the 
Agency has devoted a significant portion of its resources to the health 
effects caused by asbestos exposure, and will continue to do so.
    This concludes OSHA's formal remarks. I will be pleased to answer 
any questions the Committee may have.

                 Prepared Statement of Kathleen M. Rest

    Mr. Chairman and members of the Committee, on behalf of the 
National Institute for Occupational Safety and Health (NIOSH), Centers 
for Disease Control and Prevention, I am pleased to provide this 
testimony addressing the current scientific knowledge about health 
risks to workers from exposure to airborne asbestos.
                               background
    Asbestos is a term that is generally used in referring to a group 
of fibrous minerals with exceptional resistance to degradation by heat, 
acids, bases, or solvents. The minerals are not combustible and have a 
high melting point and low thermal and electrical conductivity. These 
and other useful properties had resulted in the development of 
thousands of commercial uses for asbestos-containing materials by the 
early 1970s. However, as the use of asbestos dramatically increased, 
the lethal effects of airborne asbestos became clear. Regulatory action 
and liability concerns related to the now well-established connection 
between inhalation of asbestos fibers and a variety of serious and 
often fatal diseases have reduced or eliminated the use of asbestos in 
many commercial products. However, asbestos and asbestos-containing 
materials are still found in many residential and commercial settings 
and pose a risk of exposure to workers and others.
    Asbestos is defined in Federal regulations as the minerals 
chrysotile, crocidolite, amosite, tremolite asbestos, actinolite 
asbestos, and anthophyllite asbestos. These six minerals are regulated 
by the Occupational Safety and Health Administration (OSHA), the Mine 
Safety and Health Administration (MSHA) and the Environmental 
Protection Agency (EPA). Five of the six asbestos minerals were used 
commercially (actinolite asbestos was not) and, as a consequence, it 
has been possible to observe and characterize their adverse health 
effects on humans.
                       asbestos-related diseases
    Exposure to asbestos significantly increases the risk of 
contracting several diseases. These include: (1) asbestosis--a disease 
characterized by scarring of the alveolar regions of the lungs; (2) 
lung cancer--for which asbestos is one of the leading causes among 
nonsmokers, and which occurs at dramatically high rates among asbestos-
exposed smokers; (3) malignant mesothelioma--a cancer of the tissue 
lining the chest or abdomen for which asbestos and similar fibers are 
the only known cause; and (4) nonmalignant pleural disease--which can 
appear as a painful accumulation of bloody fluid surrounding the lungs, 
but which more commonly is seen as thick and sometimes constricting 
scarring of the tissue surrounding the lungs. In addition, asbestos 
exposure is associated with excess mortality due to cancer of the 
larynx and cancer of the gastrointestinal tract. The malignant 
diseases--the cancers including mesothelioma--are often fatal within a 
year or a few years of initial diagnosis. In contrast, asbestosis 
deaths typically occur only after many years of suffering from impaired 
breathing.
    It is not known exactly how asbestos fibers cause disease. What is 
known is that the fibers, too fine to be seen by the human eye, can 
become airborne during various industrial processes or from handling 
asbestos-containing materials. These microscopic fibers can be inhaled 
and/or swallowed. As much as 50 percent or more of inhaled asbestos 
fibers remain lodged in the lungs, where it is almost impossible for 
the body to dispose of them. Asbestos fibers are extremely resistant to 
destruction in body fluids, and many of these fibers are too long to be 
engulfed and removed by the cells that normally scavenge and remove 
particles that happen to deposit in the lungs. Generally, as the burden 
of retained fibers increases in the body, so does the likelihood of the 
diseases mentioned previously. Most asbestos-related diseases, 
particularly the malignant ones, have long latency periods often 
extending 10-40 years from initial exposure to onset of illness. While 
asbestos-related lung cancer and mesothelioma are frequently not 
curable, they and other asbestos-related diseases are clearly 
preventable by eliminating or limiting exposures to asbestos. The 
amount and duration of exposure are factors which can determine the 
risk of adverse health effects.
                 exposure to asbestos in the workplace
    Workplace exposure to asbestos remains a serious occupational 
health problem in the United States, with both vast numbers of workers 
at risk due to past occupational exposures and many other workers 
experiencing ongoing occupational exposures. Since the beginning of 
World War II, as many as eight million workers have been exposed to 
asbestos. Although the number of newly exposed workers has declined 
sharply since the development of regulatory standards in the 1970s, 
there are still substantial numbers of workers with continuing 
exposure. In 1991, NIOSH estimated that nearly 700,000 workers in 
general industry remained potentially exposed to asbestos, but that 
estimate did not include mining, railroad work, agriculture, and 
several other industry sectors.
    The U.S. Geological Survey reports that asbestos continues to be 
imported for use in friction products (e.g., brakes and clutches), 
roofing products, gaskets, and thermal insulation. Construction workers 
involved in the renovation or demolition of buildings that contain 
asbestos are at particular risk of asbestos exposure. Many workers in 
the relatively new asbestos removal industry are potentially exposed, 
relying on personal protective equipment and other methods for limiting 
inhalation of asbestos fibers. Industrial maintenance personnel are 
also at risk when they repair equipment, sometimes in enclosed spaces, 
that is insulated with asbestos-containing material, as are automotive 
service personnel involved in brake and clutch repair work.
    In addition, ``take-home'' exposures--involving family members of 
workers who bring asbestos home on their hair, clothing, or shoes--is 
also a well-recognized hazard and was addressed in a 1995 NIOSH report 
to Congress.
    Because of the hazardous nature of asbestos, approaches to consider 
for control of exposure include the substitution of less hazardous 
materials and the labeling of all asbestos-containing materials so that 
required exposure controls can be implemented.
                ongoing research into asbestos exposure
    NIOSH currently is assessing workers' asbestos fiber exposure at 
selected horticultural operations that are using vermiculite, and at 
operations that expand vermiculite ore. Most of the vermiculite now 
being produced for domestic use is obtained from one of four mines, 
three of them domestic and one located in South Africa. NIOSH will 
complete asbestos exposure assessments at two expansion plants for each 
ore supplier, along with a number of horticultural sites. We expect the 
field study to conclude by the end of calendar year 2001. At present, 
field sampling has been completed at four expansion plants and three 
horticultural operations.
    Options under consideration for future research activities include 
identifying and characterizing other downstream uses of fiber-
contaminated vermiculite that have not been previously recognized.
               tracking of work-related asbestosis deaths
    NIOSH, using data from death certificates, has been tracking 
asbestosis mortality in the United States. Deaths associated with 
asbestosis increased from fewer than 100 annually in 1968 to more than 
1200 per year in 1998, the most recent year for which final national 
data are available. In approximately one-third of these deaths, 
asbestosis was reported as the underlying, or main, cause of death, a 
proportion that has not changed appreciably over time, In the other two 
thirds of deaths, asbestosis was reported to have contributed but not 
caused the death. Death certificate data indicate that workers in the 
``ship and boat building and repairing'' industry and ``insulation 
workers'' appear to have experienced the greatest risk of asbestosis. 
It also shows, however, that elevated asbestosis mortality is 
associated with a wide-ranging variety of other occupations and 
industry sectors.
    Among the occupations with significantly elevated asbestosis 
mortality are: insulation workers; plumbers; sheet metal workers; 
plasterers; heating/air-conditioning/refrigeration mechanics; 
electricians; welders; chemical technicians; mechanics and repairers; 
stevedores; masons; furnace and kiln operators; painters; construction 
workers; and janitors and cleaners. Please note that the fact that an 
occupation (or industry sector) has ``significantly elevated asbestosis 
mortality'' does not mean that all workers in the occupation or 
industry sector are exposed to asbestos.
    The other industry sectors with significantly elevated asbestosis 
mortality include, but are not limited to: nonmetallic mineral 
products; construction materials and industrial chemicals; petroleum 
refining; tires and other rubber products; aluminum production, 
hardware, plumbing, and heating supplies; construction; electric power 
generation; railroads; glass products; building material retailing; 
paper manufacturing; and steelmaking.
    Asbestosis mortality is a delayed phenomenon which reflects 
exposures that typically occurred decades earlier. To better describe 
more recent exposures, NIOSH recently prepared and published a summary 
of data describing the results of asbestos samples collected and 
reported by OSHA and MSHA inspectors in their agencies' centralized 
data systems. Over the decade-long period from 1987 to 1996, Federal 
occupational safety and health inspectors reported an average of about 
600 air samples for asbestos each year, although the annual number of 
reported samples declined by about 50% for each agency during that 
decade. (Not all collected samples are reported into the centralized 
data systems.) In the construction industry, nearly 7% of the samples 
indicated asbestos fiber concentrations exceeding the applicable OSHA 
or MSHA permissible exposure limit (PEL), and the average asbestos 
fiber concentration of all samples was about one-half the PEL. In the 
industry classified as ``miscellaneous nonmetallic mineral and stone 
products,'' (which includes sites regulated by OSHA and MSHA) over 30% 
of asbestos samples exceeded the exposure limit (either OSHA's or 
MSHA's, as applicable) and the asbestosConstruction workers involved in 
the renovation or demolition of buildings that contain asbestos are at 
particular risk of asbestos exposure. Many workers in the relatively 
new asbestos removal industry are potentially exposed, relying on 
personal protective equipment and other methods for limiting inhalation 
of asbestos fibers. Industrial maintenance personnel are also at risk 
when they repair equipment, sometimes in enclosed spaces, that is 
insulated with asbestos-containing material, as are automotive service 
personnel involved in brake and clutch repair work.
    In addition, ``take-home'' exposures--involving family members of 
workers who bring asbestos home on their hair, clothing, or shoes--is 
also a well-recognized hazard and was addressed in a 1995 NIOSH report 
to Congress.
    Because of the hazardous nature of asbestos, approaches to consider 
for control of exposure include the substitution of less hazardous 
materials and the labeling of all asbestos-containing materials so that 
required exposure controls can be implemented.
                ongoing research into asbestos exposure
    NIOSH currently is assessing workers' asbestos fiber exposure at 
selected horticultural operations that are using vermiculite, and at 
operations that expand vermiculite ore. Most of the vermiculite now 
being produced for domestic use is obtained from one of four mines, 
three of them domestic and one located in South Africa. NIOSH will 
complete asbestos exposure assessments at two expansion plants for each 
ore supplier, along with a number of horticultural sites. We expect the 
field study to conclude by the end of calendar year 2001. At present, 
field sampling has been completed at four expansion plants and three 
horticultural operations.
    Options under consideration for future research activities include 
identifying and characterizing other downstream uses of fiber-
contaminated vermiculite that have not been previously recognized.
               tracking of work-related asbestosis deaths
    NIOSH, using data from death certificates, has been tracking 
asbestosis mortality in the United States. Deaths associated with 
asbestosis increased from fewer than 100 annually in 1968 to more than 
1200 per year in 1998, the most recent year for which final national 
data are available. In approximately one-third of these deaths, 
asbestosis was reported as the underlying, or main, cause of death, a 
proportion that has not changed appreciably over time, In the other two 
thirds of deaths, asbestosis was reported to have contributed but not 
caused the death. Death certificate data indicate that workers in the 
``ship and boat building and repairing'' industry and ``insulation 
workers'' appear to have experienced the greatest risk of asbestosis. 
It also shows, however, that elevated asbestosis mortality is 
associated with a wide-ranging variety of other occupations and 
industry sectors.
    Among the occupations with significantly elevated asbestosis 
mortality are: insulation workers; plumbers; sheet metal workers; 
plasterers; heating/air-conditioning/refrigeration mechanics; 
electricians; welders; chemical technicians; mechanics and repairers; 
stevedores; masons; furnace and kiln operators; painters; construction 
workers; and janitors and cleaners. Please note that the fact that an 
occupation (or industry sector) has ``significantly elevated asbestosis 
mortality'' does not mean that all workers in the occupation or 
industry sector are exposed to asbestos.
    The other industry sectors with significantly elevated asbestosis 
mortality include, but are not limited to: nonmetallic mineral 
products; construction materials and industrial chemicals; petroleum 
refining; tires and other rubber products; aluminum production, 
hardware, plumbing, and heating supplies; construction; electric power 
generation; railroads; glass products; building material retailing; 
paper manufacturing; and steelmaking.
    Asbestosis mortality is a delayed phenomenon which reflects 
exposures that typically occurred decades earlier. To better describe 
more recent exposures, NIOSH recently prepared and published a summary 
of data describing the results of asbestos samples collected and 
reported by OSHA and MSHA inspectors in their agencies' centralized 
data systems. Over the decade-long period from 1987 to 1996, Federal 
occupational safety and health inspectors reported an average of about 
600 air samples for asbestos each year, although the annual number of 
reported samples declined by about 50% for each agency during that 
decade. (Not all collected samples are reported into the centralized 
data systems.) In the construction industry, nearly 7% of the samples 
indicated asbestos fiber concentrations exceeding the applicable OSHA 
or MSHA permissible exposure limit (PEL), and the average asbestos 
fiber concentration of all samples was about one-half the PEL. In the 
industry classified as ``miscellaneous nonmetallic mineral and stone 
products,'' (which includes sites regulated by OSHA and MSHA) over 30% 
of asbestos samples exceeded the exposure limit (either OSHA's or 
MSHA's, as applicable) and the asbestos fiber concentrations averaged 
nearly twice the relevant PEL. In the ``motor vehicles and motor 
vehicle equipment'' industry, 10% of asbestos fiber samples exceeded 
the PEL and the asbestos fiber concentrations averaged more than twice 
the PEL. While asbestos exposure concentrations generally decreased in 
the more recent years of that ten-year period, and although fewer 
samples were being collected, samples continued to exceed the PEL in 
all three of those industry sectors. Federal inspectors detected 
asbestos in other settings, as well, ranging from textile operations to 
schools.
                       the definition of asbestos
    In 1990 testimony before OSHA, NIOSH broadened its science-based 
definition of ``asbestos'' as a result of concerns about the 
microscopic identification of the six regulated asbestos minerals. The 
six minerals can also occur in a non-fibrous (so-called ``massive'') 
form. The non-fibrous mineral forms of the six asbestos minerals can be 
found geologically in the same ore deposits in which the fibrous 
asbestos minerals occur or in deposits where other commercially 
exploited minerals are mined (e.g., industrial grade talc). ``Cleavage 
fragments'' can be generated from the non-fibrous forms of the asbestos 
minerals during their handling, crushing, or processing, and these 
``cleavage fragments'' are often microscopically indistinguishable from 
typical asbestos fibers of the (fibrous) minerals.
    The elemental composition of the six asbestos minerals can vary 
slightly as a result of geological conditions such as pressure, 
temperature, or proximity of other minerals. Recognizing these 
variations in elemental composition, NIOSH believes that the six 
asbestos minerals can be defined by their ``solid-solution'' mineral 
series. For example, the mineral series tremoliteferroactinolite 
contains the asbestos mineral actinolite. These mineral series are 
considered solid-solutions in which cations (i.e., sodium, calcium, 
magnesium, iron, etc.) are replaced by other cations which can affect 
the elemental composition of the mineral without significantly altering 
the structure.
    NIOSH bases this expanded ``asbestos'' definition--encompassing the 
entire solid-solution mineral series for each of the six currently 
regulated asbestos minerals and including cleavage fragments from the 
non-fibrous forms of these minerals--on scientific evidence from 
cellular and animal studies suggesting that dimension, specifically 
length and diameter, as well as durability, may be more critical 
factors in causing disease than chemical or elemental composition.
     challenges to preventing asbestos exposure: areas of possible 
                          additional research
    There are other fibrous minerals that technically do not fall 
within either the current regulatory or the NIOSH definition of 
asbestos, even though fiber shape, size, and durability indicate their 
potential to induce health effects similar to those of the six 
regulated asbestos minerals. The inclusion of only six specified fibers 
within the asbestos regulations may create a false sense of security 
that those mineral fibers that are not included are without risk. 
Clearly, other fibers may act in the same way as the regulated fibers 
and pose significant health risk, and mixtures of fibers may be lethal 
as well.
    Based on epidemiological studies, it is clear that occupational 
exposure to mineral fibers that contaminate vermiculite from Libby, 
Montana, caused high rates of asbestos-related diseases among exposed 
workers. The fibers that contaminate vermiculite from Libby include 
tremolite, one of the minerals within the definition of asbestos as 
currently regulated. Some evidence indicates that only 10 to 20% of the 
fibrous mineral content of the Libby vermiculite was tremolite. A much 
higher proportion--80 to 90%--of the fiber contaminant in this 
vermiculite has been characterized as several other similar fibers that 
are not currently regulated as asbestos, such as richterite and 
winchite.
    Another example of a mineral that can produce asbestos-related 
diseases but is neither regulated as asbestos nor classified as 
asbestos under NIOSH's current scientific definition, is erionite. 
Erionite is a known human carcinogen, and environmental exposures 
outside the U.S. have been associated with an increased risk of 
malignant mesothelioma and lung cancer. (We are unaware of any 
occupational exposure to erionite in the U.S.)
    Additional research possibilities which may be considered include 
efforts to better determine physical and/or chemical characteristics 
affecting toxicity of these naturally occurring mineral fibers as well 
as durable manufactured fibers. Direct evidence by which to attribute 
particular health effects to each possible fiber type is not currently 
available; obtaining such evidence is another area under consideration 
for future research. Epidemiological studies of people exposed to 
naturally occurring or manufactured fibers would provide important new 
information and are also under consideration for future research, along 
with animal toxicologic studies to help supply needed information if 
epidemiologic studies are not feasible.
    In addition, further research is under consideration in the areas 
of exposure measurement and analysis of fibers. Although asbestos is 
comprised of fibers of many diameters and lengths, risk assessments and 
exposure assessments are based on air concentrations of fibers 
detectable by a technique called phase contrast microscopy. This method 
leaves an undetermined number of asbestos fibers in each sample 
uncounted because they are too thin for detection. Because of this 
measurement bias, asbestos exposure risks are currently based only on 
fibers large enough to be detected. More sensitive methods are 
currently available, but these methods could benefit from better 
standardization. Additional work to improve and standardize the methods 
for asbestos fiber measurement is being considered because it would 
help advance prevention and control efforts to protect exposed workers.
                               conclusion
    In summary, we know much about the adverse health effects caused by 
the inhalation of asbestos fibers. Many exposures or potential 
exposures have been identified, and appropriate precautions are used 
when workers are handling or working around these materials. Increased 
understanding of the health effects of fibrous minerals that fall just 
outside the existing definitions of asbestos will help us find ways to 
provide appropriate protection for workers exposed to those materials. 
Further identification and tracking of potential exposures to 
fibercontaminated vermiculite and other contaminated materials that may 
be identified will help us assure that no one is unknowingly exposed to 
these materials. While information is being gathered, public health 
prudence guides us to reduce known exposures to these potentially 
hazardous fibrous minerals.

                Prepared Statement of Michael H. Shapiro

    Good afternoon Madam Chairman and members of the committee. My name 
is Michael Shapiro, the Acting Assistant Administrator for EPA's Office 
of Solid Waste and Emergency Response. I am pleased to appear today to 
discuss EPA's efforts to clean up asbestos contamination in Libby, 
Montana and the Agency's efforts to identify related sites nationwide. 
I want to make clear that EPA views the Libby asbestos site as one of 
the most significant Superfund sites nationally. The Agency is 
committed to working with our partners to take all steps necessary to 
protect human health and the environment in Libby and related 
locations.
    Libby is a small town of about 2,600 residents in northwest 
Montana. For more than 60 years, a mine operated in Libby, which 
produced 80 percent of the world's vermiculite. The vermiculite was 
shipped around the country for use as a soil conditioner and in the 
manufacture of insulation and packing materials. The mine and 
processing facilities in Libby employed roughly 2000 workers from 1924 
to 1991.
    One of the substances in the Libby vermiculite ore was asbestos. 
Asbestos contamination resulting from mining and processing operations 
has led to serious public health concerns among members of the Libby 
community.
    EPA is working closely with other Federal and state agencies to 
address the asbestos contamination and public health concerns in Libby 
and other communities across the country. The response to potential 
asbestos contamination is a multi-agency effort. EPA, The Agency for 
Toxic Substances and Disease Registry (ATSDR) and the U.S. Public 
Health Service (PHS) established an emergency response team on November 
22, 1999 to begin environmental and medical investigations in Libby.
    EPA is focusing on site investigation and cleanup activities in 
Libby using Superfund authority. The Agency is also using Superfund to 
assess the need for cleanup at other locations across the country where 
vermiculite ore was mined or shipped. Thus far, EPA has committed more 
than $30 million for the investigation and cleanup in Libby.
    In June of 2000 EPA initiated or provided oversight of cleanup at 2 
heavily contaminated former processing areas in Libby. The Agency has 
also started the cleanup of a mining road, town park facilities, a high 
school track and several residences.
    In addition to Libby, EPA identified 243 locations around the 
country that may have mined or received vermiculite. As of early July, 
EPA completed initial evaluations of possible asbestos contamination at 
216 of these facilities. Thus far, we have determined that 17 locations 
require response by EPA and other federal or state agencies.
    One example is the Western Minerals site in Minneapolis, Minnesota, 
which processed over 118,000 tons of vermiculite ore from Libby between 
1937 and 1989. Since September of 2000, EPA and the state of Minnesota 
have been sampling and removing asbestos contamination at the former 
plant site and nearby residential yards. An ATSDR-funded health survey 
is being conducted by the Minnesota Department of Health to determine 
the magnitude of the health impacts to former workers and nearby 
residents.
    In March of 2001, EPA's Office of Inspector General issued a report 
which focused on EPA's activities in Libby, as well as EPA's broader 
role in regulating asbestos. The report concludes that EPA should 
continue its cleanup efforts in Libby. The report also emphasizes the 
importance of cross-agency coordination to address potential asbestos 
contamination associated with mining and other operations unrelated to 
Libby.
    EPA will continue to work closely with the Mine Safety and Health 
Administration, the Occupational Safety and Health Administration, the 
National Institute for Occupational Safety and Health, ATSDR and the 
PHS to protect public health in Libby, Montana and any other community 
that may be threatened by asbestos contamination from vermiculite ore. 
EPA is also coordinating closely with our Federal and state partners to 
identify additional asbestos contamination that may require cleanup 
under Superfund.
    Thank you for the opportunity to appear today. I will be pleased to 
answer questions from the committee relating to the cleanup of Libby, 
Montana and related locations across the country.

               Prepared Statement of Richard Lemen, M.D.

    Thank you for inviting me to discuss this very important topic of 
asbestos and disease with you here today. My name is Dr. Richard Lemen. 
I am retired from the United States Public Health Service where I was 
Deputy Director and Acting Director of the National Institute for 
Occupational Safety and Health (NIOSH). When I retired I also was an 
Assistant Surgeon General in the United States Public Health Service. I 
have spent my entire career, since 1970, studying the epidemiology of 
asbestos related diseases and have conducted numerous epidemiology 
studies, written many scientific papers, advised the World Health 
Organization, various other national governments, and have testified 
before Congress on several occasions concerning the health risks from 
exposure to asbestos. My CV, which I have supplied, the Committee will 
give you further information if you so desire concerning my studies on 
asbestos.
                                 facts
    In the United States it is estimated that between 189,000 and 
231,000 deaths have occurred since 1980 due to workplace exposure to 
asbestos. Another 270,000 to 330,000 deaths are expected to occur over 
the next 30 years and for those workers exposed, over a working 
lifetime, to the current Occupational Safety and Health Administration 
(OSHA) standard of 0.1 fibers/cc 3.4/1000 workers will die as a result 
of asbestos related diseases. Given that the National Institute for 
Occupational Safety and Health (NIOSH) estimates, as of 1990, the 
latest figures available, that some 363,000 men and 32,000 women are 
exposed at work, the future mortality from asbestos related disease 
will continue to occur well into this new millennium.
    If deaths of workers exposed to asbestos in the United States at 
the current occupational standard are anywhere near the magnitude just 
expressed, what then would be the magnitude of disease and death to the 
countless number of unsuspecting consumers using asbestos containing 
products? These products include such things found in the home as lamp 
sockets, floors, cat box fill, braking mechanism in washing machines, 
furnaces, dishwasher, and other products.
    Why then is any form of asbestos still allowed in commercial 
products within the United States, or the rest of the world for that 
matter? The Environmental Protection Agency produced a list of at least 
44 suspected asbestos-containing materials. Within their list were 
cement pipes, used still for the transport of portable drinking water, 
friction products such as brakes, to name just two widely used 
commercial products. Imports of asbestos containing products still 
arrive into the United States each year and include such things as 
asbestos-containing corrugated sheet, sheet panels, tubes & pipes, 
brake linings, where imports alone have gone up in the last 4 years 
from $59 million in 1996 to $89 million in 2000. Asbestos textile 
products are still coming into the US such as yarn & thread, cord & 
string, knitted material, clothing and they appear to be increasing 
each year according to the United States Geological Survey (USGS).
    The most recent Criteria Document from the World Health 
Organization's (WHO) International Programme for Chemical Safety (lPCS) 
states in 1998 that no threshold has been identified for carcinogenic 
risks. This is consistent with the WHO's earlier conclusion in 1989 
``[The human evidence has not demonstrated that there is a threshold 
exposure level for lung cancer or mesothelioma, below which exposure to 
asbestos dust would not be free of hazard to health.'' The WHO 
recognizes what NIOSH concluded 25 years ago, in 1976, that ``. . . 
(only a ban can assure protection against carcinogenic effects of 
asbestos)''.
    Asbestos is a term for industrial and commercial use rather than a 
mineralogical term. The principle commercial forms of asbestos fall 
into two mineral groups. The most widely exploited has been the mineral 
named chrysotile which fits into the serpentine mineral group 
accounting for over 98% of commercial asbestos usage. The other 
principle mineral group, the amphiboles, contains amosite, crocidolite 
and anthophyllite. Other asbestiform minerals that fall into the 
amphibole mineral group are tremolite and actinolite, which occur in 
nature though they are rarely used, as large deposits are rare. 
Tremolite has been found as a contaminant of most commercial deposits 
of chrysotile and some talc. Tremolite has also been found as a 
contaminant of other minerals such as vermiculite while actinolite has 
been found as a contaminant of amosite from South Africa.
    Asbestos has been responsible for a massive epidemic of disease and 
death since its commercial exploitation primarily beginning at the turn 
of this century. As we enter the new millennium we do not want to 
promote the myth, as is currently promoted by parties interested in the 
continued commercial exploration of chrysotile, that only one mineral 
group of asbestos, the amphiboles, were responsible for the disease and 
death associated with asbestos usage?
    The fact that Austria, Belgium, England, The Czech Republic, Chile, 
Denmark, El Salvador, Finland, France, Germany, Iceland, Italy, Latvia, 
the Netherlands, New Zealand, Norway, Poland, Saudi Arabia, Sweden, and 
Switzerland have all banned asbestos, leads us to recognize that these 
countries feel the safe use of all forms of asbestos is not attainable 
and that alternative materials posing less risk to public health are 
desirable.
    Further substantiation that asbestos cannot be used safely comes 
from the most recent International Programme for Chemical Safety 
Environmental Health Criteria 203-Chrysotile Asbestos. The document 
concluded ``Exposure to chrysotile asbestos poses increased risks for 
asbestosis, lung cancer and mesothelioma in a dose dependent manner. No 
threshold has been identified for carcinogenic risks.'' It further warn 
us that ``Some asbestos-containing products pose particular concern and 
chrysotile use in these circumstances is not recommended.'' 
``Construction materials are of particular concern for several reasons. 
The construction industry workforce is large and measures to control 
asbestos are difficult to institute. In-place building materials may 
also pose risks to those carrying out alterations, maintenance and 
demolition. Minerals in place have the potential to deteriorate and 
create exposures.''
    The conclusions of the IPCS are very consistent with the evaluation 
of 'the amphibole hypothesis carried out by Stayner, Dankovic and 
myself in 1996. However, there are still, today others that claim 
chrysotile asbestos is not as harmful as the amphiboles and can be used 
safely and should not be banned. We are at a point in the history of 
asbestos usage where chrysotile is the predominant type asbestos 
produced and consumed in the world today; it constituted about 98.5% of 
US consumption in 1992. While it is true that asbestos consumption has 
declined in both the US and Europe, sales to other countries (e.g., 
Southeast Asia, South America, and Eastern Europe) has, increased based 
on its usage in construction materials, the very materials that IPCS 
has warned against using. A review of the lung burden, epidemiologic, 
toxicologic, and mechanistic studies, lead to the conclusion that 
chrysotile asbestos exposure carries an increased risk of both lung 
cancer and mesothelioma. and that the hypothesis that these 
observations may be attributable to trace amounts of tremolite, an 
amphibole, a contaminant of the chrysotile may seem to be primarily of 
academic interest, because chrysotile exposures to workers and the 
public are also contaminated with tremolite.
      controversy over asbestos fiber types (amphibole hypothesis)
    The primary evidence for the amphibole hypothesis comes from 
pathologic studies in which lung burdens were measured. However, 
interpretation of these studies is hampered by the fact that chrysotile 
lung burdens are a poor reflection of integrated exposures and the fact 
that chrysotile exposure is highly correlated with lung burden of the 
amphiboles (e.g., tremolite). In addition, that pattern of asbestos 
fiber deposition in the lung does not appear to be consistent with the 
pattern of deposition in the target tissue (i.e., pleura). A review of 
92 consecutive cases of mesotheliorna found that even while only 28.3% 
of the asbestos fiber type in the lung was chrysotile, it was the major 
fiber type identified in the mesothelial tissue itself. These findings 
further suggest that lung burden analysis for determining fiber type in 
mesothelioma etiology may not be appropriate and that determining 
predominate fiber type in the mesothelial tissue is the more rational 
determinant.
    Some, with an interest in promoting the use of asbestiform 
materials in commercial products such as brakes, lawn products, talcs, 
and other uses want exemptions because they say their products contain 
cleavage fragments, which are not asbestiform. The facts are that 
cleavage fragments are almost never found in pure form and usually grow 
along with asbestos fibers in the same ore series. In fact asbestiform 
particles of the right size can cause disease and are therefore 
biologically active. It has been reported that Libby Montana 
vermiculite miners and the New York talc miners show the occurrence of 
asbestos related cancers, which can be explained no other way than 
their contamination with tremolite or with other particles of 
appropriate size to induce disease. These diseases are not going to be 
limited to just the miners, but will pass on to the consumer of these 
vermiculite and talc containing commercially available products. These 
are just two examples of consumer products containing deadly particles. 
There should be an all out effort by the Consumer Product Safety 
Commission (CPSC), the Environmental Protection Agency (EPA) and any 
other governmental agency whose mission is to protect the public's 
health to identify and order removal of such cancer causing particles.
                                history
    I am attaching to my testimony a more detailed chronology of the 
usage, diseases, risks of disease and regulatory activities for 
asbestos, which are contained, in my ``Asbestos Timetables''. But I 
would like to give you a brief few highlights from that history.
    The use of asbestos dates back thousands of years when asbestos 
fibers were being incorporated into pottery as early as 2500 B.C. The 
modem industry dates from about 1880, when asbestos was used to make 
heat and acid resistant fabrics. By the late 1800's and early 1900's 
the use of asbestos was being widely advertised. Johns-Manville ran 
full-page advertisements in several publications, like the January 13, 
1906 issue of The Saturday Evening Post saying ``Serves More People in 
More Ways than any Institution of its kind in the World.'' Highlights 
in the production history of asbestos include its use as heat 
insulation as early as 1866; asbestos cement used as a boiler covering 
in 1870; commercial production of asbestos insulation materials in 
1874; the first processing of Canadian asbestos into textiles in the 
U.S. in 1890; asbestos cement production in the U.S. began in 1903; 
flat asbestos cement board was produced in the U.S. in 1904; asbestos 
was first used as a brake lining in 1906; the first pipe making 
machines were imported into the U.S. in 1928; and asbestos spraying 
first began in tunnels in 1932.
Lung Disease
    The first recorded case of asbestosis was reported, in London, by a 
Charing Cross Hospital physician Dr. Montague Murray, in 1906. It is 
interesting to note that Adelaide Anderson, Lady inspector of Factories 
included asbestos among the dusts known to cause injury to man, in a 
1902 publication on dangerous industries in England. In 1912 the 
American Association for Labor Legislation mentioned asbestos related 
disease in their Industrial Diseases, as did the government of Canada 
Department of Labour. In 1918, American and Canadian insurance 
companies would not insure asbestos workers due to the un-healthful 
conditions in the industry. The first complete description of 
asbestosis, including the naming of the disease and a description of 
``curious bodies'', observed in lung tissue, appeared in 1924 and 1927 
respectively. In 1930 the first case of asbestosis in the United States 
was reported and in the same year it was reported that ``asbestos 
bodies'' were found in the sputum of asbestos exposed workers. By 1930 
it was clearly recognized that people exposed to asbestos dust 
developed the disease ``asbestosis. In 1933 a report even carried the 
case of asbestosis in a 10-year-old rough-haired terrier dog used as a 
atter in an asbestos factory. A study reported in 1936 asserted that 
continued exposure to asbestos could increase the fibrosis (lung 
scaring) in existing asbestotics and reported some evidence that 
asbestosis develops more rapidly in younger persons. In the early 
1960's reports of asbestos related disease began to be reported in 
persons not directly exposed to asbestos, but who resided with asbestos 
workers or lived near sources of asbestos. Asbestosis is a progressive 
disease which can continue to worsen even after secession of 
exposure.I21Asbestosis is not specific to humans and has occurred in 
animals other than under experimental situations. Besides the terrier 
described above, reports have described asbestosis in donkeys hauling 
asbestos ore. Environmentally induced asbestosis has also been found in 
field rats living in and around an asbestos mill and also in baboons 
living near an asbestos mill.
Cancer of the lung & mesothelioma
    In 1935, in the United States and in the United Kingdom, reports of 
asbestos exposure with lung cancer appeared in the scientific 
literature. German physicians began calling lung cancer an occupational 
disease of asbestos workers. Epidemiological evidence in 1955, showed a 
ten-fold excess of lung cancers in those United Kingdom asbestos 
textile workers who had been employed before 1930, thus establishing 
the epidemiological link between asbestos exposure and lung cancer.
    Between 1943-1946 reports of pleural (chest) and peritoneal 
(abdominal) tumors (mesotheliomas) associated with asbestos exposures 
appeared. In 1960 a major study of miners, millers, and transporters of 
asbestos and of non-mining residents found 47 cases of pleural 
mesothelioma, occurring between 1956 and 1960, one part of South 
Africa, the northwestern portion of the Cape Province, known to have 
many asbestos mines. Their study confirmed epidemiologically an 
association between exposure to abestos and mesothelioma. The fact that 
environmental exposures were also occurring demonstrated the fact that 
low-level, non occupational exposures to asbestos could be hazardous. 
The first studies in the United States, to report mesothelioma with 
asbestos exposure were of factory workers, in 1963 and in 1964, of 
insulation workers.
    With all of the scientific data and knowledge about asbestos, why 
is it still allowed in commercial products for general consumer usage, 
such as brakes, lawn products, cement pipes and others? We have seen 
the toil on workers mining asbestos, manufacturing asbestos, and using 
asbestos containing products. What will be the toil on the American 
consumer if asbestos continues to be allowed in commercially available 
products and American workplaces? Now is the time for the United States 
to join the growing list of Nations that have banned the further 
importation and use of asbestos. Asbestos related diseases are a result 
of human exploitation and only through stopping such exploitation can 
we take them away. Many responsible industries have taken this action, 
while others have not. Unfortunately, because some industries are 
unwilling to take such action for what ever reason, it is up to the 
Government to act. Asbestos is a deadly substance and has been known to 
be so for almost 100 years and we know that suppression of the asbestos 
containing dust will not work, as no thresholds for cancer can be 
established, and that even at the lowest standards to date excessive 
disease and death will continue to occur, there is no choice but to BAN 
this deadly substance, ASBESTOS, from commercial use if we are to stop 
this continuing epidemic of disease and death. I conclude by quoting 
the very eminent British public health statistician, Sir Bradford Hill 
who said in 1965--and I might add this still applies today: ``All 
scientific work is incomplete--whether it be observational or 
experimental. All scientific work is liable to be upset or modified by 
advancing knowledge. That does not confer upon us a freedom to ignore 
the knowledge we already have, or to postpone action that it appears to 
demand at a given time.''
    That time is now and the action we must take is clear.

                 Prepared Statement of Mr. John Addison

    I am an independent scientific consultant working in the field of 
mineralogy and health. I was the Head of the Mineralogy Group at the 
Institute of Occupational Medicine, Edinburgh, for fifteen years. The 
IOM is one of the foremost charitable research organizations in the 
world. My responsibilities there ranged from the analytical measurement 
of dusts in the occupational environment, including all of the asbestos 
minerals, to characterization of asbestos and other minerals used in 
carcinogenicity testing, and the determination of asbestos in human and 
animal tissue samples.
    For about the last 20 years I have been a member of the UK Health 
and Safety Executive, Working Group that has developed and drafted the 
formal methods that are currently used in the UK for identification of 
asbestos in bulk samples and in airborne dusts. I am recognized 
internationally as an expert on the asbestos minerals and have 
testified previously in US Federal hearings with respect to the 
definition of asbestos in OSHA regulations, and in particular to the 
issues related to the non-asbestos forms of amphibole minerals.
    There are many complex issues involved in the measurement of 
asbestos in dust and bulk samples, but one of the most important 
distinctions that must be made is that between the asbestos minerals in 
the amphibole mineral group and their normal non-asbestos analogues; 
these are minerals with effectively the same chemical composition, but 
with subtly different crystal structures that lead to the very 
different physico-chemical properties, and different toxicological 
behavior. These differences have led to the clear distinction being 
made between asbesti form amphiboles and their non-asbestos analogues 
in the regulatory framework for asbestos in the USA, UK and much of the 
rest of Europe. One very important aspect of the issue is that all of 
the arnphibole minerals have the property of forming crystal fragments 
that may meet the size definition of a regulatory fiber, but that does 
not mean that these fragments are asbestos, nor does it mean that they 
have the toxicological properties of asbestos. Within this context it 
was entirely appropriate that the fiber counts performed by OSHA for 
regulatory purposes discriminated between the cleavage fragment fibers 
of amphiboles and true asbestos fiber. Such a distinction is not only 
appropriate, but is essential for the proper regulation of large 
numbers of industrial rock and mineral procedures within the USA since 
many of these contain amphibole minerals that will naturally produce 
cleavage fragment fibers that meet the regulatory size criteria. These 
also are not asbestos.
    Having previously advised The Vermiculite Association on issues 
related to amphibole and asbestos minerals, I was invited by Mr. Ned 
Gumble of Virginia Ven-niculite to assist him when it became apparent 
that there were possible asbestos outcrops within the ore-body of the 
mine. Over the past two years I have spent about 15 days working at the 
mine, inspecting the ore body and personally explaining to every member 
of staff the health effects of asbestos, methods of identification, 
airborne dust monitoring and many other aspects of asbestos science.
    I confirmed for Virginia Vermiculite that a tremolite asbestos 
variety, did indeed occur as thin veins within the ore body, but these 
were not persistent and only sparsely developed in terms of the whole 
mass of ore. Since the thin tremolite veins could be recognized by an 
experienced operator, they could be removed when encountered and would 
not contribute to worker dust exposure during processing. Even if the 
tremolite asbestos veins had simply been mixed in with the ore material 
for processing it is unlikely that the tremolite asbestos would have 
been detected by conventional US asbestos methods. Other small 
occurrences of an actinolite asbestos also appeared to be found at the 
margins of intrusive masses of granitic rock that are found cutting the 
main rock mass of the deposit. Once again these asbestos occurrences 
were not persistent and only sparsely developed. Since granitic rocks 
have no value as a vermiculite ore they would not normally be 
disturbed, nor would there be any value in their processing.
    Towards the end of my visits I recommended that Virginia 
Vermiculite should request a visit from Dr. Malcolm Ross, probably the 
leading authority in the world on asbestos minerals, and formerly of 
the US Geological Survey. He confirmed all that I had found, and 
furthermore suggested that such asbestos occurrences are widespread 
throughout the Appalachian Mountains and the Piedmont areas. In these 
circumstances it is almost impossible to exclude absolutely the 
possibility of asbestos occurring in any mineral or rock development, 
but that does not mean that all such developments should cease, only 
that sufficient care and attention must be paid to the proper 
management of the asbestos problems. It is clear to me that in their 
considerable efforts to identify their problems, to manage the asbestos 
in their mine, and to minimize the possible health effects on their 
workers, Virginia Vermiculite have set an excellent example.

               Prepared Statement of Mr. George Biekkola

    Senator Murray and members of the committee, my name is George 
Biekkola from L'Anse, Michigan. I'm 67 years old, and I have 
asbestosis.
    I began working for the Cleveland Cliff Iron Company in Michigan in 
1964. After almost 30 years on the job, I had to retire early--because 
of my disability.
    I've got to tell you--this isn't how I planned to spend my 
retirement.
    I'm married, I have four children, and five beautiful 
grandchildren.
    I'm an active person. I coached little league and youth hockey. For 
several years, I volunteered my time and helped our community build a 
new recreation center. Currently, I'm a crew leader in the Americorps 
program at Camp Alberta.
    I like being able to do things for myself. But these days, when the 
lawn needs to be mowed or the snow needs to shoveled, I can't do it. I 
just don't have the strength because my lungs are filled with asbestos 
fibers and they are scarred from years of exposure.
    My doctor tells me that I only have two-thirds the lung capacity I 
used to have. My heart already has to work overtime to distribute 
oxygen through my body. I can't exert myself.
    I have be very careful that I don't catch pneumonia or any lung 
condition--because my lungs aren't able to fight off infections.
    As I said, this isn't how I thought I'd be spending my retirement. 
I thought my wife and I would buy a motor home and travel out West. I 
pictured myself up in the mountains hunting deer.
    But today, even if I could afford it, my body wouldn't be able to 
take it. If I exert myself too much, I begin to feel a burning in my 
thighs. They're the largest muscles and the ones that become depleted 
of oxygen first.
    This isn't how I thought I'd be spending my retirement, but when I 
think about the other guys I worked with--I guess I came out lucky.
    Like my friend Dale Roberts. He was an electrician. We used to eat 
lunch together. He was so excited to retire. He was going to help his 
son run a portable saw mill. He was a healthy guy. He retired in 1992. 
Six months later, he was dead. The asbestos cancer wrecked his left 
lung. He went into the hospital, and a week later, he was dead.
    I'm also luckier than my friend Joe Brogan. Joe and I carpooled to 
work together. Joe retired, and I think it was two weeks later--he too 
was dead of asbestosis.
    Senators, I could give you more names. In fact, when I finally took 
the mining company to court a few years ago, I brought with me a stack 
of a few hundred death certificates.
    I didn't know about the dangers of asbestos. I didn't know the toll 
it was taking on my lungs and my life. I'm here today to tell you my 
story so that maybe someone else working in a mine--or a brake shop--or 
a factory--won't lose the things I have lost; Won't lose the things 
those men and their families have lost.
    Because it takes 20 to 30 years for the scarring in the lungs to 
show up on an x-ray, many people aren't aware of the problem.
    Most Americans think asbestos is no longer a danger. But they're 
wrong. Today many types of asbestos and asbestos-like fibers are still 
used in manufacturing and are still ruining the health of workers like 
me.
    Companies will tell you asbestos is not a problem--just like they 
told me. ``Go back to work George. There's nothing to worry about,'' 
they said.
    Senators, they lied. We need to worry about asbestos--and we need 
our government to protect us--because businesses--on their own--won't 
always do the right thing.
    As I mentioned, I started working for the Cleveland Cliff Iron 
Company in 1964. Over the years, I worked in three mines: the Humboldt, 
Republic and Tilden. I started as a hard rock driller. I drilled 
through the rock. Often that rock had veins of asbestos--a grey, flaky, 
smooth material.
    Sometimes you would be breathing the raw asbestos that you just 
drilled through. The dust would get all over you--in your face--in your 
mouth--down your throat. You couldn't help it. There wasn't safety 
equipment. If you were lucky you'd come across a paper mask like this 
one. But even with a mask on, at the end of the day, you'd blow your 
nose and all this black dust would come out.
    Because my job didn't pay much, I worked overtime whenever I could 
and that exposed me to even more asbestos. Whether I was repairing the 
giant kilns or working in the crushers, I was often surrounded by 
clouds of white dust--clouds of asbestos.
    Eventually, I became trained in electronics, and I worked in the 
mines and factories repairing equipment. Often, that equipment was 
wrapped in asbestos to insulate it from the heat. I brought some 
examples with me. Here is an asbestos gasket. And here is a piece of 
thermalcouple wire, which is covered in asbestos. I handled these 
throughout my job.
    In 1987, the mining company had many of us x-rayed. My x-ray showed 
asbestos in my lungs, but the company doctor and a lung specialist told 
me not to worry about it.
    Around 1990, 1 went to see Dr. Michael Harbut. He told me the truth 
about my asbestosis, and he told me get out of the mine.
    I went back to the company with this information. I thought they'd 
put me on compensation. Instead they rejected his report and said--your 
job is here, be at work tomorrow. And that was that.
    Later, I went to the Mayo Clinic in Rochester, Minnesota for 
several days of tests. I brought those results back with me to the 
mine. The personnel man laughed and pushed it away. He said, throw that 
in the basket because its just a bunch of garbage.
    Because of my disability, I retired at age 60. Today, I can't do 
the things I want to do for myself and my family.
    Because it takes a long time for asbestosis to appear, in the 
coming months a lot of workers are going to diagnosed. I just wish the 
company would be more responsive to those workers and their families 
and not wait until those workers have died.
    I hope that this Committee will make sure that what happened to me 
won't happen to anyone else. Please raise the safety standards and keep 
a better eye on these companies. Help spread the word about the dangers 
of asbestos.
    Workers like me are counting on you to protect us. Please don't let 
us down.
    Thank you.

             Prepared Statement of Michael R. Harbut, M.D.

    My name is Michael Harbut. I am a Doctor of Medicine and a teacher 
at the Wayne State University School of Medicine in Detroit, Michigan. 
I'm also a Past Chair of the Occupational and Environmental Health 
Section of the American College of Chest Physicians and am a Board 
Member (as Congressman Bruce Vento) of the Mesothelioma Applied 
Research Foundation.
    Each year I have approximately 3200 ``contacts'' with patients who 
are ill as a result of their occupational or environmental exposures. 
Hundreds of these patients have asbestos-related diseases or cancers. 
Most of them die before they were meant to. My remarks, therefore 
today, are not only from the perspective of a physician who knows that 
much of the sickness and death that he daily confronts was preventable, 
in honesty, I'm also angry at the industry and its friends in high 
places who have allowed this carnage to occur.
    I want to speak briefly about what asbestos fibers are and what 
they do when inhaled. Now, it is quite commonly known that asbestos 
fibers cause scarring of the lung and lung cancer. What is less 
commonly known is that persons with significant asbestos exposure have 
an increased overall death rate from all cancers. Asbestos fibers are 
microscopic airborne needles, which penetrate the delicate tissue of 
the lung and have been identified in every organ of the body.
    Anywhere from a handful of years to decades later, persons with 
asbestos related disease develop a thickening on the covering of their 
lungs, their smaller airways become narrowed, and then the membrane 
over which oxygen passes to the bloodstream becomes thickened, 
increasing the work of breathing. They become short of breath at 
climbing a few stairs, they can't walk from the shopping center lot to 
the store without stopping and before too long, and any exertion can 
cause a profound shortness of breath. Many patients ascribe the 
symptoms to ``just growing old.'' If they do seek medical attention, a 
diagnosis of asbestosis is rarely rendered. There are several reasons 
for this.
    Firstly, even for trained physicians, it can be a tough diagnosis 
to make. Notwithstanding the mass tort litigation where an asbestosis 
diagnosis may be less than reliable, a real asbestosis diagnosis made 
by a real doctor just doesn't happen that often. One of the reasons is 
that sometimes there are problems in identifying the asbestos fibers, 
one of the reasons why we are here today.
    Even if a patient has all the clinical signs and symptoms of 
asbestosis, there is sometimes inadequate data to confirm the presence 
of what the Government has decided constitutes an asbestos fiber. These 
are sometimes called asbestiform fibers and in some cases, the inhaled 
dust may contain a percentage of asbestos below what was previously 
believed to be harmful or may be regulated as a 49 particulate not 
otherwise classified.''
    To illustrate this, please see the x-rays I've brought. The first 
demonstrates a normal lung, the second a patient with early, but 
definite asbestosis. You'll see that the third is quite similar to the 
second, demonstrating what appears to be early, definite asbestosis, 
but when we ashed this patient's left lung after it was transplanted, 
we found no asbestos fibers, but we did find a number of ``cousins'' of 
asbestos. This x-ray also shows what the inhaled dusts have done to the 
surviving lung over a period of 10 years. The fifth film shows also 
what appears to be an early, but definite asbestosis in a miner from 
Michigan's Upper Peninsula. He wasn't given this diagnosis by the 
courts, however, because his exposures fell below MSHA's notice. The 
next film shows an advanced asbestosis in a Steelworker and the last 
film demonstrates asbestosis in an Autoworker who made brake shoes.
    Diagnoses are also not made for insurance reasons. Once a patient 
receives a diagnosis of asbestosis, it's a fair bet the doctor and 
hospital will have a very hard time getting paid for care; the patient 
can be thrust into a compensation system that rarely rules in his/her 
favor; and the patient's ability to acquire health or life insurance is 
severely impaired.
    So not only have these patients been assaulted by the fibers, they 
are assaulted by the law. They are also assaulted by funding policies 
for research. As an example, for every 6 breast cancer deaths, the 
National Cancer Institute is funding a study. There is one study funded 
for every 80 mesothelionia deaths. Mesothelioma is the relentless 
cancer of the covering of the lungs and intestines caused by asbestos 
which is usually found at autopsy, but when discovered before death, 
confers an average life expectancy of 6 months. A death from a fiber 
inhaled 40 years earlier.
    In my remaining moments before you I'd like to make a few 
suggestions which I think would help alleviate illness, suffering and 
preventable death in our generations and those of our children.
    Firstly, the Government should convene a panel of scientists and 
clinicians who know a lot about asbestos, it's cousins and the disease 
they cause. One requirement of membership of physicians would be that 
they have treated at least 100 persons with asbestos-related disease 
over the previous 5 years. The panel would study all diseases which 
present clinically as does the 2001 brand of asbestosis, identify the 
precise fibers causing them, and recommend their appropriate 
regulation.
    The panel would also look at the health, compensation and insurance 
issues growing out of asbestos and asbestiform exposures and make 
appropriate recommendations.
    Finally, the Government should immediately encourage the refocus of 
at least some of its resources on the prevention, early diagnosis and 
someday, cure of asbestosis and mesothelioma. Prevention actually is an 
easy one. Just ban the use of asbestos in the United States, as have 
nations all over the world.
    For decades, the society, the Courts and much of the Government 
have regarded asbestosis as a legal inconvenience. My patients and I 
ask you to understand that to them and their families, asbestosis means 
disease and death.

              Prepared Statement of Alan Whitehouse, M.D.

    My name is Dr. Alan Whitehouse. I am a chest physician/
pulmonologist from Spokane, Washington, board certified in internal 
medicine and chest diseases and have been practicing pulmonary medicine 
in Spokane since 1969. Spokane is 160 miles from Libby, Montana, and is 
the primary referral source for patients with lung disease from the 
Libby area and much of Western Montana. I have been privileged and 
saddened to have taken care of many people from Libby who have 
asbestosis.
    Libby was the site of the W.R. Grace Corporation vermiculite mine, 
located about 6 miles from Libby. Libby itself is nestled in the valley 
of' the Cabinet Mountains of Northwestern Montana, a relatively 
uninhabited site except for Libby. The mine employed several thousand 
people through the years and was originally operated by the Zonolite 
Corporation and purchased by W.R. Grace in 1963.
    Vermiculite is an insulating compound, which has very common usage 
for insulation, soil conditioning and in fertilizers. The ore body of 
the W.R. Grace mine also, unfortunately, contained up to 27% tremolite 
asbestos. Tremolite is an asbestos, that falls in the category of 
amphiboles as opposed serpentine asbestos, such as chrysotile, which is 
the commercial variety of asbestos.
    The insulating material, vermiculite, is produced by heating the 
ore or ``popping it'' after attempts are made to separate the tremolite 
asbestos from the ore body itself. This compound, which many of you are 
familiar with is a very light, airy compound, which has excellent 
insulating properties.
    Unfortunately, all of the tremolite asbestos cannot be separated 
from the vermiculite itself and the great majority of vermiculite that 
was produced as a commercial product for insulation purposes contained 
significant amounts of tremolite asbestos. Both the partially refined 
ore and the relatively finished product known as Zonolite, which was 
the vermiculite insulating material, was sent throughout the country. 
The ore was sent to approximately 60 expansion plants where it was 
popped or expanded and made into the vermiculite insulating material. 
Unfortunately the finished product contained significant quantities of 
tremolite asbestos and was shipped throughout the country for various 
forms of insulation from both Libby and the 60 ore expansion plants.
    Evidence in animal research indicates that tremolite is much more 
toxic than chrysotile and my own patient data on a large number of 
patients with both forms of asbestosis would confirm the same. It 
creates an intense inflammation of the lining around the lung called 
the pleura as well as producing fibrosis and scarring within the lung 
itself. There is a latency period from the time of exposure of anywhere 
from 15 to 40 years from the time of last exposure. It frequently 
begins with what are called pleural plaques, which are areas of 
thickening or scarring of the pleura.
    It may be scattered or may be confluent around the surface of the 
lung. These may become very diffuse thickening of this lining of the 
lung, which results in the inability of the lung to expand, somewhat 
like you would see an orange peel around an orange.
    There may also be scarring in the framework of the lung, called the 
interstitium, which is the framework that supports the air sacs. When 
this becomes scarred, it prevents the lung from expanding and also 
prevents gas exchange of oxygen and carbon dioxide. People that have 
progressive asbestosis die of a variety of illnesses. One of the most 
common is lung cancer. Additionally, about 3% will die of mesothelioma, 
which is a cancer of the lining of the lung. Many will die of 
respiratory failure, which is basically a form of suffocation due to 
inability to oxygenate your body properly.
    Unfortunately, vermiculite with this contaminate, tremolite 
asbestos, was scattered throughout the entire Libby area. It was 
present around an expansion plant, near downtown Libby. It was present 
along all the rail lines where the Great Northern, Northern Pacific and 
subsequently the Burlington Northern passed. It was loaded into rail 
cars at the Burlington Northern both in town and in other sites near 
Libby. It was used throughout the community as a soil conditioner. It 
was placed on the playground of the schools to help condition the 
track. It was placed in large quantities in the ballfield and was 
worked on a daily or every other day basis for long periods of time in 
the process of keeping the grounds suitable for playing baseball.
    It was available free to the community to use in attic insulation 
and many of the homes in Libby are insulated with vermiculite. The 
children played in the piles of vermiculite for many years. A favorite 
was to pile vermiculite on the rail line and wait for the train to come 
by, which would cause a swirling cloud of dust. They would also jump 
from ropes into large piles of vermiculite similar to what you did when 
you jumped in leaf piles when you were a child. These were fairly heavy 
exposures to asbestos but unfortunately there is also a significant 
number of people that have asbestos related disease in whom the only 
source of asbestos that you can find is that they lived in Libby, 
Montana, and neither played in it as a child nor were employed by Grace 
or lived with families of miners
    Through the years, especially since 1980, I have seen a number of 
miners that had worked in the plant who had asbestosis. It was thought 
until the last 5-7 years that this disease had been confined to the 
miners. There were several family members who obtained asbestosis from 
the dusty clothing the miners brought home from work, but beginning 10 
years ago I began to see more patients who were family members of the 
miners and had developed fairly severe asbestosis and some had actually 
died of it. In the last 5 years I have seen an alarming number of 
patients from Libby who had no direct exposure to the mine or to the 
miners who had asbestosis but obtained the disease from living in 
Libby, Montana.
    These included children who played in the vermiculite, those who 
had worked around the rail lines, a number of railroad workers for the 
Burlington Northern, a number of loggers who had logged in the woods 
around the W.R. Grace mine property, men who worked in the lumber mill 
where they had used vermiculite insulation on the plywood dryers, 
people who lived next to the expansion plant or the storage bins and 
people who just lived near downtown Libby who could not be identified 
as having a significant other exposure.
    I have been collecting a data base for a number of years and 
currently have 396 cases in that data base. They range all the way from 
patients with a few pleural plaques to people who have died of this 
disease. About 200 of these are miners, 93 are family members of 
miners, but 103, or approximately 25% of these patients are people who 
have never worked for Grace and whose exposure was environmental only 
in Libby. 24 of my patients have died in the last 3 years and 5 of 
these were people who only had the environmental exposure. One was a 
family member, 18 were miners.
    It is clear from this data that people can obtain severe asbestosis 
with what would appear to be relatively minimal exposures to tremolite.
    As you may know, there has been a screening study done by EPA and 
ATSDR, which is a branch of the CDC, screening approximately 6000 
people in Libby who had lived within 6 miles of the town or the mine.
    Initially it appears as if there are between 20 and 30% of these x-
rays that are abnormal, although final numbers are not available at 
this point. Some of these patients show up in my case series. The rest 
of them are being seen in the Center for Asbestos, Related Diseases in 
Libby, which is being Supervised by Dr. Brad Black, a very competent 
Libby physician. These numbers from reviewing x-rays in Libby with Dr. 
Black are going to be close to being correct and so there will likely 
be another 1500 people with abnormal x-rays added to my 400 and there 
will be another 2000 to 3000 people screened again this summer.
    It is easily conceivable there will be 2000 people in the Libby 
environs who have abnormal chest x-rays ranging all the way from a few 
pleural plaques to diffuse pleural thickening to interstitial 
asbestosis and going on to death.
    Asbetosis is a progressive disease. It is no( known whether 
everybody that has pleural plaques will develop severe disease or not. 
it is clear that over 100 of my patients have severe disease and that 
about 75% of my patients with even mild disease are having progressive 
loss of pulmonary function taking into the consideration the changes in 
their function that goes along with age. This 75% are losing 
approximately 3-5% of their lung function per year over and beyond what 
would be expected from aging. These are people with only mild disease 
and whose pulmonary function studies are greater than 80% of predicted. 
This data suggests that the majority of people who have an abnormal 
chest x-ray in Libby are going to progress to fairly significant or 
fatal asbestos related diseases.
    It is clear that you can get asbestosis from what was thought to be 
a minimal exposure. Tremolite is a considerably more toxic fiber than 
chrysotile and it may not take nearly as much exposure to get severe 
disease. Tremolite is a contaminate in some of the chrysotile and has 
been found in some brake linings that have been studied recently. 
Temolite is present in many places throughout the nation in the attic 
insulation where Zonolite was used. It is still, unclear how severe a 
problem this is, although the data from Libby would suggest that it may 
not take much exposure to get asbestosis. I have one patient whose only 
exposure to tremolite was from their attic insulation.
    I would urge this panel to recommend there be a considerable review 
of how we deal with and regulate all forms of asbestos in this country. 
We have huge amounts of asbestos present throughout this nation. It is 
being used commercially and it does not appear from the data we have 
from Libby there is anything such as a safe level of asbestos in the 
air. It may very well be we are still contaminating large numbers of 
people, particularly with tremolite or other amphiboles without 
actually knowing it.
    The W.R. Grace Corporation was very well aware of the extent of the 
asbestos contamination of their miners and of the town of Libby 
throughout the entire period of operation of tile mine. There may be 
other similar places in this country where a significant amount of 
asbestos contamination is occurring either known or unknown.
    Because of the long latency period of asbestosis, it is likely we 
are going to continue to see new cases of asbestosis or rapid 
progression of the disease occurring as late as the year 2030.

                   Prepared Statement of David Pinter

    Members of the Senate, Ladies and Gentlemen, my name is David 
Pinter of Louisa, Virginia. Before I quit two months ago out of fear 
for my health, I worked for Virginia Vermiculite for more than 22 
years.
    I was a heavy equipment operator and mechanic and worked every day 
excavating and loading vermiculite for processing at the plant. I also 
loaded and distributed the waste rock that was left over at the end of 
the processing and several times a week I hauled the processed ore 
through the town of Louisa to dump it at an uncovered stockpile near 
the of town or load it on box cars to be shipped all over the country. 
Every day I worked in clouds of dust doing each part of my job. Some 
days the dust was so thick I could barely see. Never in the 22 years 
was I given any protective clothing or respiration equipment.
    When I would excavate the vermiculite to begin the processing, I 
would see veins running everywhere through the ground of whitish-grey 
fibrous material that was much lighter than the surrounding rock and 
sometimes almost fluffy in consistency. A lot of this fibrous material 
ended up in the waste rock and a lot of it ended up going into the 
process that put it into the downstream product. I have samples of this 
stuff in the jars sitting here in front of me.
    For as long as can remember, there have always been rumors in our 
community that the vermiculite we were handling was contaminated with 
tremolite asbestos.
    The company owners. assured the workers and the people of the 
community that this was not true and that we were safe. No one thought 
the company would lie to us and, as a result, all of us put our fears 
aside and continued to work unprotected. I now know that tests 
conducted by the W.R. Grace Company going back to the 1950's showed 
heavy concentrations of tremolite asbestos in the Louisa deposit. W.R. 
Grace controlled this deposit before Virginia Vermiculite took it over.
    Only 20% of the material we dig up becomes useable vermiculite ore. 
That leaves 80% of every ton of excavated earth as waste rock that 
accumulates at the plant site. Each year we produced up to 50,000 tons 
of vermiculite. This left 200,000 tons of waste rock that had to be 
disposed of annually. The management of Virginia Vermiculite decided 
that a good solution to this problem would be to give it away to the 
public as free gravel. For 22 years I watched people come in with their 
own trucks to be loaded with this waste rock, or management would send 
dump trucks full of waste rock out each day to be dumped on peoples' 
driveways, parking lots, and in public areas such as the local library 
and fairgrounds. Usually about 100-300 tons of this material was spread 
around Louisa County and the neighboring counties each day. As I told 
you before, all of this waste rock contained large quantities of the 
whitish- gray fibrous material.
    In the fall of 1999, I began to see all the news about how the 
vermiculite workers and their families were dying in Libby, Montana 
from exposure to tremolite asbestos. This scared all the workers at the 
plant, but management continued to tell us we had nothing to worry 
about and that there was no tremolite in the Virginia deposit.
    Some months later, an inspection team from MSHA showed up to check 
for asbestos exposure. They seemed shocked at what they found. I heard 
someone say ``This looks more like an asbestos mine than a vermiculite 
mine''. It turned out that the white-gray fibrous material we have been 
working in all these years was indeed tremolite asbestos the same as at 
Libby, Montana, and citations were issued against the Company because 
of the worker exposure. The MSHA tests later showed the tremolite to be 
in concentrations of up to 99%. The inspectors said the workers needed 
to be in protective clothing, use respirators, have dust free cabs on 
all equipment and have on-site showers and other decontaminating 
equipment provided. They also made management put red flags and orange 
cones out to mark the dozens of veins of asbestos which criss-cross the 
property. These veins range in size from less than an inch to one which 
is six feet high and two feet wide. Usually the best quality 
vermiculite is under and around these asbestos veins. Management was 
visibly annoyed at having these rich parts of the deposit ``off-
limits''.
    As I understand it, management told MSHA they agreed to all of 
MSHA's safety requirements. However, management actually ignored the 
safety requirements and most of them have never been carried out. The 
red flags and orange cones were set out to mark the asbestos veins, but 
no protective clothing or respirators were ever issued to the men and 
there is almost no protective equipment in place.
    Since January, however, MSHA and EPA seem to have lost interest in 
the tremolite asbestos problems at Virginia Vermiculite and management 
seems to appreciate this. For example, on Inauguration Day, 2001, the 
bosses at the plant were joyful and ordered all the red flags and 
orange cones removed from the barricaded area where the asbestos veins 
were and the workers were told to excavate through the asbestos as they 
always had before. When the plant manager ordered this I heard him say 
``We don't have to worry about MSHA any more. From now on they'll be 
behind us every step of the way. They won't cause us any more 
trouble.'' Once again, all the tremolite went into the product for down 
stream consumers of garden and lawn products, medicated powders, fire 
board, brake shoes, aggregate and numerous other common products
    Everyone talks about what a tragedy Libby, Montana was and how it 
can never happen again. Well it, is happening again right now. it is 
happening under your noses just two hours from where you are sitting. 
We are not dead yet because the mining in Libby began 25 years before 
they started in Virginia, but it is coming. The end of the incubation 
period for asbestos disease is almost at hand. All the plant workers 
since 1978 have been exposed and hundreds of people in the town and 
county are being exposed daily. It is probably already too late for 
many of us, but you need to shut this mine down, and require the 
company to thoroughly decontaminate the mine and mill site. You also 
need to require the company to disclose every location where they 
spread their waste rock and to clean up those sites too. This is the 
only way to protect all those who have not yet been exposed.
                                 ______
                                 
                                              Richmond, VA,
                                                     July 27, 2001.
Hon. Patty Murray,
U.S. Senate,
Washington, DC.
    Dear Senator Murray: My name is Joseph Heller. I am 53 years old. I 
am a lifetime resident of Richmond, Virginia. Last year, I was 
diagnosed with mesothelioma, an incurable cancer caused by exposure to 
asbestos.
    Beginning in 1965 and continuing until last year, I have worked 
either as an automotive mechanic or parts man. Those have been my only 
trades, and the only way in which I know I was exposed to asbestos. In 
1973, I began working as a mechanic at an Oldsmobile dealership in 
Richmond. Ever since 1973, I have worked primarily for General Motors 
dealerships, either Oldsmobile or Pontiac. Until 2000, I was very proud 
to be a GM mechanic. In fact, despite my diagnosis with mesothelioma 
last year, I attempted to return to work but was unable to perform my 
job without becoming exhausted. I have always loved working on cars, 
and not being able to work for a living or do what I enjoy depresses me 
everyday.
    During my career as an automotive mechanic and parts man, I do not 
recall ever being warned about the dangers of asbestos. I do not recall 
ever seeing an asbestos warning on boxes of Bendix brake linings I used 
between 1965-1972, nor do I recall such warnings on boxes of GM brakes 
between 1973 and 2000. From 1973 until 2000, I went to several GM 
mechanic training classes, and was never warned in any of those GM 
mechanic training classes about the dangers of asbestos. I have since 
learned that Bendix (now Honeywell company) and GM have both known 
since at least the 1960s that exposure to asbestos causes mesothelioma, 
and that GM was aware of the overall dangers of asbestos since at least 
the 1940s. I worked for a Bendix distributor, Richmond Battery, from 
1965-1972 and again for a short time in the late 1970s-early 1980s. I 
would have thought that both Bendix and GM would have been inclined to 
at least tell their distributors and dealership mechanics about the 
extreme dangers involved with the handling, manipulation, and 
installation of their brake and/or clutch linings. I received no such 
warning from either Bendix or GM, despite the nature of my employment, 
which brought me in nearly daily contact with their asbestos-containing 
friction materials. As a result of those exposures, I now have only a 
short time to live.
    I now understand that some brake manufacturers, including Bendix 
and GM, began putting cautionary labels on their brake packaging in the 
mid 1970s. Although I don't recall such labels, the cautionary labels 
evidently stated something about the need to avoid creating dust and 
that the dust could cause potential bodily injury. I learned this when 
I was cross-examined in a deposition by Bendix and GM lawyers recently 
(which lasted over 7 hours). Such warnings are inadequate for two 
reasons: 1. The labels do not inform of the danger of using such 
products, and 2. There is no mention of cancer or potential death from 
breathing dust from such products.
    Such ridiculous cautionary warnings also ignore the obvious to 
anyone who has done professional mechanic work in the past: It is 
impossible not to have some dust released when doing brake or clutch 
work, no matter how careful you are. Beginning in the mid-1970s, I was 
trained not to blow out the brake drum with an airhose anymore, and I 
was also told not to grind brake linings. It was not explained to me 
why such procedures were implemented at my GM/Oldsmobile dealership in 
the 1970s, but I followed them. Still, dust is released when you remove 
drum brake covers, disc brake assemblies, clutch housing assemblies, 
and new brakes or clutches from boxes. Some dust is unavoidable with 
brake and clutch work. As I understand my disease, doctors do not know 
how much exposure to asbestos it takes to cause mesothelioma. If that 
is true, why do brake and clutch product manufacturers still use 
asbestos in some of their friction materials when alternatives are 
available and they know some dust is unavoidable in using their 
friction products? Isn't the possibility of getting mesothelioma enough 
reason to completely eliminate the use of asbestos in friction 
materials altogether?
    Senator Murray, I live everyday with a time bomb. I wait for the 
day my mesothelioma begins to spread throughout my body and cause the 
pain and extreme shortness of breath that will eventually lead to an 
excruciating death. I fear it, and there's nothing I can do to stop it. 
I've already endured 4.5 months of chemotherapy that overwhelmed me 
with exhaustion, sleepless nights, and nausea. Perhaps you can do 
something, though, to make sure no other people working as automotive 
mechanics get this terrible disease.
    I thank you for your time.
    Sincerely,
                                                  Joseph T. Heller.
                                 ______
                                 

     Response to Questions of Senators Kennedy and Murray From EPA

    1. (A) How has EPA used the experience of Libby, Montana to correct 
current exposure threats and to prevent a tragedy like this from 
happening anywhere else?
    (B) What are the results of EPA's inspections of the three other 
vermiculite mines and other mines where asbestiform fibers may be 
present?
    (C) Has EPA relied on transmission electron microscopy for these 
tests, as recommended in the Inspector General's report?
    (A) EPA has used the experience of Libby, Montana, to supplement 
its standard operating procedures under the Superfund site evaluation 
process. EPA Regions have responded to potentially contaminated sites 
using a cross-office, multimedia, integrated program approach to site 
evaluation and response. As part of this effort, EPA Headquarters has 
coordinated closely with the Regions, other EPA program offices, and 
other federal partners to conduct regular meetings, track the progress 
of site reviews, and ensure that current exposure threats are being 
addressed by the most appropriate authority.
    EPA is working with other federal, state, and local authorities in 
efforts to consider locations and industries other than Libby, Montana 
which might pose similar threats to public health and the environment. 
EPA's Office of Solid Waste and Emergency Response (OSWER) is 
collaborating with the Mine Safety and Health Administration (MSHA), 
Occupational Safety and Health Administration (OSHA), the National 
Institute of Occupational Safety and Health (NIOSH), Agency for Toxic 
Substances and Disease Registry (ATSDR), Consumer Product Safety 
Commission (CPSC), states, and other partners who can provide or 
analyze information about public health and environmental 
contamination.
    ATSDR and EPA have determined that a review of county health data 
may be a useful tool to identify other asbestos-contaminated sites like 
Libby. EPA will closely monitor this effort once it is initiated to 
appropriately direct resources to sites with serious public health 
impacts.
    (B) With respect to EPA's investigations of additional vermiculite 
mines, we have confirmed the following results:
    Louisa, VA: EPA conducted field sampling in Louisa, VA, at the 
Virginia Vermiculite Mine, LLC in May 2001. Samples were collected in 
and around residences in the area of the mine and along roadsides and 
rail sidings. MSHA also collected samples on site to determine 
potential exposure for workers.
    MSHA samples identified limited, highly concentrated and discrete 
deposits of amphibole asbestos material in the mine. The amount of 
contaminant as a percentage of the total ore/aggregate volume appears 
to be extremely low. EPA samples did not identify any measurable levels 
of asbestos fibers migrating off site. Therefore, Superfund has 
determined that no further program action is warranted.
    Carolina Vermiculite, SC: EPA visited the site and took samples on 
June 6, 2001. Lab personnel collected samples from the mine/ore body, 
from the processor, waste ``slime,'' and beneficiated (concentrated) 
vermiculite product. No measurable levels of asbestos fibers were 
detected in the samples. Superfund has determined that no further 
program action is warranted.
    WR Grace/Enoree, SC: EPA visited the site and sampled on June 6, 
2001. Lab personnel collected samples from several mine sites and 
different ore deposits, from the processor, waste ``slime,'' and 
finished product. No measurable levels of asbestos fibers were detected 
in the samples. Superfund has determined that no further program action 
is warranted.
    With respect to non-vermiculite mines and industries, OSWER is 
working with MSHA, OSHA, NIOSH, ATSDR, CPSC, US Geological Survey, 
states, and other partners to explore the potential universe of mining 
and mine-related sites with asbestos contamination.
    (C) EPA has relied on transmission electron microscopy for these 
tests as recommended in the EPA Inspector General's report. In a 
guidance memo from July 2000, OERR established a national protocol to 
analyze bulk samples for asbestos using a combination of Polarized 
Light Microscopy (PLM) and Transmission Electron Microscopy (TEM). In 
addition, OSWER has audited the labs which are performing these 
evaluations to ensure consistency and reliability of analytical 
results.
    (2) In a June 28, 2001 memo from you to EPA Inspector General Nikki 
Tinsley, you wrote that EPA will develop an Action Plan For determining 
a need for a NESHAP for contaminated asbestos. Has that Action Plan 
been finalized? Does EPA still believe the Action Plan will be 
completed by January of 2002?
    EPA's Office of Air Quality Planning and Standards (OAQPS) is 
currently developing the asbestos NESHAP Action Plan. EPA still expects 
the asbestos NESHAP Action Plan will be completed by January of 2002. 
We will be glad to meet with you to discuss any questions you may have 
regarding the Action Plan.
    (3) EPA participated in an Asbestos Health Effects Conference in 
May of this year. Can EPA please summarize some of the key findings 
that came out of this conference?
    In May of 2001, EPA organized an international asbestos health 
effects conference, along with co-sponsors from the National Institute 
of Occupational Safety and Health (NIOSH), Agency for Toxic Substances 
and Disease Registry (ATSDR), Mining Safety and Health Administration 
(MSHA), and California EPA. The conference was organized to review the 
state of the science on asbestos health effects and served as the first 
step in EPA's update of our toxicity assessment for asbestos. A number 
of discussions at the conference focused on the importance of asbestos 
fiber dimensions and fiber type in relationship to asbestos-related 
disease.
    EPA will use information gathered at the conference to update the 
Agency's asbestos toxicity assessment. As a first step in this process, 
EPA currently is updating the cancer risk assessment methodology for 
asbestos. This draft risk updated assessment methodology will be 
submitted for independent external peer review in 2002. We will be glad 
to meet with you to discuss any specific questions you may have about 
the conference or the update of EPA's toxicity assessment for asbestos.
    (4) Are the other nine regions of EPA taking full advantage of the 
expertise on contaminant asbestos that Region 8 has developed because 
of its work on Libby? If so, how?
    Starting in January, 2000, EPA HQ began to plan, coordinate, and 
conduct bi-weekly meetings for this project. Invitations were sent to 
all EPA Regions, representatives of EPA program offices, and other 
parties to ensure thorough sharing of information and experience. This 
coordination effort included guidance documents to the Regions on 
national standards for site identification, assessment, and priority-
setting; sample collection and analysis; and other relevant issues.
    As we gathered additional information on the asbestos contamination 
in Libby, related processing facilities and likely contaminated areas, 
EPA HQ made certain that the information was shared with all of our 
collaborators and partners in for appropriate follow-up. In addition, 
EPA organized an international asbestos health effects conference to 
review the state of the science on asbestos (see response to third 
question, above).
    (5) The Committee has concerns that the inspections EPA has 
undertaken so far are too limited In particular, the \1/4\ mile radius 
in which EPA is currently undertaking inspections could be increased to 
a radius such that all contaminated areas are included Please let the 
Committee know if EPA will agree to expand its inspections in this 
manner. If EPA does not agree to expand its inspections, please include 
in your response a detailed explanation of the Agency's reasons for 
declining to do so.
    EPA HQ is not aware of a specific \1/4\ mile radius limit to the 
inspections conducted as part of this effort. The Regions have 
collected bulk and soil samples in areas surrounding the facilities or 
in places where workers, residents or business records indicate that 
waste may be located. EPA does not believe that any EPA Region has 
failed to consider evidence of contamination which may be present more 
than \1/4\ mile from the facility under investigation.

          Response to Questions of Senator Wellstone From EPA

    1. I want to ensure continued aggressive efforts to clean up the 
areas in Minneapolis, Minnesota, that have been contaminated as a 
result of the operations of the Western Mineral products plant located 
at 1720 Madison Street. Do I have your assurances that EPA will 
continue its work until all contaminated properties are cleaned up?
    Yes. EPA has been working closely with the State of Minnesota to 
address all contaminated properties associated with the Western Mineral 
Products Plant at 1720 Madison Street in Minneapolis. This work is 
projected to continue for at least the next fiscal year. In addition, 
EPA understands that ATSDR and the State plan to evaluate the potential 
health impacts of this contamination on the residents and former 
workers at this facility.
    2. The Committee has reviewed information indicating EPA originally 
investigated 61 sites in Region 5 for contamination from Libby 
vermiculite, but EPA determined only the Western Minerals site requires 
further action. Is EPA aware of any other sites in Minnesota that 
should be investigated for asbestos exposure from the Libby vermiculite 
mine or from elsewhere? If so, please let me know where these sites are 
and what EPA's proposed course of action with respect to these sites 
will be. Are there any sites in Minnesota that have been called to 
EPA's attention as possibly at risk of asbestos contamination, but 
which EPA has declined to investigate? If so, please supply the 
location of these sites and EPA's reasons for declining to investigate.
    In December 1999, EPA Region 8 notified EPA HQ of concerns about 
asbestos contamination in the vermiculite ore from Libby, Montana. EPA 
HQ began a process to identify exfoliators and other facilities which 
used vermiculite ore. EPA gathered data from the US Geological Survey 
(USGS), Bureau of Mines, W.R. Grace, and other sources. Regional 
investigation narrowed the possible list and corrected the errors in 
this data until we were able to complete a national list of 244 
potentially contaminated facilities.
    EPA has identified 61 sites in Region 5 which processed or used 
vermiculite ore. Following an initial review of these sites, EPA 
determined that 14 of the 61 sites warranted collection of asbestos 
samples. After reviewing the sampling results, EPA determined that 10 
of the 14 sites did not require further action. Three of the 14 sites 
are still under investigation, and one of the 14 sites is currently 
undergoing a response action (Western Minerals).
    A total of 13 out of the 61 sites in Region 5 are located in 
Minnesota. Region 5 took samples at 3 of these (B.F. Nelson, Western 
Minerals, and Certain Teed/Diversified Insulated.) EPA is not aware of 
any vermiculite processing facility in Region 5 or Minnesota with a 
high likelihood of asbestos contamination which EPA has declined to 
investigate.
                                 ______
                                 
                                                   August 14, 2001.
Sen. Patty Murray,
Senate Health, Education, Labor and Pensions Committee,
U.S. Senate, Washington, DC.
    Dear Senator Murray: I am enclosing the following statement for 
inclusion in the record of the hearing on asbestos and asbestos 
contaminated products held on July 31, 2001.
    My name is Mary Gazaille. My husband, Donald, and I live at 13124 
Louisa Road, Louisa, Virginia, across from the vermiculite mining site. 
We have researched the matter and have studied documentation regarding 
the asbestos contamination of Virginia Vermiculite and are concerned 
about this exposure to air-borne asbestos and wanted reassurance that 
our family was in no danger.
    Some time last year, EPA employees came to test our property for 
asbestos contamination. We were later told that their results indicated 
that there was none present although very little detail was given to 
us. We were not satisfied with this inspection because it was clear 
that their testing of our property was inadequate.
    Despite my protests to these inspectors that our home had just been 
remodeled on the interior and that the windows were kept sealed at all 
times because of the heat/air conditioning system, they took most of 
their samples from inside our house. This included from the top of a 
brand new refrigerator, a freshly painted bedroom and so on. We 
explained to them that the likely place where they would find asbestos 
dust blowing from across the street would be on the exterior of our 
property, including the driveway, out-buildings and such. For reasons 
that we cannot understand, they refused to take any samples from the 
areas where they would have obtained meaningful results. We also asked 
them to set up an air monitoring device in our field across from the 
mine to capture the dust that was spreading from the mining operation 
to our property, and from the trucks on the road to our property. Again 
they refused. I have spoken with some of my neighbors and find that 
they experienced the same disinterest in doing any meaningful 
investigation on these properties. We have since read accounts in the 
press promoted by Virginia vermiculite that the area around the mine 
and the adjacent property owners are ``safe''. This is extremely 
misleading and I feel that it is important for you to know the truth 
about what happened.
    In addition, although we asked EPA for a detailed report on their 
studies of the area, none has been forthcoming.
    It was the impression of my husband and myself that they were more 
interested in not finding any asbestos dust than in actually finding it 
and protecting the public health.
    Thank you very much for including this in the record.
            Very truly yours,
                                                     Mary Gazaille.
                                 ______
                                 

  Response to Questions of Senators Kennedy and Murray From David D. 
                                Lauriski

    1. In your testimony, you said MSHA has taken samples at all 
existing vermiculite, taconite, talc and other mines to determine if 
asbestos is present and at what levels, which has meant almost 900 
samples at more then 40 operations. Did you find asbestos 
concentrations above MSHA's standard at any of these operations? If so, 
which ones and what are you doing to protect miners? What type of 
technology did you use to measure the samples? Was it the most powerful 
technology, TEM? Did you find concentrations of asbestos below MSHAs 
standard but above OSHA's stricter standard of 0.1 fiber per cubic 
centimeter? If so, what are you doing at these mines to protect workers 
in the interim, or will miners have to wait until MSHA lowers its 
standard to be protected at the level OSHA deems appropriate?
    Response. To date, MSHA has not found actual asbestos 
concentrations above either the MSHA permissible exposure limit (PEL) 
or the OSHA PEL at the more than 40 operations where almost 900 
environmental samples were taken. I would note that MSHA is continuing 
to conduct sampling at mines known to have a potential for asbestos 
contamination.
    MSHA is using three methods to analyze its collected samples. The 
environmental samples are analyzed using the procedures of the National 
Institute for Occupational Safety and Health (NIOSH) Analytical Method 
7400A using Phase Contrast Microscopy (PCM). When air sample fiber 
results indicate a reading over the OSHA PEL, the filter membrane is 
re-analyzed to determine if the fibers are asbestos using the NIOSH 
Transmission Electron Microscopy (TEM) method 7402. To date, 
approximately 17 percent of the recent PCM fiber results have required 
further TEM analysis. However, as stated earlier, none of the TEM 
results have indicated an asbestos fiber result over the OSHA PEL.
    In addition to airborne fiber sampling, MSHA analyzed bulk ore 
samples using the U.S. Environmental Protection Agency (EPA) Polarized 
Light Microscopy (PLM) method ID 600/R-93/116. The bulk ore samples 
were visually inspected for fibrous material that potentially could be 
asbestiform. mineral. At several mines, the analysis of the bulk 
samples indicated the presence of asbestos; however, concurrent air 
sampling did not indicate overexposures.
    Whenever bulk sampling and/or analysis reveals the presence of 
asbestos, MSHA informs mine management and workers of its presence and 
the importance of compliance with MSHA standards (30 CFR 56/57.5001) 
designed to protect the miners from exposure to asbestos. Many 
operators already avoid or specifically remove any visible asbestos 
streaks or veins that they encounter while mining, MSHA reemphasizes 
the importance of this practice.
    2. Why didn't MSHA lower its standard for exposure to asbestos when 
OSHA lowered it in 1986 and 1994?
    Response. I was confirmed as Assistant Secretary in May 2001. 1 
cannot speak to the decisions made by my predecessors. However, I can 
assure you that we are committed to ensuring that miners' health is 
appropriately protected and are considering this matter with the 
highest level of attention.
    3. You indicate in your response to the I.G.'s [Inspector 
General's] report that you will be presented with options on a process 
to solicit input from affected stakeholders. Have you received those 
recommendations? Do you know how you are going to proceed? Do you have 
a time frame for achieving a resolution based upon these 
recommendations?
    Response. Yes, I have received these options. I will be meeting 
with other DOL personnel to determine the best course of action. I want 
to assure you that we will act as expeditiously as possible. In the 
interim, MSHA will continue to conduct sampling at mines known to have 
potential for asbestos, and will continue to analyze the sample to 
evaluate miner's exposure against both the MSHA and OSHA PELs.
    4. In 1989, MSHA issued a proposed rule to lower its standard from 
2 fibers per cubic centimeter to 0.2 fibers per cubic centimeter. Why 
wasn't this rule ever finalized?
    Response. I cannot comment on the decisions made by my 
predecessors. However, we are dedicated to the goal of miners' safety 
and health.
    5. Also in 1989, MSHA proposed rules to address take home 
contamination and exposure to asbestos. Why wasn't this rule ever 
promulgated?
    Response. Again, it would be inappropriate for me to speculate 
about decisions made by my predecessors. I can, however, express our 
strong interest in addressing this issue prospectively.
    6. You state in your testimony that the ``Libby experience is, of 
course troubling.'' How do you explain what happened there? How can you 
ensure this Committee that what happened in Libby won't happen again, 
or that it isn't currently happening right now in one of the many 
mining communities in this country? When you read the accounts of what 
happened in Libby, what was your reaction?
    Response. I was deeply troubled by the Libby story. My first 
concern is to make sure that mines today are protected from similar 
situations. We also want to do what we can to help the affected 
individuals and their families. MSHA has, along with other Agencies, 
met with members of the Libby community to understand and respond to 
their concerns. I, along with the Assistant Secretary for OSHA, have 
travelled to Libby to meet with community members personally.
    MSHA has already taken a number of steps to protect the health of 
today's miners who may be exposed to asbestos. We are sampling at all 
mines, and are having the samples analyzed for comparison with both the 
MSHA and OSHA PEL. Although MSHA does not have the authority to take 
enforcement actions based on the OSHA PEL, we are advising both mine 
operators and miners of the OSHA PEL, and recommending that they should 
strive to achieve that level. In addition, we are working with other 
involved Agencies to prevent any future occurrences.
    7. With respect to the permissible exposure limits (PEL) for 
asbestos, it is our understanding that MSHA's PEL is 2.0 fibers per 
cubic centimeter, while OSHA's PEL is 0.1 fiber per cubic centimeter. 
We also understand that, according to the recent I.G.'s report, between 
1978 and 1998 MSHA took more than 160 samples at the Libby, Montana 
vermiculite mine, only two of which exceeded a threshold of 2.5 fibers 
per cubic centimeter. Yet we believe that nearly 200 people in Libby, 
Montana have died from asbestos-related disease. Does this not suggest 
to you the current MSHA PEL for asbestos fails to protect miners, their 
families, and other member of the community from asbestos-related 
disease? Will MSHA be proposing a rule to lower the asbestos PEL?
    Response. Asbestos related lung disease can take decades to 
develop. Before MSHA's 2.0 fiber standard took effect in 1978, miners 
in Libby were exposed to much higher concentrations of asbestos, as 
indicated by sampling records--over 100 fibers per cubic inch in some 
instances. Some miners almost certainly received additional exposures 
outside the mine as did others in the community. All of these exposures 
undoubtedly have contributed to the high incidence of lung disease. The 
2.0 fiber standard is more protective than what came before. However, 
the scientific community and MSHA recognize that individuals exposed to 
2 f/cc are at greater risk of developing asbestos related disease than 
those exposed to lower levels. MSHA data indicate that current mining 
exposures are far below the regulation level of 2 f/cc. As we study the 
factors involved in the Libby experience, MSHA will integrate the 
findings into any future rulemaking activities. In the interim, 
however, we will continue to analyze samples, evaluating against both 
the MSHA and OSHA PELs.
    8. We also have serious concerns about the issue of advance notice 
of inspections to mine operators. Such advance notice is prohibited 
under Section 103(a) of the Mine Act. And it seems evident that such 
advance notice--or even miners' perception that operators are being 
given advance notice--threatens to undermine MSHA's integrity. We 
assume you agree that this is a serious problem. You indicated that you 
will do an annual reminder to enforcement personnel about this 
prohibition. How will you follow up to know whether inspectors are 
adhering to this requirement? Do you have any benchmarks that you will 
be using to determine whether your directive--and the law--are being 
obeyed? Do you intend to send this annual reminder for coal as well as 
metal/nonmetal mine personnel?
    Response. First, I must state for the record that the Agency has 
not found evidence that inspectors are giving advance notice. We take 
such allegations seriously and promptly conduct an investigation. Even 
the perception some miners may have regarding this issue impacts our 
overall effectiveness.
    We are committed to upholding the Mine Act. MSHA will issue an 
annual reminder to both coal and metal and nonmetal enforcement 
personnel to renew and ensure our commitment to the requirements of the 
Mine Act. Our supervisors and managers oversee the activities of our 
inspectors, which includes accompanying them on their inspections, and 
monitoring comments from industry and labor. With improved 
communication between MSHA and its stakeholders, violations of this 
kind would be quickly detected.
    9. As you reflect on the situation in Libby, Montana, or the 
situation in the Virginia Vermiculite mine that Mr. David Pinter has 
testified about, if you were the mine operator, and the core drilling 
showed the presence of tremolite asbestos on the property, what actions 
would you take to protect the miners who work there?
    Response. We believe that it is critical for mine operators to 
ensure that the miners at their operations are aware of the hazards of 
asbestos, their location at the mine, and the measures to take to avoid 
exposure. Some of the most effective methods to control airborne 
asbestos include the use of water to suppress dust and the use of air 
conditioned equipment cabs, and enclosures to separate miners from 
dusty environments. MSHA currently requires protective equipment/
clothing to be provided to miners where hazards, such as asbestos, are 
present, and visible delineation (posting) of areas that contain 
asbestos.
    MSHA developed an asbestos information card, which our inspectors 
provide to miners and mine operators. In addition, we have directed our 
inspectors to encourage operators to lower exposures consistent with 
the OSHA PEL.
    10. Does MSHA have regulations or requirements for mine operators 
to follow if core drilling identifies the presence of asbestiform 
minerals?
    Response. In addition to our concentration limit for asbestos, MSHA 
has performance-oriented regulations which are triggered by the 
presence of a hazard in the workplace, regardless of whether or not a 
specified limit is exceeded. Title 30 CFR 56/57.15006 requires the mine 
operator to provide protective equipment and clothing when certain 
hazards are present. Title 30 CFR 56/57.20011 requires operators to 
barricade or post warning signs with appropriate information at all 
approaches to areas where health or safety hazards exist that are not 
immediately obvious to employees.
    11. Does MSHA have access to core drilling records (kept by mine 
operators) to ensure that miners are informed about asbestos hazards in 
the ore? if not, should MSHA be given this access? If you do not agree 
that MSHA should be given this access, please explain.
    Response. MSHA does not have access to the mine operator's core 
drilling results. However, when the presence of asbestos at the mine is 
suspected, MSHA inspectors take bulk samples of the material which are 
sent to a laboratory for analysis. These samples are analyzed and 
concurrent air sampling is conducted. This process is explained more 
fully in the response to question 1.
    12. How many miners in the U.S. are potentially exposed to 
asbestiform minerals through the mining process?
    Response. As of June 2001 there were more than 8,000 miners working 
at mines that produce asbestos, taconite (iron ore), talc and 
vermiculite. These operations have the highest potential for the 
occurrence of asbestiform minerals. However, since the spring of 2000 
we have not found any actual overexposures, according to either the 
MSHA or the OSHA PEL.
    13. In the last two years, how many mining operations has MSHA 
sampled for asbestos exposure?
    Response. In the last two years, MSHA has conducted 205 inspections 
at 170 mining facilities during which samples for asbestos analysis 
were collected. These include MSHA's regular sampling activities as 
well as those conducted during the special emphasis program initiated 
in the spring of 2000. This is several times more than was done in the 
two years preceding our awareness of the situation in Libby.
    14. If a mine is found to have an overexposure to asbestos under 
MSHA's current standard, what is the monetary penalty against the mine?
    Response. The Federal Mine Safety and Health Act of 1977 (Mine Act) 
contains six criteria to be used in determining civil penalty amounts. 
These criteria include:
    <bullet> The operator's history of previous violations;
    <bullet> The appropriateness of the penalty to the size of the 
business;
    <bullet> Whether the operator was negligent;
    <bullet> The effect on the operator's ability to continue in 
business; and
    <bullet> The gravity of the violation and the operator's 
demonstrated good faith in attempting to achieve rapid compliance after 
notification of a violation.
    These criteria are used in developing penalty amounts based on the 
regular assessments process described in Title 30 CFR Part 100. Those 
regulations also outline MSHA's single penalty assessment criteria and 
the special assessment criteria and procedures. The Mine Act's criteria 
and MSHA's implementing regulations are designed to arrive at a 
proposed civil penalty that serves as a deterrent, but also is specific 
to the operation.
    15. Where does MSHA send its samples for asbestos analysis? How 
much does it cost and how long does it take to get results back?
    Response. MSHA in past years has contracted with several different 
laboratories for asbestos analysis. MSHA currently sends its asbestos 
samples to Reservoir Environmental Services, Inc. 2059 Bryant Street, 
Denver, CO 80211. The cost for a bulk sample is $12 each for Polarized 
Light Microscopy analysis and $50 each for TEM analysis. The cost of 
Phase Contrast Microscopy (PCM) for air samples is currently $10 and 
their TEM analysis is $60. MSHA has been working with the current 
contractor to determine if the turn around time can be improved. If 
this is not possible, MSHA will use other laboratories.
    16. EPA staff working on the Libby situation have gained tremendous 
expertise over the last 2 years. How will MSHA coordinate with EPA 
staff to utilize their expertise about asbestiform minerals at the 
mining operations?
    Response. MSHA has worked closely with EPA on this important issue. 
Last year EPA and MSHA staff met with members of the Libby community to 
address their concerns. Later we sponsored an Asbestos Health Effects 
Conference in May 2001 along with EPA, NIOSH and the Agency for Toxic 
Substances and Disease Registry, to discuss the current status and 
needs for research on this topic. MSHA staff met with other agencies 
following the May meeting. In all sessions, there is a free and open 
exchange of information. In addition, there is a standing committee of 
OSHA, NIOSH, EPA, and MSHA (the OMNE Committee) which meets at least 
quarterly to discuss areas of common interest. Asbestos is often a 
discussion topic at these meetings. MSHA will continue this cooperative 
interchange with EPA and other agencies.
                                 ______
                                 
        Department of Health and Human Services, Public 
            Health Service,
            
                                  Washington, DC, October 17, 2001.
Hon. Edward M. Kennedy,
Chairman, Committee on Health, Education, Labor and Pensions, U.S. 
        Senate, Washington, DC.
Hon. Patty Murray,
Committee on Health, Education, Labor and Pensions, U.S. Senate, 
        Washington, DC.
    Dear Senators Kennedy and Murray. Thank you for providing the 
National Institute for Occupational Safety and Health (NIOSH) the 
opportunity to testify on matters of workplace safety and asbestos 
contamination at the hearing of the Senate Committee on Health, 
Education, Labor and Pensions on July 31, 2001. We are pleased to 
respond to the follow-up questions posed in your letter of August 8, 
2001, as listed below. I understand that the questions you included 
from Senator Paul Wellstone are being addressed separately by the 
Department of Health and Human Services and the Agency for Toxic 
Substances and Disease Registry.
    1. In your testimony, you said that in 1991, NIOSH estimated that 
nearly 700, 000 workers in general industry remained potentially 
exposed to asbestos, not including mining, railroad work, agriculture 
and several other industry sectors. Does this estimate include 
mechanics?
    Response. This estimate includes mechanics who worked in general 
industry, but not those who worked in mining and agriculture. The 
general industry category does include the retail trade and service 
sectors, so the estimate would include auto mechanics working at 
dealerships and repair shops. Our estimate is based on data NIOSH 
developed as part of our National Occupational Exposure Survey (NOES) 
conducted early in the 1980s. The NOES assessed patterns of use and 
exposure for general industry but excluded large segments of some 
significant sectors, such as mining and agriculture. To derive the 1990 
estimate of 700,000 workers potentially exposed to asbestos, we used 
the 1980s asbestos use patterns from NOES and multiplied that fraction 
by the 1990s employment statistics for the covered industrial sectors. 
Thus, mechanics in the industrial sectors not included in the NOES were 
not included in our estimate. A new patterns-of-use survey similar to 
the NOES would be needed to develop a more accurate current assessment 
of the number of mechanics and other workers potentially exposed to 
asbestos.
    2. NIOSH also stated that the average number of samples taken by 
federal occupational safety and health inspectors declined by about 50 
percent between 1987 and 1996. Why did the number of inspections go 
down?
    Response. The number of samples recorded and reported in 
centralized databases to which we have access declined over the period 
1987 to 1996. This does not necessarily mean that the number of 
inspections defined. As noted in our testimony, not all samples 
collected by OSHA are reported into the canalized databases. The 
decline we reported is based on the number of samples collected and 
reported by OSHA inspectors, and does not necessarily equate to the 
number of inspections that were carried out.
    3. In your testimony, you said much of the vermiculite from Libby 
appears to have been contaminated with asbestiform minerals which are 
not currently regulated. Doesn't this suggest that perhaps the federal 
government should expand its definition of asbestos to include these 
other minerals?
    Response. The dust particles to which workers were exposed at the 
mine in Libby, Montana, included both fibrous minerals that meet the 
current regulatory definition of asbestos and others that do not. In 
our study. From the 1980s we observed significant excesses of asbestos-
related diseases in this exposed workforce. Because the exposure was to 
a complex mixture of fibers, including some that meet the regulatory 
definition of asbestos, it is not possible to attribute the cause of 
disease to any one particular fiber type. In such mixed fiber exposure 
settings, public health prudence suggests that workers may be best 
protected if exposures to all of these fiber types were reduced. 
Further discussion regarding the definition of asbestos is included in 
our response to Question 5, below.
    4. NIOSH is currently conducting asbestos exposure assessments at 
vermiculite expansion plants and a number of horticultural sites. Does 
NIOSH have any test results back from this field sampling? If so, what 
are the findings? If not, when does NIOSH expect to have these results?
    Response. At present, there are no test results to report from our 
investigations at expansion plants and horticultural sites. The field 
sampling efforts are continuing and are expected to be completed by the 
end of calendar year 2001. NIOSH will prepare and disseminate reports 
of findings after laboratory results are completed and analyzed.
    5. In your testimony, you indicated NIOSH considers ``cleavage 
fragments'' within its definition of ``asbestos.'' Shouldn't, MSHA, 
OSHA and EPA do the same?
    Response. NIOSH has presented testimony to the Department of Labor 
(OSHA) that recommends including in fiber counts the cleavage fragments 
from the nonasbestos form (massive) habits of the six regulated 
asbestos minerals and other minerals in the same solid-solution series 
when they meet the shape and size criteria for being a fiber. NIOSH has 
provided the EPA with similar recommendations.
    6. Is NIOSH currently conducting any epidemiological studies of 
people exposed to naturally occurring or manufactured fibers? Does 
NIOSH have plans to conduct these studies, and if so, when will they 
begin and when will results be available?
    Response. NIOSH is conducting updates and re-analyses of the 
mortality experience of workers from the former Libby, Montana, 
facility and of workers at a textile plant that used chrysotile 
asbestos to produce textiles in South Carolina. In addition to adding 
more years of follow-up to these studies, NIOSH is attempting to 
improve its estimates of fiber exposures at these facilities using 
electron microscopy. The primary objective of these analyses is to seek 
a better understanding of how fiber characteristics (e.g., dimension 
and fiber type) influence the risk of respiratory cancer and non-
malignant respiratory diseases. Another objective is to determine the 
impact of short-duration exposures among workers who were only 
transiently exposed at the plants. Both of these studies were recently 
initiated, and results are not expected for at least two years.
    7. Does NIOSH currently have any plans to conduct research to 
better determine physical and or chemical characteristics affecting 
toxicity of asbestiform minerals?
    Response. The epidemiologic studies described above should provide 
a better understanding of fiber characteristics, that affect toxicity. 
Also, NIOSH has been conducting animal exposure studies to evaluate 
short-term response to length-classified fibers. Most of this work is 
completed, and publication of findings is anticipated in the near 
future.
    8. Is NIOSH currently considering additional work to improve and 
standardize the methods for asbestos fiber measurement? If so, what is 
the status of this work and when will it be completed?
    Response. There is no current research activity underway at NIOSH 
for changing the methods for asbestos fiber measurement. Some promising 
work currently is going on in Japan to develop an image analysis 
system. NIOSH is preparing to re-analyze samples from the South 
Carolina textile cohorts using transmission electron microscopy (TEM) 
to better define the exposures at these locations using more sensitive 
methods than the optical microscopy techniques used when the original 
epidemiology studies were done. This information will help determine 
which fiber indices predict disease in workers.
    9. To follow-up on the last sentence of your testimony, do you 
think MSIHA's and/or OSHA's exposure limits need to be lowered? Does 
the federal government's definition of asbestos need to be expanded to 
ensure better protection for workers and consumers? Should asbestos be 
banned altogether?
    Response. In prior testimony to the DOL, NIOSH urged that the goal 
be to eliminate exposures to asbestos fibers or, where they cannot be 
eliminated, to limit them to the lowest possible concentration. With 
regard to exposure limits, the NIOSH Recommended Exposure Limit (REL) 
is 0.1 f/cm\3\, a limit based on the lowest level that can currently be 
detected in air. We have in the past recommended a single exposure 
limit of 0.1 f/cm\3\ applicable to all workers.
    More than a decade ago, NIOSH broadened its definition of asbestos 
and recommended that DOL revise the asbestos regulations to do the 
same. The NIOSH definition includes additional mineral fibers beyond 
the six traditionally specified as asbestos. In assessing asbestos 
exposures, NIOSH also recommends counting cleavage fragments that meet 
dimensional criteria as fibers.
    In response to your question regarding a ban, occupational safety 
and health practice is based on a hierarchy of controls, and 
substitution is at the top of the hierarchy. It is an important option 
for prevention. NIOSH recommendations often address substitution where 
feasible, and NIOSH has in the past recommended this approach for 
asbestos. Since the OSH Act authorizes OSHA to establish feasible 
exposure levels, but does not specifically authorize an outright ban of 
any particular substance from the workplace, NIOSH has focused its 
asbestos recommendations to DOL on control of hazards to workers.
    The greatest current risk of asbestos related disease for U.S. 
workers is likely to come from exposure to respirable fibers in 
uncontrolled maintenance, repair, or demolition of structures or 
products where asbestos is already in place. Similarly, exposure to 
naturally-occurring forms of asbestos materials will continue to pose a 
problem in mining and other mineral-extraction or tunneling activities. 
This risk will remain whether or not there is a ban on future use.
    While additional information about asbestos exposure is being 
gathered, we believe reducing or eliminating known asbestos exposures 
is the best way to protect worker and public health.
    Once again, I appreciate the opportunity to address your questions 
concerning this important public health matter. NIOSH remains committed 
to protecting the life and health of every U.S. worker. Should you have 
further questions, please do not hesitate to contact me.
            Sincerely yours,
                                       R. DeLon Hull, Ph.D.
                                 Acting Deputy Director for Program
                                 ______
                                 
          the facts about scotts, w.r. grace, and vermiculite
    <bullet> Scotts consistently provided a safe workplace that met or 
exceeded OSHA and EPA standards. The company strictly complied with all 
government regulations and relied on OSHA standards to determine 
workplace safety.
    <bullet> For many years, W.R. Grace apparently knew that the 
vermiculite it was supplying to Scotts from its Libby, Montana mine was 
contaminated with asbestos and intentionally failed to inform its 
customers, including Scotts, until the advent of OSHA regulations in 
the early 1970's. (See 7/9/01 New York Times article about efforts of 
W.R. Grace to hide asbestos contamination.)
    <bullet> Once it became clear to Scotts that there were potential 
health problems associated with the vermiculite supplied by W.R. Grace, 
it acted prudently and responsibly to protect its workers.
    Early 1970's--The Company immediately and voluntarily began a 
comprehensive air-monitoring program and significantly upgraded the 
dust collection systems at its Marysville facility to ensure worker 
safety.
    Mid 1970's--Scotts voluntarily implemented an annual physical 
program that included chest x-rays, and pulmonary function tests for 
associates at the Marysville facility.
    Mid 1970's--Scotts initiated a series of well-documented worker 
communications to keep associates informed of issues related to 
asbestos-contaminated vermiculite. The Company maintained frequent 
communication with its associates on the subject over the next decade.
    1978--Despite the fact that dozens of companies were using 
vermiculite, Scotts was the first and only company to contact the EPA 
and OSHA when three associates' lung problems worsened and another 
became sick. It did so on a completely voluntary basis. Scotts informed 
the regulators that there may be a possible connection between its sick 
workers and asbestos-contaminated vermiculite--despite no scientific 
connection at that point.
    1980--Scotts voluntarily stopped accepting ore from the Libby mine, 
even though it was still on the market, met EPA standards, and was used 
by W.R. Grace in its own products. (The New York Times 7/9/01 article 
on Grace's efforts to hide asbestos contamination says, in reference to 
Scotts: ``[In 1980] The company insisted on switching to vermiculite 
that Grace mined in South Carolina, which was apparently 
uncontaminated.'' Grace did not close the Libby mine until ten years 
later, in 1990.
    1980--Scotts required its new vermiculite vendors to certify that 
ore shipped to its facilities was free from contamination. Grace 
continued to sell the Libby ore and utilize ore in its own products for 
another decade.
    <bullet> Scotts has been widely acknowledged by the EPA and OSHA 
and applauded in private reports as the catalyst for alerting the 
government to the problems with vermiculite which led to numerous 
investigations into the ore in the late 1970's and the 1980's. These 
investigations culminated in 1980 EPA draft regulations. While these 
regulations were never implemented, Scotts was commended by the EPA in 
1980 for its actions.
    <bullet> There is an important distinction between workplace 
hazards and product hazards. Scotts has regularly tested its products 
for safety. All Scotts products have been and continue to be asbestos-
free and safe for customers. According to the EPA, Scotts' and other 
gardening companies' products ``do not pose significant health risks.'' 
All Scotts products are safe for sale and use in the marketplace.
    <bullet> Scotts stopped using contaminated ore from the Libby mine 
in 1980. Vermiculite was purchased after 1980 from other sources and 
was certified by suppliers as asbestos-free. Scotts also regularly 
tested for asbestos. During the 1980's and 1990's, Scotts began to 
reduce its reliance on asbestos-free vermiculite as better alternatives 
became available that were more environmentally friendly. By 1998, 
Scotts had eliminated 75% of its asbestos-free vermiculite usage. 
Today, asbestosfree vermiculite is used by Scotts only in a few 
professional gardening products.

     Response to Questions of Senator Kennedy From John L. Henshaw

    1. Has OSHA considered lowering its standard below the current 
level of .1 fibers per cubic centimeter?
    In 1994, OSHA lowered the Agency's standard for asbestos to the 
lowest feasible level, 0.1 fibers per cubic centimeter as an 8-hour 
time-weighted average over the working day. The Agency also added a 
short-term excursion limit of 1 fiber per cubic centimeter averaged 
over a 30-minute period, and added several ancillary provisions that 
the Agency found would lower employee exposures even further. However, 
the extent to which these ancillary provisions would lower exposures 
below the Permissible Exposure Limits (PELs) could not be 
quantitatively measured. Thus, OSHA's PELs for asbestos are constrained 
by feasibility, which means that the regulated community is not 
technologically and economically able to meet a lower PEL. Even so, 
OSHA's PELs for all forms of asbestos remain the lowest in the world.
    2. What technology does OSHA rely on to measure asbestos fibers? Is 
it Transmission Electron Microscopy?
    No, OSHA does not rely on Transmission Electron Microscopy (TEM). 
OSHA uses Phase Contrast Microscopy (PCM) (because it is inexpensive 
and it measures the asbestos concentration in the same way that was 
used in the development of a risk assessment model for asbestos 
Permissible Exposure Limit (PEL). OSHA used scientific data of health 
effects, including death and disease, that was based entirely on light 
microscopy, largely Phase Contrast Microscopy (PCM). It was the only 
reliable data available at the time and remains so because adequate 
studies relating health effects to exposures measured by TEM have not 
been done. However, the Agency may use TEM to identify fibers if there 
is a question whether or not the fibers are asbestos.
    3. How does OSHA ensure compliance with existing regulations at the 
thousands of auto body shops throughout the country where mechanics are 
working on brakes that may contain asbestos?
    OSHA ensures compliance by enforcing the General Industry Standard 
(29 CFR 1010.100 1) Construction Industry Standard (29 CFR 1926.1101) 
and Shipyards Standard (29 CFR 1915.1001) through its inspection 
program. These standards require employers to ensure that employee 
exposures do not exceed 0.1 fibers/cubic centimeter of air (f/cc) as an 
eight-hour, time-weighted average (TWA). In addition, OSHA has set 
mandatory Work Practices and Engineering Controls for Automotive Brake 
and Clutch Inspection, Disassembly, Repair and Assembly. These 
requirements apply when any brake work is done, regardless of the 
exposure levels. OSHA estimated that compliance with these mandatory 
work practices and engineering controls will result in the average 
asbestos exposure to be 0.003 fibers/cc.
    Inspections are conducted in response to complaints from employees, 
or as a result of referrals from other sources such as, but not limited 
to, law enforcement and the news media. OSHA also targets 
establishments for inspection through its site specific targeting 
program, National Emphasis Programs, and Local Emphasis Programs. While 
these targeting programs do not focus specifically on asbestos, any 
potential asbestos exposure in a workplace is investigated and 
evaluated as part of these inspections
    4. OSHA currently only regulates six forms of asbestos. Does OSHA 
believe current science warrants expanding or changing its authority to 
cover minerals which may also pose health threats but do not meet the 
strict definition of asbestos?
    Under the OSH Act, OSHA has the authority to regulate occupational 
exposure to hazardous substances that pose a significant risk of 
material impairment of health if there are technologically and 
economically feasible ways for employers to provide protection from 
these risks. In 1992 (57 FR 24310), OSHA made a determination that the 
scientific evidence did not support the regulation of non-asbestiform 
minerals of the type referred to in your question. OSHA does not 
believe that the science available at this time warrants initiation of 
Sec. 6(b)(5) rule making to address these substances. However, the 
Agency continues to closely monitor new scientific findings on these 
substances closely while also actively participating in research and 
review of the evidence conducted by Federal, national and international 
scientific organizations (such as the National Institute for 
Occupational Safety and Health, the National Toxicology Program and the 
International Agency for Research on Cancer).
    5. How does OSHA, as the primary organization responsible for 
protecting worker safety, explain what happened in Libby, Montana?
    The Occupational Safety and Health Act of 1970 provides the 
Secretary with authority over all working conditions of employees 
except those conditions with respect to which other Federal agencies 
exercise statutory authority to prescribe or enforce regulations 
affecting occupational safety and health. The Secretary has delegated 
this authority to OSHA.
    The Federal Mine Safety and Health Act of 1977 provides the 
Secretary of Labor with authority over all working conditions of 
employees engaged in underground and surface mining as well as related 
operations such as milling. The Secretary has delegated this authority 
to the Mine Safety and Health Administration (MSHA). A Memorandum of 
Understanding between MSHA and OSHA, concluded in 1979, details the 
respective jurisdictions of the two agencies. The general principle is 
that on mine sites and milling operations, DOL will apply provisions of 
the Federal Mine Safety and Health Act. Whenever the mining law does 
not cover hazards at mill or mine sites (e.g. hospitals on mining 
sites), or where there are no existing MSHA standards, the OSH Act will 
apply. Thus, OSHA is generally precluded from enforcing its regulations 
in workplaces such as the mine at Libby, Montana.
    6. In Mr. Layne's testimony, he stated that since October 1995, 
OSHA cited employers for violations of its asbestos standards 15,691 
times. What percentage is this of the total number of inspections? Does 
OSHA consider this to be an acceptable level of noncompliance?
    From Fiscal Year 1996 through Fiscal Year 2001 (Oct. 2000-June 
2001), OSHA conducted 190,971 total inspections. These inspections 
generated 427,786 total violations. Of those totals, 3000 inspections 
and 15,691 violations involved asbestos. Therefore, approximately 2% of 
inspections and 4% of violations were asbestos related.
    OSHA does not consider any level to be an acceptable noncompliance 
level. We strive for 100% compliance.
                                 ______
                                 
                            Office of the Governor,
                                          State of Montana,
                                          Helena, MT, July 2, 2001.
Christine Todd Whitman,
 Administrator, Environmental Protection Agency, Washington, DC.
    Dear Administrator Whitman: I understand that the Environmental 
Protection Agency is considering placing the town of Libby, Montana on 
the Superfund National Priorities List (NPL). I am writing to ask for 
your assistance in providing me with additional information that is 
needed to evaluate the best course of action for the town.
    First, before we even discuss designation of Libby as an NPL site, 
it is essential that I understand the scientific basis for such a 
decision. I would like a briefing on the current federal rules that 
govern environmental measurement of and exposure to asbestos and its 
remediation so that the Libby situation can be assessed in the context 
of currently established federal practices. I need to be assured that 
those rules have been applied to Libby as they apply in other such 
situations across the country. In order to provide this information in 
a timely way, I would request that a senior staff member from EPA 
headquarters who has not been involved directly in the Libby matter 
brief me on these issues. I want to make sure I have an objective 
understanding of the Libby situation so that I can fairly advise and 
respond to the people in the community. It would be most useful if this 
briefing could take place as soon as possible.
    As a part of any briefing on the listing of Libby as a superfund 
site due to the asbestos problems, I would also like to be briefed on 
state obligations associated with such listing. I am concerned about 
the potential for Montana having to meet a 10 percent match requirement 
for expenses not recoverable from WR Grace. I also want to fully 
understand what Montana's long-term operations and maintenance 
obligations might be, should cost recovery from WR Grace not be 
possible.
    Second, after this review has been completed, and if indeed the 
available information confirms EPA's current assessment, I would 
request that you provide me with information about the implications of 
designating the town of Libby a Superfund NPL site. I understand that 
in the past the Environmental Protection Agency has designated 
communities, either municipalities or large residential areas, as 
priorities for Superfund cleanup, including such locations as Globe, 
Arizona and Times Beach, Missouri. In order that I might make a 
considered judgment and advise my constituents as to the best option to 
proceed with programs to protect their health and welfare, it would be 
useful to have an evaluation of past situations in which entire towns 
or large residential and/or commercial communities, or at least large 
segments of such areas, have been placed on the National Priorities 
List, I would like to understand better how the NPL designation may 
affect the value of real estate, including residential and commercial 
establishments, within the Superfund site area, and the ability to 
transfer or mortgage such properties. If the effects of listing an area 
on the NPL result in negative impacts like difficulty setting 
properties within the NPL area, reduction in fair market value of such 
properties and extra costs to protect buyers from potential Superfund 
liability. How long have such negative impacts lasted? Do communities 
so designated recover from these burdens associated with placement on 
the National Priorities List and, if so, how long does recovery take?
    Additionally, to the extent that property values are adversely 
affected by placement on the NPL, to what degree are homeowners and 
business people able to recover a reasonable fair market value for 
their properties if they choose to or are required to sell that 
property during the period in which cleanup is taking place? To what 
extent has the ability of home and business owners to refinance or take 
loans on their property been affected. If EPA puts a municipality or 
large commercial/residential area on the National Priorities List, is 
it authorized to purchase the homes and commercial establishments which 
are adversely affected thereby? At what price--pre-listing fair market 
value? And, if so, what is the history of the effect of that 
acquisition on the fair market value of those properties? Finally, in 
your view, if such actions are possible, are there sufficient resources 
in the Superfund program to acquire the homes and businesses in Libby, 
Montana?
    It is essential that I have as complete an understanding as 
possible of the federal rules regarding asbestos exposure and cleanup 
as well as the implications of placing a municipality or a large 
residential/commercial area on the National Priorities List in order to 
consult with your Agency in the decision-making process with respect to 
Libby. I would therefore greatly appreciate your responses to this 
inquiry as soon as possible so that I may factor them into my 
evaluation of the best course of action for the residents of Libby.
            Sincerely,
                                                Judy Martz,
                                                          Governor.
                                 ______
                                 
                                               U.S. Senate,
                                    Washington, DC, March 27, 2001.
Hon. James M. Jeffords,
Chairman, Committee on Health, Education, Labor, and Pensions, U.S. 
        Senate, Washington, DC.
Hon. Edward M. Kennedy,
Ranking Member, Committee on Health, Education, Labor, and Pensions, 
        U.S. Senate, Washington, DC.
    Dear Senators Jeffords and Kennedy: In February and March of this 
year, the Wall Street Journal ran two articles containing the 
incorrect, but widely held belief, that asbestos has been banned. 
However, as you may know, asbestos has not been banned. Asbestos is 
still used in the United States to manufacture roofing materials, 
automotive brakes, gaskets and other consumer products. According to 
the U.S. Geological Survey, in 1999 alone, the United States consumed 
15,000 metric tons of asbestos, mostly chrysotile from Canada. The fact 
that the Wall Street Journal would make this mistake twice in two 
months indicates the extent of this misperception about asbestos.
    Some of the confusion about asbestos may stem from the fact that in 
1989, the Environmental Protection Agency (EPA) promulgated regulations 
to implement a phased-in ban on asbestos in consumer products. The 
agency had been working on these rules for a decade, and the ban 
received a lot of attention. In 1991, the 5th Circuit Court of Appeals 
overturned EPA's regulations, and the Bush Administration did not 
appeal the decision. Unfortunately, most people are unaware of the 
Court of Appeals' decision and the resultant reversal of EPA's ban.
    There is considerable evidence suggesting many other consumer 
products contain asbestos as a contaminant of vermiculite, talc and 
taconite. Most infamous, perhaps, is Libby, Montana, where 192 people 
have died from exposure to asbestos from the vermiculite mine there, 
and 375 people are currently suffering from fatal diseases caused by 
this exposure. Last year, Senator Max Baucus (D-MT) held a hearing on 
Libby, Montana before the Senate Environment and Public Works 
Committee.
    This week, the Inspectors General of the EPA and Department of 
Labor are releasing their reports about why people in Libby were 
exposed to harmful concentrations of asbestos in vermiculite, despite 
many federal programs and requirements intended to protect miners, 
their families and residents. These reports also include specific 
recommendations, such as lowering the Mine Safety and Health 
Administration's (MSHA's) asbestos exposure limit for miners to meet 
the Occupational Safety and Health Administration's (OSHA's) standard, 
which is 20 times more stringent. I look forward to reviewing these 
reports as soon as they become available.
    The EPA is also investigating consumer products that contain 
vermiculite from Libby, such as Zonolite insulation and some lawn and 
garden products. The agency is concerned about workers exposed to 
asbestos-tainted vermiculite during manufacturing, as well as consumer 
exposure to these products.
    Recent test results indicate automobile mechanics are routinely 
exposed to unsafe concentrations of asbestos when they work on brakes. 
Last November, the Seattle Post-Intelligencer found asbestos 
concentrations ranging between 17 and 62 percent of dust collected from 
six out of seven gas stations visited in the Seattle. The newspaper 
found similar results in Boston and other major cities. The EPA and 
OSHA recommend specific work practices and engineering controls to 
protect mechanics from asbestos in brakes, but the Seattle P.I.'s 
investigation found these practices are rarely followed.
    We know exposure to asbestos causes asbestosis, mesothelioma and 
cancer. Disease caused by exposure to asbestos usually does not appear 
until decades later. I am very concerned American workers and 
consumers, most of whom believe asbestos was banned back in the 1980s, 
are still being unwittingly exposed to this deadly substance.
    I am writing to request that the Senate Committee on Health, 
Education, Labor and Pensions hold hearings on asbestos during the 
first session of the 107th Congress as part of our oversight 
responsibility on work place safety. I would like an update from 
federal agencies (EPA, OSHA, MSHA, and the National Institute for 
Occupational Safety and Health) on current efforts to protect workers 
and consumers from exposure to asbestos. I would also like to explore 
which materials are regulated and the health effects of non-regulated 
minerals similar to the six characterized as asbestos.
    I understand this is not a new issue. Decades after the dangers of 
asbestos were first identified, there are thousands of pages of federal 
and state regulations intended to protect people from amosite, 
chrysotile, crocidolite, tremolite, anthophyllite and actinolite. And 
we have made some progress because of these rules, regulations and 
programs. But these efforts failed the people of Libby, Montana, and it 
appears they are still failing some workers and consumers in the United 
States.
    We need to make sure governments have the resources necessary to 
implement regulations currently on the books. We need to further 
explore protecting people from exposure to airborne minerals which are 
not technically categorized as ``asbestos,'' but which look, function, 
and may be just as harmful as asbestos. We should also review our 
methodologies for defining, detecting and measuring asbestos to ensure 
consistency across agencies. Finally, I believe we need to revisit the 
question of banning asbestos in consumer products altogether.
    Thank you very much for your attention to this matter. Please feel 
free to contact me directly about this, or to have the appropriate 
staff person contact Ms. Anna Knudson, Legislative Assistant, by 
calling 202-224-2621. Thank you again.
            Sincerely,
                                              Patty Murray,
                                                      U.S. Senator.
                                 ______
                                 
        Building and Construction Trades Department, 
            American Federation of Labor--Congress of 
            Industrial Organizations,
            
                                     Washington, DC, July 31, 2000.
Hon. Edward M. Kennedy,
Committee on Health, Education, Labor and Pensions, U.S. Senate, Senate 
        Dirksen Office Building, Washington, DC.
    Dear Chairman Kennedy: On behalf of the more than 3 million workers 
represented by the national and international unions affiliated with 
the Building and Construction Trades Department, AFL-CIO, I am writing 
to you about the exposure of construction workers to asbestos and 
asbestos-contaminated construction materials. About 10,000 workers are 
expected to die in the United States each year for the next 10 years 
from asbestosis and cancers caused by past exposure to asbestos. Over 
25% of these deaths will be in construction.
    These past exposures were mostly due to the installation of 
asbestos-containing fireproofing, roofing and flooring materials, 
insulation (in pipes, ducts, boilers, attics), and cement pipe and 
cement sheet products. However, construction workers are still being 
exposed to asbestos today. The major problem is not due to installation 
of asbestos-containing products, but exposure to asbestos resulting 
from disturbing or removing asbestos that is already present in 
buildings. This is especially true of buildings built before 1980, but 
can also be true of later buildings containing insulation and other 
construction materials which were reformulated to contain vermiculite 
and other materials which are contaminated with asbestos.
    Construction workers continue to be exposed to asbestos because of 
mischaracterization, or total lack of characterization in structures 
that were built prior to 1980. Many times the wide variety of asbestos 
containing materials (ACM) are unknown to the individuals that plan the 
additions, modifications, or demolition of said structures. Sometimes 
ACM carries a non-asbestos label due to changes in threshold limit 
values that have taken place as a result of new information.
    A construction worker's exposure to asbestos can take place while 
he or she is doing a number of different jobs. Examples of different 
types of worker exposure are: renovating or demolishing old buildings, 
removing old insulation, repairing old boilers, removing old insulated 
ductwork, installing new wiring or repairing old wiring in attics or 
above drop ceilings and, when disturbing insulation and asbestos siding 
for renovation activities.
    The problem is that these construction workers often do not know 
when they are exposed to asbestos. Many workers have not received even 
basic training in asbestos awareness. They do not realize the wide 
range of products that can contain asbestos. Most have heard about the 
insulation/asbestos relationship, but they are unaware that this silent 
killer can be found in floor tile, shingles and siding, older wire 
covering, and sometimes even the mastic or tar that covers the roof. 
When untrained workers disturb this material it is spread through the 
air to many parts of the job site. Many undocumented workers are unable 
to address even this basic concern because they have no ``rights'' due 
to their undocumented status.
    It is not infrequent for contractors to knowingly ignore the 
requirements for the proper handling of ACM. These contractors do not 
remove or dispose of ACM in a proper manner. They pocket the cost of 
training, permitting and disposal fees. Often they work at night and 
use temporary or undocumented workers to avoid being detected. These 
contractors flourish by offering low cost ACM removal. Confusion is 
also generated by manufacturers' claims that chrysotile asbestos is not 
as hazardous as other forms of asbestos or that the concentration of 
asbestos is so low that it is not a hazard.
    In summary, I respectfully submit the following recommendations to 
the committee to keep workers safe from asbestos exposure:
    <bullet> Increased asbestos awareness training for workers. Even 
though OSHA requires initial training of workers who can be exposed to 
asbestos, with follow-up annual refresher training, most construction 
workers have not been trained in how to work safely when disturbing or 
removing asbestos. The Center to Protect Workers' Rights and several 
Building Trades affiliates train workers who can be exposed to asbestos 
at EPA's Superfund sites and at Department of Energy nuclear weapons 
facilities. I believe that there is a great need for more funding to 
train asbestos-exposed construction workers.
    <bullet> Adequate medical screening. Because of the mobile nature 
of the construction workforce, it is difficult to provide adequate 
medical screening to determine when construction workers are 
experiencing asbestos-related health problems. Further, most state 
workers' compensation systems don't compensate occupational diseases 
caused by asbestos. As a result, the burden of paying medical costs 
falls on the worker and any health insurance plan, not the employer. I 
believe that legislation is necessary to ensure that construction 
workers can obtain proper medical surveillance and not be burdened with 
the medical costs if they do become ill from asbestos exposure.
    <bullet> License and bond ACM removal companies. A step in the 
right direction would be to strengthen the licensing requirement for 
all companies and individuals that both characterize and remove ACM. 
This licensing process would be coupled with the posting of a 
sufficient bond to cover all default and liability issues. All 
structures built prior to 1980 need to be characterized prior to any 
permits being issued for modifications or demolitions. All contracts 
for ACM removal should require the successful bidder to participate in 
a registered apprenticeship program that provides asbestos awareness 
education of all workers, both apprentice and journeyman, with 
specialized training for the individuals that work with ACM. Finally, I 
suggest increasing the amount of enforcement of existing asbestos 
standards, coupled with debarment of anyone who knowingly violates the 
asbestos regulations on removal and disposal.
    I am pleased that the Senate is taking another look at the issue of 
workers unknowingly being exposed to asbestos. The Building Trades and 
Construction Department stands ready to work with the committee to 
remedy this problem.
    With kind personal regards, I am
            Sincerely yours,
                                        Edward C. Sullivan,
                                                         President.
                                 ______
                                 

                 Statement of Michael McCann, PhD, CIH

    I am a certified industrial hygienist with a doctorate in chemistry 
and since 1974 have specialized in the health and safety hazards of 
arts and crafts materials. In 1977, 1 formed the Center for Safety in 
the Arts, a not-for-profit organization, which I headed for almost 20 
years. In 1992, we received a Mayor's Very Special Arts New York City 
Special Citation for our work. I am a consultant to art schools and art 
departments in schools and colleges. I have lectured and written 
extensively on art hazards, including the books Artist Beware, Health 
Hazards Manual for Artists, and Art Safety Procedures for Art Schools 
and Art Departments. In the early 1980's, I testified on the hazards of 
art and crafts materials at a Congressional Committee hearing and a New 
York State Assembly hearing. In 1980, I helped prepare comments on the 
use of asbestos-contaminated talc and vermiculite for the Consumer 
Product Safety Commission for their Proposed Rulemaking on Asbestos in 
Consumer Products.
    Many artists, art teachers, and art students--including children--
are exposed to asbestos-contaminated talc and vermiculite. Workers in 
the pottery and ceramics industries are also exposed.
    Talc is a common additive to clays and pottery glazes which are 
used for making pottery. Many potters, art schools and college art 
departments--and even some secondary school art departments--purchase 
powdered clay, talc, and other ingredients to mix up their own clay and 
glazes. During the mixing process, these powders can be inhaled. The 
pottery glazes are often sprayed to apply them to the pottery before 
firing in a kiln to give a glazed finish. After firing, the glazed 
pottery is often sanded, which creates a dust which can be inhaled. I 
have even observed elementary school children sanding glazed pottery 
made with talc-containing glazes.
    One of the main sources of talc used in pottery has been the R.T. 
Vanderbilt Company, sold under the trade name NYTAL. This talc comes 
from mines in Gouveneur, New York. A quarter of a century ago, NIOSH 
studies found that talc from these mines were contaminated with both 
anthophyllite and tremolite asbestos, and that miners of this talc had 
high rates of asbestos-related cancers.
    In 1979, Audrey R. Eichelmann, a ceramicist in Port Ewan, New York, 
developed mesothelioma, an incurable cancer caused almost exclusively 
by exposure to asbestos. She had never worked knowingly with asbestos, 
and her only possible exposure came from sanding and finishing 
porcelain dolls and other pottery that contained asbestos-contaminated 
talc. Audrey Eichelmann died on August 14, 1981 as a result of her 
cancer.
    Vermiculite is also used in art as an additive in clay, plastic 
resins, and plaster as a filling or texturing ingredient. Artist and 
art students can be exposed to the dust from the vermiculite when they 
add it to these art materials. Asbestos contamination in some 
vermiculites is well established. Studies have shown, for example, that 
talc produced by W.R. Grace in Libby, Montana is contaminated with 
asbestos and that talc miners in Libby have high rates of asbestos-
related cancers.
    There are asbestos-free talcs and vermiculites. Unfortunately, the 
only way schools and artists have of determining whether their talc or 
vermiculite is asbestos-free is from information provided by 
manufacturers on labels and Material Safety Data Sheets. However, this 
information is often not reliable. For example, Vanderbilt has 
constantly denied that its talc contains asbestos and W.R. Grace has 
denied that its vermiculite contains dangerous levels of asbestos.
    Even requesting analysis data from the manufacturer is not 
reliable. In one instance, I requested analytical data from a Texas 
talc supplier. The data provided stated that there was no detectable 
asbestos. However, the analytical method used had a detection limit of 
5% asbestos. So this talc could have contained 4% asbestos and the 
testing method would not have detected it. It is not practical for 
artists or schools to have their own analysis performed.
    What is the solution to this problem? There are asbestos-free talcs 
and vermiculites. I believe legislation is needed to ban asbestos-
contamination in these and other consumer products. This ban should 
also require manufacturers to use state-of-the-art analytical 
techniques that can detect low levels of asbestos.
                                 ______
                                 

                 Prepared Statement of Barry Castleman

                              introduction
    Thank you for inviting me to comment on the status of asbestos 
problems in the US and the world. I am trained in chemical and 
environmental engineering, and have a Doctor of Science degree from the 
Johns Hopkins School of Public Health. I have spent the past 30 years 
working on asbestos as a public health problem. I have been a 
consultant to numerous agencies of the US government and other 
governments, international bodies, and environmental groups dealing 
with a wide range of public health issues. I have also testified in 
civil litigation in the US, on the history of asbestos as a public 
health problem and the reasons for failures to properly control its 
hazards.
                           why ban asbestos?
    Around 30 years ago, new federal agencies were created to deal with 
such things as asbestos (EPA, OSHA, NIOSH, CPSC). Looking back, we can 
see that one lesson of the past 30 years of asbestos regulation is that 
nothing works better than a ban.
    <bullet> There are still over 1000 OSHA asbestos citations/yr. in 
recent years including a brake plant still dry-sweeping more than 25 
years after this was forbidden by first OSHA regulations.
    <bullet> Some manufacturers facing specific product bans have 
waited until the day the ban took effect to stop selling the products, 
even products associated with substantial long-term liabilities. I 
shudder to think how long Georgia-Pacific would have taken to stop 
selling asbestos-containing drywall patching compounds if the Natural 
Resources Defense Council had not pressed the government (CPSC) to ban 
those products.
    <bullet> The EPA ban on asbestos-containing sprayed fireproofing 
insulation was for some reason finally issued with a loophole allowing 
such products to be sold if they had less than 1% asbestos in them. 
Even I only learned in recent months that this scientifically 
unjustified tolerance enabled WR Grace to continue marketing sprayed 
products with just under 1% asbestos in them, marketed by the company 
as ``asbestos-free'' for many years after the EPA rules took effect.
    I am not saying the EPA regulations justified WR Grace selling that 
attic insulation as ``asbestos-free''. Grace should at least have 
warned consumers of the presence of asbestos in the product from a mine 
that was originally called the Vermiculite and Asbestos Corporation 
when it opened back in 1919. 1 think that there should be personal, 
criminal liability for selling such products without warnings to 
consumers in the 1970s and 1980s. The history of asbestos product 
marketing is unfortunately replete with stories of what many people 
might regard as toxic corporate crime.
    But my main subject here is regulation, not incarceration.
    There is no safe variety of asbestos, and international and US 
authorities have repeatedly stated that there is no safe level of 
exposure to asbestos. It is impossible and unnecessary to try to 
control the hazards to workers from asbestos in automotive brake shoes 
and linings in new cars. Sweden led the world in showing in the 1980s 
that cars and trucks would stop just as surely with asbestos-free 
brakes. They started with replacement brakes for older cars and by 1987 
added the requirement that new cars could not be sold in Sweden with 
asbestos brakes. In 1996, France decided to ban asbestos, and asbestos-
cement construction product plants had to either convert to non-
asbestos substitutes or shut down. The A-C plants converted to safer 
substitutes, and now use cellulose, fibrous glass, and/or polyvinyl 
alcohol fibers.
    Starting with the Nordic countries, many leading nations in the 
control of occupational and environmental hazards have banned asbestos. 
By 1999, all the leading economic powers of Europe had banned asbestos, 
and the European Union had in place a deadline of 2005 for all member 
countries (and countries that want to join the European Union). 
Meanwhile, most of the countries of Asia and Latin America continue to 
use lots of asbestos, although they are wising up.
              the epa's attempt to ban asbestos in the usa
    The EPA tried to phase out the use of asbestos here in regulations 
published in 1989. All major uses of asbestos would have been banned in 
three groups, the last by 1997. When this was challenged in court, the 
rules were overturned because the court blamed EPA for not looking into 
a crystal ball and performing a quantitative risk analysis for all the 
substitute products that would replace the asbestos ones. EPA was 
miffed that the court laid such a burden on the agency and later wrote, 
``EPA believes the court made significant legal errors in interpreting 
the Toxic Substances Control Act (TSCA) and in substituting its 
judgment for that of EPA in balancing the costs and benefits of the 
asbestos-containing products banned by the rule.'' Nonetheless, EPA did 
not appeal the court decision, and 10 years later we still have 
asbestos products manufactured in and imported into the United States.
    EPA attempted to get agreement of the auto manufacturers to phase 
out the use of asbestos in 1992, after the court overturned the ban 
rule. Though the initial response was encouraging, the auto companies 
scattered when the asbestos industry threatened an antitrust suit. So 
asbestos parts are still used in some new vehicles to this day, despite 
leading auto makers' assurances to EPA in 1992 that they could still 
meet the deadlines of the overturned ban/phase-out rule.
   without a ban in the us, asbestos products continue to be imported
    At least one US-based corporation has a plant in Mexico making 
asbestos-containing gaskets. If these products are among the gaskets 
imported into the US from Mexico, they would amount to a circumvention 
of OSHA and EPA asbestos regulations (with the associated costs these 
regulations entail). The consequent savings to the manufacturer (in 
fixed and operating costs, insurance, and liabilities) would constitute 
an unfair advantage in that the lowering of production costs (i.e., the 
increase in profits) occurs at the expense of the Mexican workers, 
environment, and taxpayers. This ``externalization of costs'' that by 
right should be part of the costs of production borne by the 
manufacturer constitutes an unfair advantage over US manufacturers of 
safer, asbestos-free gaskets.
    In 1998, I visited a plant of a company called Teadit in Brazil, 
where I saw workers using punch presses and power saws on asbestos 
gasket materials without any local exhaust ventilation to capture the 
dust. One of the customers for the Teadit gaskets at that time was 
General Motors in Brazil. Teadit now has an office in Houston and 
offers asbestos gaskets made in Brazil in the US. You can buy punched 
gaskets from their distributor with no warning labeling.
    Once asbestos gaskets are imported, they constitute a hazard to 
workers and consumers in the US. Quite possibly, by the time anyone 
gets sick from these products in the US, there won't be any corporate 
entity left standing to cover the liabilities from the death and 
disease caused by these products.
    The US continues to import substantial amounts of asbestos-cement 
construction materials, asbestos brake shoes and linings, and other 
asbestos products. In the year 2000, the US imported over 50,000 metric 
tons of asbestos-cement articles and over 200 tons of asbestos textile 
products (yarn, thread, clothing)--these hazardous products are not 
even made in the US anymore, they haven't been for many years. The 
asbestos-cement products are mainly construction materials whose 
handling, transport, installation (with cutting, drilling, etc.), 
renovation, and demolition expose countless US workers and other 
citizens to hazardous occupational and environmental hazards. This is 
unnecessary contamination of the living environment. No doubt, it is 
largely unrecognized asbestos exposure; and even when it is identified 
as asbestos exposure, it is from a practical point of view 
uncontrollable by merely trying to enforce regulations on asbestos use. 
Asbestos textile products are generally made now only in the poorer 
countries, they are hazardous both to manufacture and to use. China, 
South Africa, Brazil, Mexico, and Korea are leading suppliers of these 
commodities imported in recent years by the US.
    Included as an ``asbestos'' product import category is brake 
linings and pads, whose importation rose from $59 million in 1996 to 
$89 million in 2000. In the brake friction products category, leading 
exporters have included Brazil and Mexico. It is likely that some of 
the products included in this historically asbestos product 
classification are now asbestos-free, since we also have imported these 
products from Germany and Denmark in 2000, countries where asbestos has 
long been banned. But unless and until the International Trade 
Commission creates separate commodity numbers for asbestos- and 
asbestos-free brake products we have no way of knowing the true extent 
and trend of asbestos product imports of this type. The same is true 
for the $9 million worth of ``asbestos articles and friction material 
used in aircraft'' the US imported in 2000. Even some of the asbestos-
cement product import categories are defined broadly enough to 
encompass non-asbestos fiber-cements using such things as cellulose 
fibers (``or the like'').
    The only trade-neutral way to stop the continuing importation of 
asbestos products is to ban the manufacture, use, and importation of 
asbestos products in the US.
                       the wto asbestos decision
    The World Trade Organization authorized national bans on asbestos 
in a case whose appellate decision was announced in March of 2001. 
Canada, which exports almost all of the asbestos it mines to the Third 
World, had challenged the ban on asbestos in France as an unfair trade 
measure. In the end, even the free trade fundamentalists at the WTO had 
to agree that ``controlled use'' of asbestos was unrealistic, that no 
level of exposure could be considered free from the risk of cancer, and 
that safer substitutes were available. The US, which usually sides with 
parties urging the elimination of barriers to trade, in this case 
agreed that France was justified in banning asbestos. I was a 
scientific advisor to the European Commission in defending the French 
ban at the WTO (for further details, see ``The WTO Asbestos Case and 
Its Health and Trade Implications'' at www.ibas.btinternet.co.uk).
               auto makers lack global policy on asbestos
    In 1998, I learned that General Motors was using asbestos-
containing engine gaskets in new cars made in Brazil. I contacted a 
knowledgeable GM engineer named in a 1992 GM response to the EPA's 
effort to obtain a voluntary phase-out of asbestos by the car 
manufacturers. He explained that GM had converted to substitute 
materials in North America about 5 years earlier. At that time, GM was 
still using asbestos brakes on new Chevrolet Cavaliers and Pontiac 
Sunbirds, and had no plan to change before 2002. By 1998, most of the 
cars and even replacement brake parts sold by GM and the other auto 
makers in Europe had to be asbestos-free. I decided to ask each of the 
``Big 3'' US auto makers if they had a global policy for eliminating 
asbestos parts.
    The corporate public relations people at GM, Ford, and Chrysler 
were unwilling to answer my letters, and I persisted with follow-up 
telephone calls. I also wrote letters to senior management executives 
during the past year. When Chrysler merged with Daimler-Benz, I wrote 
to James Thomas, Director of Health, Safety, and Environmental Affairs, 
that perhaps the merger with the German firm (Germany banned asbestos 
in 1994) would be accompanied by a recognition that international 
double standards in occupational and environmental health are 
unacceptable, at least in the case of asbestos. When the New York Times 
editorialized (``Ford Motor's Environmental Candor'') thatFord Chairman 
William Ford appeared eager to make cars that were more socially 
acceptable, I wrote to him to ask if Ford had a global policy to 
eliminate asbestos. Four months later, after being asked in a 
deposition by a Ford lawyer if I had ever followed up on my original 
letter, I sent another note to Chairman Ford. When GM Vice Chairman 
Harry Pierce had a letter published in the New York Times about 
``Getting Religion on Corporate Ethics'', I politely wrote to ask him 
if GM had a global asbestos elimination policy.
    I have received only responses to the effect that, since I am 
listed as an expert witness in some product liability lawsuits brought 
by brake mechanics with asbestos diseases against the auto companies 
for things that occurred in the past, the companies refuse to answer 
any of my questions. Though I neither regarded these inquiries as 
having anything to do with litigation nor was I paid for my work on 
this, it made no difference to the corporate officials and lawyers who 
have discussed this with me in phone calls and depositions. One even 
threatened me with some unnamed legal action if I persisted in trying 
to contact corporate officials.
    Maybe it would help get these and the rest of the giant automotive 
companies to stop using asbestos if the US market for cars, trucks, and 
replacement parts was made asbestos-free by an act of Congress. If all 
these countries below can ban asbestos, surely the US can, too.

                             Asbestos Bans

                             date and event
    1983--Iceland introduces ban (with exceptions) on all types of 
asbestos (updated in 1996).
    1984--Norway introduces ban (with exceptions) on all types of 
asbestos (revised 1991).
    Mid-1980s--El Salvador bans asbestos.
    1986--Denmark bans (with exceptions) chrysotile asbestos.
    1986--Sweden introduces the first of a series of bans (with 
exceptions) on various uses of chrysotile.
    1988--Hungary bans amphibole asbestos minerals.
    1989--Switzerland bans crocidolite, amosite and chrysotile (some 
exceptions).
    1990--Austria introduces ban on chrysotile (some exceptions).
    1991--The Netherlands introduces the first bans (with exceptions) 
on various uses of chrysotile.
    1992--Italy introduces ban on chrysotile (some exceptions until 
1994).
    1993--Germany introduces ban (with minor exemptions) on chrysotile, 
amosite and crocidolite having been banned previously. The sole 
derogation remaining is for chrysotile-containing diaphragms for 
chlorine-alkali electrolysis in already existing installations. These 
will be banned as of 2011. Finland bans all forms of asbestos including 
chrysotile.
    1996--France introduces ban (with exceptions) on chrysotile.
    1997--Poland bans asbestos.
    1998--Belgium introduces ban (with exceptions) on chrysotile. Saudi 
Arabia bans asbestos. Lithuania issues first law restricting asbestos 
use; ban 2004.
    1999--UK bans chrysotile (with minor exemptions).
    2000--Ireland bans chrysotile (with exceptions).
    2000/2001--Brazil--the four most populous states ban asbestos as 
well as many towns and cities.
    2001--Latvia bans asbestos (asbestos products already installed 
must be labeled). Chile bans asbestos.
    2002--Spain and Luxembourg plan to ban chrysotile, crocidolite and 
amosite having been banned under earlier EU directives.
    2003--Australian asbestos ban takes effect.
    2005--Hungary expects to ban chrysotile. E.U. members Portugal and 
Greece deadline for Bans. Slovak Republic expects to adopt EU asbestos 
restrictions.
    Other countries that have banned asbestos, for which ban dates are 
being sought: New Zealand, Czech Republic, Slovenia.
                                 ______
                                 

                      Statement of Gary F. Collins

    Mr. Chairman, I want to thank you for the opportunity to submit my 
testimony by writing to the committee on the extremely important issues 
of work place safety and asbestos contamination.
    Almost 35 years ago, my father, Donald E. Collins, went to work for 
the O.M. Scotts company thinking that he had found a job that could 
support his family. Instead, he ended up with a condition that would 
eventually kill him. In 1977, he was diagnosed with bilateral pleural 
effusions on his lungs. He had a lung biopsy performed at Ohio State 
University Medical Center. After the biopsy, he then underwent a left 
thoracotomy and a left lung decortication.
    In 1978, my father once again went into the Ohio State University 
Medical Center and had a right lung decortication. After the first lung 
operation, the doctors suspected that he had been exposed to asbestos. 
In 1981, he had a triple bypass surgery on his heart. What my father 
had was asbestosis, an incurable thickening and scarring of the lungs, 
which gradually suffocates a person. The asbestosis aggravated his 
heart disease, forcing his heart to work harder to extract oxygen. In 
November of 1986 my father passed away. His death certificate states 
that he died of pulmonary fibrosis which can be attributed to the 
asbestosis.
    My father worked for the O.M. Scotts Company from December, 1966 
through May, 1974. The employees of the Scotts Co. were notified around 
1976 that there was a possible asbestos contamination at the plant. 
However, others, including my father, were not notified until November, 
1979, almost 3 years after the first employees had been notified.
    The O.M. Scotts Company's actions during this period are 
inexcusable. The Company was fatally slow in notifying those 
individuals who were risking their health because of the asbestos 
contamination. The reason I believe that the O.M. Scotts company was 
slow in contacting these people was because of money. If it were 
publicized that the Scotts Co. was using asbestos in their fertilizer, 
which was sold to individuals and companies nationwide, the financial 
loss would have been tremendous.
    I personally do not think O.M. Scotts cared that there was asbestos 
in the vermiculite that they were using. It was cheap and easy to use. 
They were covered under the Ohio Workers Compensation so they couldn't 
be sued. They neither worried nor cared about the effects it had on 
their workers.
    In 1981, my father and Lloyd Gordon, another worker from Scotts, 
sued the O.M. Scotts Company and W.R. Grace and Co. for $5.9 million. 
However, we ended up with much less. We settled for approximately 
$200,000. We received a check for $50,000 immediately after we settled 
the case. We then received monthly checks of $500 that arrived each 
month for ten years. The rest of the money came at specified times over 
the next 20 years. The attorney's fees took most of the original lump 
sum. Of $50,000, the attorneys took $46,000.
    After going through the two lung operations and the open heart 
surgery, my father rarely complained about what happened to him. He 
thought it more important to focus on the more positive aspects in 
life. The fact that he was still alive after going through the 
operations and the complications of surgery, such as, double pneumonia, 
was enough for him.
    Before my father was afflicted with asbestosis, he was my coach in 
little baseball and football. This continued after and during his 
operations. His dedication to his son never wavered. He also took over 
the duties as Cub Scout Master for my cub pack. My father enjoyed these 
things. He felt like he was giving to the community, like his father 
had.
    In 1977, in the midst of his operations, my father started college 
at Columbus Technical Institute, now known as Columbus State Community 
College. He used his GI Bill to get an Associates Degree in drafting. 
My father, while getting his degree, had his two lung operations. His 
surgeries were scheduled during times when school was on a break so he 
wouldn't miss any class time. Although he worked hard to get his 
degree, he never got to use it. My father was declared 100 percent 
disabled, barring him from doing any work where he would be covered 
under Workers Compensation. The only job my father could get was 
working 3rd shift as a security guard, part-time, so that it wouldn't 
interfere with his disability benefits.
    During all this, my father continued to coach little league 
baseball. This was his life. In many ways, he saw it as a way to teach 
kids the fundamental aspects of baseball, but also the simple things in 
life that matter. My father was more than just a coach to many kids, to 
some he was a big brother, to others he was their only father figure. 
He loved being around the baseball field and the kids.
    My father never let anyone, except my mother and I, know about the 
day-to-day pain he endured. From his chest hurting from the operations 
to the shortness of breath that would plague him, he quietly suffered. 
He didn't want anyone's sympathy; he just wanted to be treated like any 
other normal human being. When my father had to take his oxygen tanks 
with him to the ball field, he would explain to the kids what he was 
wearing so they would understand. He would tell them that it was 
something to help him breath because of his operations, and he would 
show them his scars. He was very patient with them. All of the parents 
who had kids on my fathers baseball teams would help explain to their 
kids what my father had gone through.
    My mother and I seamed to grow stronger as individuals and grow 
closer during my father's illness. We both went through his pain with 
him. When we were at home, there were times when he would do nothing 
but sleep because the amount of work it took to just breath would wear 
him out. Hot and humid days were especially tough on him; because of 
the thickness of the air, it was hard for me to breathe--I know it had 
to be ten times harder on him.
    My father and I would go through kind of a nightly routine. I would 
massage his back and rub vitamin E into his scars. I was the only 
person I think he allowed to touch them because he was so sensitive in 
those areas, even years after the operations.
    I think my mother and I didn't really look at how the asbestos 
caused us any pain, but we did go through his pain with him. I used to 
get sympathy pains sometimes in my chest when his chest was hurting. My 
father didn't let what happened to him at Scotts slow down his life 
any. I think he was just as busy with his illness as he would have been 
had he not been stricken with the asbestosis. Don't get me wrong--this 
disease reduces the body it has entered down to a shell of what it use 
to be. It leaves them with little or no strength at all, and they need 
help with things that they once could do on their own.
    Asbestosis strangles the body. My father, in layman's terms, died 
from lack of oxygen in the blood stream, which eventually suffocates 
the brain, and causes death. There is nothing that can be done to help 
a person who gets asbestos on their lungs, except a lung transplant. 
The chances of living a long life with new lungs is just as promising 
as living a long life with lungs that have been operated on, once they 
have been cleared of the asbestos; however, they still have scar tissue 
on them. They may have removed the asbestos from my fathers lungs, but 
the damage was done. The scar tissue did the rest of the damage. It 
caused him to work harder to get more oxygen into his blood, which 
caused him to have a heart attack in 1981.
    My mother and I learned a lot from my father after his death in 
November 1986. He taught us to live our lives to their fullest now 
because you never know what is going to happen to you. My mother helped 
at the church with the youth group. I joined the Air Force and served 
my country like my father had in the early 1960's in the Army. We both 
lived our lives to the fullest after his death. My mother passed away 
10 years after my father of pancreatic cancer. When she found out that 
she had the disease, it was in the last states, and it was diagnosed as 
incurable. She did the same thing my father did. She did all that she 
could do to the best of her ability until she was no longer capable of 
doing so.
    I have dedicated most of my life to working in state and local 
government. I have been the Mayor of Unionville Center, Ohio, which is 
the birthplace of Vice-President Charles Fairbanks. When I took over as 
Mayor, I had one goal in mind: to help the people of my village. That 
is what I did because that is what my father would have done. The 
greatest pleasure I get out of life is to help those who are unable to 
themselves and be an active part of society. I learned this through 
watching my father do the same thing.
    How does all of this tie back into why asbestos is bad? Look at 
what my father did in his short period of time here on earth. Now, 
imagine what he could have done for his family and his community if he 
were still here, and he had not died from asbestos on his lungs. The 
same goes for all of the families that have been affected by the 
asbestos. What differences would they have made in today's society had 
they been able to contribute? I know it would have been substantial.
    Currently, I serve as a Senior Fiscal Analyst for the Oklahoma 
House of Representatives. One of my responsibilities is to determine 
the fiscal impact of bills. I approach this job in much the same way. 
What is the cost efficiency of using a material that harms someone 
versus not using it? I think the impact is beyond comprehension. There 
is no dollar figure you can put on any one human life. However, the 
companies who mine and continue to use vermiculite do this everyday. 
They are saying a human life is worth this amount to use, and they are 
willing to pay that price. They do not understand the implications of 
their actions. They do not understand what it is like to lose someone 
because someone else decided that it was not a harmful product. They do 
not understand, and they will not understand until it happens to them.
    I would like to thank the Committee for allowing me the chance to 
submit this written testimony. I would also like to thank Senator 
Murray for bringing forward such a very important topic that needs to 
be resolved soon, before more people are harmed by the affects of 
asbestos.
                                 ______
                                 

                        Statement of James Fite

    Senator Patricia Murry and Committee Members, my name is James 
Fite; I am a founder and the current National Secretary of the White 
Lung Association. Victims of asbestos disease and their families formed 
the WLA in 1979. For over twenty years we have educated the general 
public to the hazards of asbestos exposure. We have testified before 
several Senate, House and regulatory agency hearings on the hazards of 
asbestos. We have thousands of members through the United States, Our 
lives are our testimony.
    In the interest of time I will dispense with the horror and misery, 
which asbestos victims must endure. Do not be deceived to think that 
the compensation system or the tort system brings us justice. Over 80% 
of insurance and company funds paid for asbestos liability lands in the 
hands of non-victims. Please do not bother to shed crocodile tears for 
our fate; we have seen it all before. What we want is sincere action on 
behalf of the people.
    If you want to help asbestos victims, the people of the United 
States and the environment, please ban asbestos and assure that 
asbestos victims receive compensation.
    Each year more people apply for compensation for their asbestos 
related disease. Each of the ``funds'' set up for victims has been 
exhausted because the courts ignored the evidence presented by the 
White Lung Association and underestimated the amount of people who have 
been diseased and disabled by asbestos exposure. This problem is not 
going away, it is getting worse. As terrible as our experience with 
asbestos has been, our society has not seen the worst yet. Please act 
to ban asbestos and adequately compensate the millions of its victims.
                                 ______
                                 

                   Ban Asbestos in the United States

    The asbestos form minerals should have never been taken from the 
earth. Asbestos has killed over a million people in the United States. 
We continue to spend billions of dollars a year cleaning up for the 
past use of asbestos. Each year, over 250,000 sick people or their 
families, file claims for compensation for asbestos-related disease. 
Yet this horrible substance is still being distributed through our 
society. Asbestos used today will guarantee the deaths of thousands of 
our children and grand-children. Why does this madness continue? Why 
doesn't the United State congress join with Europe and over a dozen 
other countries in banning all uses of asbestos?
    Until 1980, the U.S. industry placed 700,000 thousand tons of 
asbestos in over three thousand different building and machine parts. 
This was done each year. Many times the asbestos was only part of the 
mixture of glue, plaster, cement, paper, rope, gasket, break, pad or 
paint. Asbestos killed the workers who made and installed these 
products. As these products were used, the asbestos escaped to pollute 
everyone's environment. Now innocent children and adults, who have no 
occupational contact with asbestos, are getting deadly mesothelioma 
cancer. Asthma, lung infections like bronchititus, heart attacks, 
cancers/infections throughout the body are increasing as a result of 
asbestos exposure. Ninety-percent of autopsies in New York City showed 
asbestos related lung changes and fibers of asbestos. The ages ranged 
from 1-78.
    Recently a national scandal erupted in Libby, Montana. Thousands of 
people, including children, are found to have asbestos related disease 
or are under constant monitoring due to asbestos exposure from the 
vermiculite mine. Vermiculite, known by the EPA to contain up to 14% 
deadly asbestos, is still allowed to be sold as attic insulation and 
potting soil. Now nursery workers, rail road workers and others are 
dying from asbestos disease due to their exposure to vermiculite. The 
EPA could have stopped this in 1984 but failed to do so. This example 
is one of thousands that show the ``controlled use'' of asbestos is not 
possible without spreading disease and death. Asbestos use in any form 
is deadly. Asbestos must be ban. The United States must forbid any 
company from exporting or importing asbestos. All contaminated areas 
must be cleaned properly. All asbestos victims must be fully 
compensated. This tragedy has gone on far too long. The asbestos 
industry represents only a fraction of 1% of the business community. 
Its assets and those of its insurers offer the basis for funding the 
solutions. No real solutions can be provided without first banning 
asbestos. The ban must include decontamination programs and 
compensation programs. The U.S. uses less than 25,000 tons of asbestos 
each year and there are many suitable and safe substitutes.
                                             Paul Safchuck,
                                 President, White Lung Association.
[GRAPHIC] [TIFF OMITTED] T4484.001

[GRAPHIC] [TIFF OMITTED] T4484.002

[GRAPHIC] [TIFF OMITTED] T4484.003

[GRAPHIC] [TIFF OMITTED] T4484.004

[GRAPHIC] [TIFF OMITTED] T4484.005

[GRAPHIC] [TIFF OMITTED] T4484.006

[GRAPHIC] [TIFF OMITTED] T4484.007

[GRAPHIC] [TIFF OMITTED] T4484.008

[GRAPHIC] [TIFF OMITTED] T4484.009

[GRAPHIC] [TIFF OMITTED] T4484.010

[GRAPHIC] [TIFF OMITTED] T4484.011

[GRAPHIC] [TIFF OMITTED] T4484.012

[GRAPHIC] [TIFF OMITTED] T4484.013

[GRAPHIC] [TIFF OMITTED] T4484.014

[GRAPHIC] [TIFF OMITTED] T4484.015

[GRAPHIC] [TIFF OMITTED] T4484.016

[GRAPHIC] [TIFF OMITTED] T4484.017

[GRAPHIC] [TIFF OMITTED] T4484.018

[GRAPHIC] [TIFF OMITTED] T4484.019

[GRAPHIC] [TIFF OMITTED] T4484.020

[GRAPHIC] [TIFF OMITTED] T4484.021

[GRAPHIC] [TIFF OMITTED] T4484.022

[GRAPHIC] [TIFF OMITTED] T4484.023

[GRAPHIC] [TIFF OMITTED] T4484.024

[GRAPHIC] [TIFF OMITTED] T4484.025

[GRAPHIC] [TIFF OMITTED] T4484.026

[GRAPHIC] [TIFF OMITTED] T4484.027

[GRAPHIC] [TIFF OMITTED] T4484.028

[GRAPHIC] [TIFF OMITTED] T4484.029

[GRAPHIC] [TIFF OMITTED] T4484.030

[GRAPHIC] [TIFF OMITTED] T4484.031

[GRAPHIC] [TIFF OMITTED] T4484.032

[GRAPHIC] [TIFF OMITTED] T4484.033

[GRAPHIC] [TIFF OMITTED] T4484.034

[GRAPHIC] [TIFF OMITTED] T4484.035

[GRAPHIC] [TIFF OMITTED] T4484.036

[GRAPHIC] [TIFF OMITTED] T4484.037

[GRAPHIC] [TIFF OMITTED] T4484.038

[GRAPHIC] [TIFF OMITTED] T4484.039

[GRAPHIC] [TIFF OMITTED] T4484.040

[GRAPHIC] [TIFF OMITTED] T4484.041

[GRAPHIC] [TIFF OMITTED] T4484.042

[GRAPHIC] [TIFF OMITTED] T4484.043

[GRAPHIC] [TIFF OMITTED] T4484.044

[GRAPHIC] [TIFF OMITTED] T4484.045

[GRAPHIC] [TIFF OMITTED] T4484.046

[GRAPHIC] [TIFF OMITTED] T4484.047

[GRAPHIC] [TIFF OMITTED] T4484.048

[GRAPHIC] [TIFF OMITTED] T4484.049

[GRAPHIC] [TIFF OMITTED] T4484.050

[GRAPHIC] [TIFF OMITTED] T4484.051

[GRAPHIC] [TIFF OMITTED] T4484.052

[GRAPHIC] [TIFF OMITTED] T4484.053

[GRAPHIC] [TIFF OMITTED] T4484.054

[GRAPHIC] [TIFF OMITTED] T4484.055

[GRAPHIC] [TIFF OMITTED] T4484.056

[GRAPHIC] [TIFF OMITTED] T4484.057

[GRAPHIC] [TIFF OMITTED] T4484.058

[GRAPHIC] [TIFF OMITTED] T4484.059

[GRAPHIC] [TIFF OMITTED] T4484.060

[GRAPHIC] [TIFF OMITTED] T4484.061

[GRAPHIC] [TIFF OMITTED] T4484.062

[GRAPHIC] [TIFF OMITTED] T4484.063

[GRAPHIC] [TIFF OMITTED] T4484.064

[GRAPHIC] [TIFF OMITTED] T4484.065

[GRAPHIC] [TIFF OMITTED] T4484.066

[GRAPHIC] [TIFF OMITTED] T4484.067

[GRAPHIC] [TIFF OMITTED] T4484.068

[GRAPHIC] [TIFF OMITTED] T4484.069

[GRAPHIC] [TIFF OMITTED] T4484.070

[GRAPHIC] [TIFF OMITTED] T4484.071

[GRAPHIC] [TIFF OMITTED] T4484.072

[GRAPHIC] [TIFF OMITTED] T4484.073

[GRAPHIC] [TIFF OMITTED] T4484.074

[GRAPHIC] [TIFF OMITTED] T4484.075

[GRAPHIC] [TIFF OMITTED] T4484.076

[GRAPHIC] [TIFF OMITTED] T4484.077

[GRAPHIC] [TIFF OMITTED] T4484.078

[GRAPHIC] [TIFF OMITTED] T4484.079

[GRAPHIC] [TIFF OMITTED] T4484.080

[GRAPHIC] [TIFF OMITTED] T4484.081

[GRAPHIC] [TIFF OMITTED] T4484.082

[GRAPHIC] [TIFF OMITTED] T4484.083

[GRAPHIC] [TIFF OMITTED] T4484.084

[GRAPHIC] [TIFF OMITTED] T4484.085

[GRAPHIC] [TIFF OMITTED] T4484.086

[GRAPHIC] [TIFF OMITTED] T4484.087

[GRAPHIC] [TIFF OMITTED] T4484.088

[GRAPHIC] [TIFF OMITTED] T4484.089

[GRAPHIC] [TIFF OMITTED] T4484.090

[GRAPHIC] [TIFF OMITTED] T4484.091

[GRAPHIC] [TIFF OMITTED] T4484.092

[GRAPHIC] [TIFF OMITTED] T4484.093

[GRAPHIC] [TIFF OMITTED] T4484.094

[GRAPHIC] [TIFF OMITTED] T4484.095

[GRAPHIC] [TIFF OMITTED] T4484.096

[GRAPHIC] [TIFF OMITTED] T4484.097

[GRAPHIC] [TIFF OMITTED] T4484.098

[GRAPHIC] [TIFF OMITTED] T4484.099

[GRAPHIC] [TIFF OMITTED] T4484.100

[GRAPHIC] [TIFF OMITTED] T4484.101

[GRAPHIC] [TIFF OMITTED] T4484.102

[GRAPHIC] [TIFF OMITTED] T4484.103

[GRAPHIC] [TIFF OMITTED] T4484.104

[GRAPHIC] [TIFF OMITTED] T4484.105

[GRAPHIC] [TIFF OMITTED] T4484.106

[GRAPHIC] [TIFF OMITTED] T4484.107

[GRAPHIC] [TIFF OMITTED] T4484.108

[GRAPHIC] [TIFF OMITTED] T4484.109

[GRAPHIC] [TIFF OMITTED] T4484.110

[GRAPHIC] [TIFF OMITTED] T4484.111

[GRAPHIC] [TIFF OMITTED] T4484.112

[GRAPHIC] [TIFF OMITTED] T4484.113

[GRAPHIC] [TIFF OMITTED] T4484.114

[GRAPHIC] [TIFF OMITTED] T4484.115

[GRAPHIC] [TIFF OMITTED] T4484.116

[GRAPHIC] [TIFF OMITTED] T4484.117

[GRAPHIC] [TIFF OMITTED] T4484.118

[GRAPHIC] [TIFF OMITTED] T4484.119

[GRAPHIC] [TIFF OMITTED] T4484.120

[GRAPHIC] [TIFF OMITTED] T4484.121

[GRAPHIC] [TIFF OMITTED] T4484.122

[GRAPHIC] [TIFF OMITTED] T4484.123

[GRAPHIC] [TIFF OMITTED] T4484.124

[GRAPHIC] [TIFF OMITTED] T4484.125

    [Whereupon, at 4:30 p.m., the committee was adjourned.]

                                    

      

</pre></body></html>
